<html>
<title> - ADDRESSING DOMESTIC VIOLENCE IN PROFESSIONAL SPORTS</title>
<body><pre>[Senate Hearing 113-725]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-725
 
                     ADDRESSING DOMESTIC VIOLENCE IN 
                           PROFESSIONAL SPORTS

=======================================================================

                                HEARING

                              BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                              U.S. GOVERNMENT PUBLISHING OFFICE
96-245 PDF                         WASHINGTON : 2015                              
_____________________________________________________________________________________     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  
     
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2014.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Thune.......................................     2
Statement of Senator McCaskill...................................     4
Statement of Senator Heller......................................     5
Statement of Senator Klobuchar...................................   111
Statement of Senator Schatz......................................   114
Statement of Senator Walsh.......................................   116
Statement of Senator Ayotte......................................   117
Statement of Senator Blumenthal..................................   119
Statement of Senator Booker......................................   121
Statement of Senator Cantwell....................................   123
Statement of Senator Rubio.......................................   124

                               Witnesses

Troy Vincent, Executive Vice President for Football Operations, 
  National Football League.......................................     6
    Prepared statement...........................................     8
Teri Patterson, Deputy Managing Director, NFL Players Association    10
    Prepared statement...........................................    12
Joe Torre, Executive Vice President of Baseball Operations, Major 
  League Baseball................................................    15
    Prepared statement...........................................    17
Virginia Seitz, Outside Counsel, Major League Baseball Players 
  Association....................................................    19
    Prepared statement...........................................    20
Kathy Behrens, Executive Vice President, Player Programs and 
  Social Responsibility, National Basketball Association.........    22
    Prepared statement...........................................    23
Michele Roberts, Executive Director, National Basketball Players 
  Association....................................................    70
    Prepared statement...........................................    72
Jessica Berman, Vice President and Deputy General Counsel, 
  National Hockey League.........................................    73
    Prepared statement...........................................    75
Steven Fehr, Special Counsel, National Hockey League Players 
  Association....................................................   103
    Prepared statement...........................................   104

                                Appendix

Hon. John Walsh, U.S. Senator from Montana, prepared statement...   135
Letter dated December 9, 2014 to Hon. John Rockefeller and Hon. 
  John Thune from members of the National Task Force to End 
  Sexual and Domestic Violence Against Women.....................   135
Response to written questions submitted to Troy Vincent by:
    Hon. John D. Rockefeller IV..................................   143
    Hon. Barbara Boxer...........................................   144
Response to written questions submitted to Teri Patterson by:
    Hon. John D. Rockefeller IV..................................   146
    Hon. John Thune..............................................   147
Response to written questions submitted to Joe Torre by:
    Hon. John D. Rockefeller IV..................................   148
    Hon. Barbara Boxer...........................................   149
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Virginia Seitz...............................................   150
Response to written questions submitted to Kathleen Behrens by:
    Hon. John D. Rockefeller IV..................................   151
    Hon. Barbara Boxer...........................................   152
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Michele Roberts..............................................   154
Response to Written Questions Submitted to Jessica Berman by:
    Hon. John D. Rockefeller IV..................................   156
    Hon. Barbara Boxer...........................................   156
Response to written questions submitted to Steven Fehr by:
    Hon. John D. Rockefeller IV..................................   157
    Hon. John Thune..............................................   158


          ADDRESSING DOMESTIC VIOLENCE IN PROFESSIONAL SPORTS

                              ----------                              


                       TUESDAY, DECEMBER 2, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order.
    Sports have always played a huge role, culturally and 
otherwise, in the United States. Just last week on 
Thanksgiving, millions of Americans were probably paying more 
attention to their TV sets than to their turkeys. It's part of 
our cultural deal. I hope it's a good one. Athletes have become 
icons in America. I remember my, at that time 10-year-old, son 
had this gigantic poster of Ray Nitschke. It took up half his 
room. That's the way it was then. He's now 45. That's the way 
it was then, it's the way it is now.
    Whether we like it or not, major league athletes serve as 
role models for our youth. Generations of children have grown 
up watching sporting events with their parents--it's a family 
affair--and game day traditions have been handed down from one 
generation to the next, just literally. It's an amazing 
American phenomenon. Kids wear the jerseys of their favorite 
players, they have their posters, and collect their cards, most 
of which are not charged for, I guess. But it's an amazing 
figure, and it's one that we want to talk about.
    Given this reality, I hope we can skip protestations about 
how domestic violence is a larger societal problem and not 
unique to sports. We often get that. It's not known by most, 
but this committee has complete and absolute jurisdiction, that 
is oversight, over all sports at all levels, and we have 
exercised it with college sports, the NCAA, and we are doing 
through the courtesy of your presence. Of course, it's a 
societal problem, and it's a grievous one, and it's kind of 
come upon us really fast in terms of public awareness and the 
coverage of it. But as a nation, we have a responsibility to 
collectively and aggressively address this terrible problem. We 
all do, you, we.
    But given the high-profile nature of professional sports, 
when a celebrity athlete is charged with committing domestic 
violence, it uniquely reverberates through our society in 
fascinating ways. And because professional sports enjoy unique 
benefits bestowed upon them by the public, such as public funds 
for stadiums or exemptions from antitrust laws, it's entirely 
proper for this committee to focus its attention on how 
professional sports leagues and their unions are handling the 
problem of domestic violence within their ranks.
    At today's hearing, I want to learn what the four major 
professional sports leagues and their players' associations are 
doing to address this problem, and we really do want to find 
out. I want to know if you're developing uniform policies that 
will effectively and appropriately punish players who commit 
what are criminal acts against women and children. I want to 
learn what the leagues can already do with their existing 
authorities--the NFL comes to mind on that--and what must be 
the subject of new collective bargaining, which may be more 
popular with some than with others.
    I also want to be clear. The problem of domestic violence 
in professional sports is not a problem unique to the NFL. The 
NFL has made most of the recent headlines in recent months, 
both for shocking and high-profile incidents and for the 
league's controversial response. All of the professional sports 
leagues represented here today, however, have a problem with 
athletes or employees who have committed violent, criminal 
acts, all of them. And I can give them to you if you try to 
deny it.
    Until very recently, the leagues' records have not been 
good. There's a long list of players in the NFL, the NBA, the 
NHL, and Major League Baseball who have been charged with, and 
in some cases convicted of, domestic violence, and the leagues 
have done little or nothing in response. In fact, the press has 
reported that a culture of silence within the leagues often 
prevents victims from reporting their abuse to law enforcement. 
This has to change. There are reasons for that, financial, etc. 
The culture is silence, because in most case, the athlete being 
male, the wife doesn't want to give up the salary, and all of 
these things come into it. But it has to stop, and that's what 
we're here for, to talk about it and to move forward.
    My very excellent Co-Chair here, Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding this 
hearing to discuss the serious issue of domestic violence in 
professional sports.
    And let me just say that I was that 10-year-old kid that 
you're talking about who grew up aspiring, admiring and 
idolizing professional athletes. I grew up in a small town in 
South Dakota of 800 people, where we didn't get a newspaper 
until the following day. You didn't get box scores, you got 
line scores to follow your baseball players. We got one 
television channel, the CBS affiliate, so I got to watch the 
Green Bay Packers twice a year which happened to be the two 
times they played the Minnesota Vikings in their divisional 
games. That became my team because we only got that one 
television station. We didn't have a lot of the apparel either, 
so I'd take a white T-shirt and a blue felt pen and put 32 on 
it for LA Dodgers pitcher Sandy Koufax, and I wore that. Also, 
when I was younger, I was a big Bart Starr fan, my younger 
brother was a Roger Staubuch fan.
    I tell you all that by way of background, just to indicate 
that all of us in this country have a tremendous admiration for 
people who succeed at that level. And it is incredible the 
influence that people who are successful in professional sports 
have on the young people in this country who watch them. 
Whether they like it or not, these athletes are role models, 
and certainly, we hope, good ones. That's why I think this 
domestic violence issue that's been brought to our attention 
here of late and entered the national discussion is so 
important.
    As a father of two daughters, I found the graphic security 
camera footage of running back Ray Rice and his then fiancee to 
be sickening, like so many others did across this country. I 
think the NFL's initial response to this matter was completely 
inadequate. A two-game suspension was a paltry sentence for 
such violent behavior. At best, the NFL failed to understand 
the scope and severity of the incident. At worst, by waiting to 
suspend Mr. Rice only after the elevator video was made public, 
the NFL sent a mixed message to millions of fans and the 
general public about how it handles such acts of violence.
    And of course, as you mentioned Mr. Chairman, this isn't 
unique to professional football. We're going to hear today that 
every league has experienced similar acts of violence by their 
respective players over the years. I'm troubled by recent 
remarks from the Commissioner of Baseball that seemed to 
downplay the extent of the problem within his sport. Rather 
than minimizing the issue, I believe the correct approach is 
for the leagues to engage in meaningful talks with their 
players' unions and other stakeholders to ensure player conduct 
policies are sufficient when such acts of violence are carried 
out. That may mean renegotiating certain contract provisions 
and strengthening penalties where appropriate.
    Questions of due process, such as determining if, when, and 
how a player should be disciplined are also an important part 
of this conversation. But this is a conversation that needs to 
take place because sadly, this issue isn't going away any time 
soon. While I'm encouraged to hear that in many of the leagues 
represented here today the conversation has begun, we should be 
working toward a consistent policy when it comes to such acts 
of violence.
    Violence of any kind, but particularly against women and 
children, is simply unacceptable. It is my hope that today's 
hearing will shed some light on what professional sports 
leagues are doing to address these issues. If, as many believe, 
the current policies of the national sports leagues are 
insufficient to address these concerns in an adequate and 
equitable manner, I hope that today's hearing will put pressure 
on the leagues and the players' unions to make whatever changes 
are necessary to ensure that such acts of violence are 
addressed swiftly, and perpetrators are disciplined 
appropriately.
    Mr. Chairman, in the past, we've used our jurisdiction in 
this area to examine a number of issues, ranging from steroids 
in sports to protecting children from concussions. So often, 
when we turn our attention to issues involving professional 
sports, questions are raised about whether it's the best use of 
our time and resources. For instance, in 2005, this committee 
held a series of hearings to examine the policies of major 
league baseball concerning the use of steroids. I wasn't on the 
Committee at that time, but I'm aware of some of the headlines 
that these hearings generated, including those that called the 
steroid hearings a waste of time and money.
    But Mr. Chairman, as a result of those hearings, something 
remarkable happened. Major league baseball turned the corner 
from its sordid so-called ``Steroid Era'' and implemented a 
series of sweeping reforms that we're still witnessing. Our 
committee's ability to shine a bright light on problems in the 
world of sports is often all it takes to induce real and 
meaningful change, and we've been able to do so without changes 
in Federal law.
    So I believe this hearing is important. Questions 
surrounding how professional sports leagues address domestic 
violence are valid ones and rightly warrant scrutiny by this 
committee. Professional athletes and the teams they play for 
are, for better or worse, role models and opinion makers. What 
they do to combat this unacceptable behavior can help set an 
example, especially for the youngsters who grow up watching 
them. And while I thank the witnesses for being here today and 
sharing your testimony, it's disappointing that the league 
commissioners are not here to speak for their sports. It's also 
unfortunate that, with the notable exception of the NBA Players 
Association, the heads of the other players' associations are 
not here today.
    These are issues that are not and should not be partisan. 
And it may very well be appropriate for the Committee to 
revisit this topic in the next Congress to assess the progress 
of the leagues and the players' association in dealing with 
domestic violence.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator.
    Now, we're going to have something that we don't usually do 
but we're going to do today. The Chair of the relevant 
subcommittee, Claire McCaskill, will speak for two minutes, I 
do believe, and be followed by Senator Heller.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman, for holding 
this important hearing.
    The bright light of public attention needs to be turned on 
at a very high wattage at a problem that exists in the shadows 
in a very dark and scary place. With great power and influence 
comes great responsibility, and no one will debate that 
probably the leagues you represent here today have more power 
and influence in our country than maybe any other institutions 
that I can think of. Professional sports must do a better job 
of setting an example to young people and victims of domestic 
violence, who face very difficult decisions as they struggle 
with holding their abusers accountable.
    Professional sports, with very few exceptions, have done 
little to hold those who commit this crime accountable. And 
perpetrators know that if they can only get their victims to 
recant, refuse to cooperate, threaten their financial future, 
threaten the future of their family's financial status, or put 
them on an airplane to Venezuela, if they can accomplish those 
things, then nothing will happen.
    There has been little or no effort to independently get the 
facts, rather just use the predictable outcome that very few 
who are abused will have an adequate support system within the 
families of the professional sports teams where they exist, to 
get the support to come forward and hold their abuser 
accountable. And so, by and large, professional sports teams 
have relied on the failure of the criminal justice system to 
get convictions as their excuse as to why no players or very 
few players have been held accountable.
    I'm anxious to hear how you view your responsibility to 
independently gather the facts and hold the professional 
athletes that commit these crimes accountable with sanctions 
within your leagues.
    Thank you, Mr. Chairman.
    The Chairman. Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Thank you Mr. Chairman. I appreciate the 
Committee's attention to this important issue.
    I didn't realize until this hearing that Nevada was so 
advanced, because with three channels, three television 
channels, we were able to watch our Warriors, our San Francisco 
49ers, and the Giants play.
    I know that there are some here in this room that may 
question why Congress is involved in this issue, and I'd like 
to explain why. Every minute in the United States, 20 people 
will experience domestic violence.
    Last night, more than 20,000 phone calls were made to 
domestic violence hotlines. One in three women will experience 
physical violence from a partner sometime in their lifetime. 
Children exposed to domestic violence are more likely commit 
domestic violence later in life. As a husband, a father of two 
wonderful daughters, this is simply unacceptable and something 
that must be changed.
    These numbers aren't just statistics, they're people. 
They're wives, they're mothers, daughters, they're sisters, and 
they're friends. The witnesses before us today represent the 
most popular and commercially successful sports leagues in the 
world. Their star players are household names and role models 
for fans and aspiring young athletes.
    In the past few years, we've witnessed some truly shocking 
acts from some of these public figures. But just as concerning 
is how the leagues have handled these situations and how the 
unions protected these players for years.
    It's very clear to me that getting these players back on 
the field was more important than addressing incidences of 
sexual assault, domestic violence, even child abuse. In the 
past, leagues and the unions simply brushed these problems 
aside and left it to the courts. Only when a video surfaced of 
the brutal punch an NFL player landed on his fiancee did the 
collective conscience of America demand these leagues and 
unions change their approach.
    I can only imagine what survivors feel like today. As I 
wrote in a letter earlier this year to NFL Commissioner Roger 
Goodell, by waiting until the video of a shocking act of 
domestic violence by one of their players became public, they 
effectively condoned the actions of this player. I believe the 
same holds true for the players' association, and in fact, I 
don't think you even understand the full scope of the problem.
    When the Ray Rice decision was overturned the NFL Players 
Association said, ``This decision is a victory for a 
disciplinary process that is fair and transparent. This union 
will always stand up and fight for the due process of our 
players.''
    This is not about due process. This is not about the 
collective bargaining agreements you do not like anymore or 
want to change. This is not about any type of labor issues you 
may have with the league. This is about helping to stop a 
terrible problem in society. Wives, mothers, sisters, 
daughters, and friends are being beaten. When you are worrying 
more about getting back on the field instead of stopping abuse, 
your priorities are out of order. Instead of addressing the 
problem, inadequate or nonexistent league policies and codes of 
conduct mean that aggressors have not been dealt with 
appropriately, and the survivors of domestic violence have been 
left behind.
    There is no place in any society for these horrifying acts 
of domestic violence and sexual assault. Our nation's 
professional sports leagues have a unique ability to make a 
difference. The American people need you to step up, and this 
committee wants to know what you're going to do to take a 
stand.
    Thank you.
    The Chairman. Thank you, Senator.
    We go now to the witness list. Again, I express our 
appreciation for your being here. And we'll start with Mr. Troy 
Vincent, who is Executive Vice President of Football 
Operations, the National Football League. Welcome.

    STATEMENT OF TROY VINCENT, EXECUTIVE VICE PRESIDENT FOR 
         FOOTBALL OPERATIONS, NATIONAL FOOTBALL LEAGUE

    Mr. Vincent. Mr. Chairman and Members of the Committee, my 
name is Troy Vincent. I'm the Executive Vice President of 
Football Operations at the National Football League. I'm 
pleased to discuss the work we have underway at the NFL to 
address conduct standards, including domestic violence and 
sexual assault. We want to set the highest standards for 
personal behavior in order to meet the expectations of our 
fans, players, and those of the general broader public.
    In 2007, Commissioner Goodell issued an enhanced Personal 
Conduct Policy for all players, owners, and league employees. 
But as recent events made clear, we have not kept our standards 
current with our own values. We've made mistakes. We've been 
humbled. We accept the criticism we've received, and we are 
committed to being part of the solution. We will get this 
right.
    Mr. Chairman and committee, when I consider these issues, I 
bring a perspective far beyond an NFL executive. Domestic 
violence was a way of life in my home growing up. My brother 
and I watched helplessly numerous times as my mother was beaten 
and knocked unconscious as we dialed 911. We saw how she 
struggled to seek help and find the courage to say no more. The 
sense of fear and the complexities accompanying this violence 
remain very real in my life today.
    I have committed my life's work for the last 20 years as an 
advocate against domestic violence, in an effort to keep others 
from experiencing this lifetime pain. I relate to the 12 
million victims, survivors of domestic violence, and sexual 
abuse in every community across our great nation.
    In addition, I had the honor and the privilege of playing 
in the National Football League for 15 years. Twelve of those 
years, I served as a union official. Four of those years, I 
served as the NFL Players Association president. I support the 
interest of all players in a fair process. I led those efforts. 
I know the majority of our current and former players are 
terrific husbands, fathers, and men who have made incredible 
contributions into their communities.
    Mr. Chairman, players know that league standards are not 
labor issues nor management issues. They're issues that concern 
everyone.
    In 2007, the league and the players' union worked closely 
together, collaborated in developing a Personal Conduct Policy. 
I was part of those efforts. And today, just as in the past, 
the league has invited the NFLPA along with other experts to 
assist us in setting the highest possible standards.
    The NFL is taking a number of steps to improve how we 
respond to incidents of domestic violence, child abuse, and 
sexual assault.
    First, through efforts personally led by the Commissioner, 
the NFL has undertaken a thorough review of our Personal 
Conduct Policy, having consulted with over l00 leading experts 
across a broad range of subjects. Our goal is a set of clear 
rules to govern accountability for misconduct, and to establish 
a fair process for our player and employee discipline. We will 
create a conduct committee responsible for review and recommend 
changes to the Personal Conduct Policy going forward. Experts 
will continue to advise both the conduct committee and the 
Commissioner, so that we always have the right voices at the 
table on both educational and disciplinary work.
    Second, we are deploying a comprehensive mandatory 
education program for the more than 5,000 men and women in the 
NFL family. Our goal is to ensure that everyone understands the 
full scope of this behavior and is familiar with the warning 
signs associated with these crimes. Education also promotes 
prevention. By standard intervention, how individuals can 
appropriately and safely help those at risk, is another key 
focus area of our education.
    Third, we're training critical response teams to help 
prevent and respond quickly to family violence and sexual 
assault, including safety, medical, legal, and financial 
support.
    Fourth, we are supporting leading domestic violence and 
sexual assault awareness and prevention groups, including the 
National Domestic Violence Hotline and the National Sexual 
Violence Resource Center.
    Fifth and finally, we are raising awareness of the critical 
issues of domestic violence, child abuse, and sexual assault. 
In collaboration with the ``No More'' campaign and the Joyful 
Heart Foundation, the NFL is airing public service 
announcements during our games. Finally, we are promoting 
programs for those who play, coach, and manage our games at all 
levels, including age-appropriate character development, 
healthy relationship education, as well as dating violence, 
domestic violence, child abuse, and sexual assault education.
    We've learned a great deal from our mistakes, and by 
listening to experts in the domestic violence, child abuse, and 
the sexual assault communities. The more we've listened, the 
more we've learned and become more aware of these complexities, 
both of the problem and the solutions. We're working hard to 
balance the issues of a fair process with the goal of 
preventing and punishing these behaviors.
    Mr. Chairman and the Committee, we believe that wearing the 
uniform of an NFL player is a privilege. It is not a right. 
Every member of the NFL community must embrace this unique 
leadership role that we play in our society and the trust that 
you place in us. We look forward to working with the Committee 
to advance these goals I know we all share.
    Thank you for this opportunity. And Chairman, I thank you 
for your lifetime service in this area.
    [The prepared statement of Mr. Vincent follows:]

   Prepared Statement of Troy Vincent, Executive Vice President for 
             Football Operations, National Football League
    Mr. Chairman and Members of the Committee:

    My name is Troy Vincent, and I am the Executive Vice President for 
Football Operations at the National Football League. I am pleased to 
appear here this afternoon to discuss the work we are currently 
undertaking to address standards of personal conduct, with a particular 
focus on domestic violence and sexual assault. At the NFL, we want to 
set the highest goal for personal behavior in order to meet the 
expectations of our fans, players, and broader public.
    Shortly after he became Commissioner in 2007, Commissioner Goodell 
issued an enhanced Personal Conduct Policy to reinforce the high 
standards expected of all NFL players, owners, and league employees. 
But as deeply disturbing recent events made clear, we have not kept our 
standards current with our own values. We made mistakes, and we have 
been humbled by this experience. Much of the criticism of the league 
stems from a fundamental recognition of the NFL's unique place in our 
society and the opportunity we have to project important values in ways 
that have a positive impact beyond professional football. We will get 
this right: we accept the criticism that we have received; and we are 
committed both to learn and to being part of the solution.
    Mr. Chairman, when I consider these issues, I bring perspectives 
beyond that of an NFL executive.
    Domestic violence was a way of life in my home growing up. As young 
boys, my brother and I watched helplessly numerous times as our mother 
was beaten, and we called 911 while she lay unconscious. We saw how she 
struggled to seek help, and find the voice and courage to say ``no 
more.'' The sense of fear, powerlessness, and all the complexities that 
accompany this violence remain very real for me today. I have worked 
for over 20 years as an advocate against domestic violence to try to 
help keep others from experiencing this pain. So I very much relate to 
the more than 12 million victims of domestic violence and sexual 
assault in every community in this nation, amongst every economic class 
and racial and ethnic group. This is not an issue limited to the NFL, 
or to professional sports.
    In addition, I was privileged myself to play in the National 
Football League for 15 years. I relate to our current and former 
players, the vast majority of whom are terrific husbands, fathers, and 
men who make incredible contributions within their communities. We know 
that when one player engages in unacceptable conduct, it unfairly casts 
all of us in the League in the same light. Finally, for 12 years I 
served as a union officer, and four of those years I was President of 
the NFL Players Association. I support the interest all players have in 
a fair process. But I know full well that our players have no tolerance 
for these incidents, and that they in fact support high standards and 
enforcement. The players know that standards and integrity are not 
labor issues or management issues--they are issues that concern 
everyone in our game.
    The 2007 version of the Personal Conduct Policy was developed and 
implemented by the League in close collaboration with players and their 
leadership, and it had the strong support of players and the union. I 
was part of those discussions. Today, the NFL has invited the NFLPA to 
join us again in setting the highest possible standards in our Personal 
Conduct Policy and to help us work to prevent this violence going 
forward.
    The NFL is taking a number of steps to improve how we respond to 
incidents of domestic violence, child abuse, and sexual assault 
involving our employees and personnel, which I would like to outline 
for you.
    First, the NFL is currently undertaking an intensive and exhaustive 
review of our Personal Conduct Policy, and we will implement changes 
soon. Our new Policy is being developed through an effort led 
personally by the Commissioner. I am a part of this project, as are 
other League officials and outside advisors with specific expertise in 
domestic violence, child abuse, and sexual assault, and legal process. 
Having consulted with over 100 leading experts throughout the country, 
we are evaluating every aspect of our approach to discipline and 
accountability for employees and players. Our goal is nothing less than 
a set of clear rules to govern accountability for misconduct and to 
establish a fair process for player and employee discipline.
    Our challenge, while not unique, is complex. Our policy is broader 
than what employers typically seek to cover, in the sense that it 
primarily addresses off the field, or out of workplace, conduct. We 
have engaged with others who are struggling with a similar task--
including law enforcement and educational institutions--to share 
perspectives and look for best practices on how to prevent personal 
misconduct and respond when it does occur.
    Once the revised policies and procedures are in place, we will 
create a Conduct Committee of owners who will be responsible for 
regularly reviewing and recommending changes to the NFL's personal 
conduct policy going forward, to ensure continual attention and 
revision when needed. Subject matter experts will continue to advise 
both the Conduct Committee and the Commissioner and his staff so that 
going forward we have the right voices at the table on both educational 
and disciplinary work.
    Second, we are deploying a comprehensive and mandatory education 
program for the more than 5,000 men and women in the NFL family. All 
league and team personnel--owners, players, coaches, and staff--are 
currently participating in broad-based domestic violence, child abuse, 
and sexual assault education, and the sessions are available to and 
highly encouraged for family members and loved ones. All teams will 
have participated in these sessions within the next two weeks. 
Education will continue on an ongoing basis for rookies and returning 
players, and specialized training for key responders will be rolled out 
as well.
    Our goal is to ensure that everyone understands the full scope of 
behavior that constitutes domestic violence, child abuse, and sexual 
assault and is familiar with the warning signs associated with these 
crimes. We also want to make sure everyone appreciates that they can 
help prevent this violence. Bystander intervention--how individuals can 
appropriately and safely help those at risk--is another key focus area 
of the education. The League also has identified resources that offer 
prompt and confidential assistance both within the organization and 
outside in the community to anyone in need.
    Third, we are training our existing Critical Response Teams to help 
prevent and to respond quickly to family violence and sexual assault. 
When a situation arises, these teams will focus on providing immediate 
assistance across the board--medical, legal, financial--to anyone in 
the NFL family, including spouses, significant others, or other family 
members, who experiences abuse.
    Fourth, we are supporting leading domestic violence and sexual 
assault awareness and prevention groups, including the National 
Domestic Violence Hotline and the National Sexual Violence Resource 
Center. Our support has allowed these organizations to expand their 
call volume capacity so that calls for assistance do not go unanswered.
    Fifth, we are raising awareness of the critical issues of domestic 
violence, child abuse, and sexual assault. In collaboration with the NO 
MORE campaign and the Joyful Heart Foundation, the NFL is airing public 
Service Announcements during every game broadcast, including a new PSA 
featuring current and former NFL players. More information can be found 
at www.nomore.org.
    Finally, we are promoting programs that develop the character of 
young people by developing age-appropriate character development, 
healthy relationship education as well as dating/domestic violence, 
child abuse, and sexual assault programming--for those who play, coach, 
or manage the game in college, high school, and youth football 
programs. The League recently sent a video to thousands of high school 
coaches across the Nation to encourage them to engage in frank and 
frequent discussions of family violence and sexual assault with their 
players. The NFL Foundation will focus on the development of character 
education programs that will reach youth footballs players, as well as 
girls and boys, athletes and non-athletes alike.
    Mr. Chairman, in the past months, we have learned a great deal by 
our own mistakes, and by listening to experts in domestic violence, 
child abuse, and sexual assault--researchers, lawyers and judges, 
advocates, women's rights groups, law enforcement, and campus 
presidents. The more we've listened, the more we've learned and, in 
turn, the more aware we are of the complexities of both the problems 
and the solutions. At the NFL, we are working hard to balance the 
issues of fair process with the goals of preventing and punishing this 
behavior. At the end of the day, we believe that wearing the uniform of 
an NFL player is a privilege, not a right. And every member of the NFL 
community must embrace the unique leadership role that we play in 
society and the trust that is placed in us. We look forward to working 
with the Committee to advance the goals I know we all share.
    Thank you for this opportunity to discuss this important subject.

    The Chairman. Thank you, Mr. Vincent. That was excellent 
testimony and honest. And it's a good beginning. Thank you.
    Ms. Teri Patterson, Deputy Managing Director, National 
Football League Players Association.

  STATEMENT OF TERI PATTERSON, DEPUTY MANAGING DIRECTOR, NFL 
                      PLAYERS ASSOCIATION

    Ms. Patterson. Good afternoon, Mr. Chairman and members of 
the Committee. As stated, my name is Teri Patterson, and I 
serve as the Deputy Managing Director and Special Counsel of 
the NFL Players Association, whom I represent on the panel 
today.
    We greatly appreciate the Committee's interest in the 
critical issue of domestic violence. We always welcome the 
opportunity to meet with any Members of the Committee to 
discuss the issues concerning our sport. We've seen in the past 
that the leadership of elected officials brought thoughtful and 
meaningful change to our sport, for example, in the area of 
concussions. We've worked with and supported members of this 
committee as they continued to push for better standards to 
protect athletes that participate in football on all levels.
    We're here today to address your concerns surrounding 
domestic violence in professional sports. Just to be clear, 
neither our players nor the NFLPA condone domestic violence in 
any form. We understand the significance of our position, both 
for society at large and, more importantly, for the families 
and individuals involved. Any incident of domestic violence by 
any player is one too many, but it does not and should not 
reflect on the overwhelming majority of our members who 
contribute to their communities in countless ways. This week, 
for example, you'll see players out in the community with many 
of your constituents and their children, as part of the ``Play 
60'' campaign.
    We believe that a comprehensive system of education, 
prevention, intervention, and counseling will help us find 
solutions to lowering the instances of domestic violence that 
present themselves each and every year. Specifically related to 
our sport, we believe that those tools combined with fair and 
appropriate discipline is the best way to achieve the goals of 
preventing incidents of domestic violence and assisting those 
involved. Unfortunately, we've seen repeated instances where 
discipline under the Personal Conduct Policy of the NFL, 
implemented unilaterally by its Commissioner, has failed to get 
us closer to those solutions.
    We've seen on more than one occasion when disciplinary 
matters are left solely to the NFL, the process is mismanaged 
and often the end result has not been able to withstand outside 
review. For example, in the bounty incident in New Orleans, the 
Commissioner's unilaterally imposed discipline was overturned, 
not only by a system arbitrator, but also by a former NFL 
Commissioner who was tasked with reviewing the NFL's actions. 
In the more recently imposed discipline of Ray Rice, the 
Commissioner's arbitrary discipline was also overturned after 
further review by a former Federal judge appointed as a neutral 
arbitrator. This current system, run unilaterally by the NFL, 
simply does not work. It does not work for our members, and 
we've heard from your constituents as well, as I'm sure you 
have, who continue to express distrust and displeasure in the 
current system of discipline.
    So we've been tasked by our membership to find solutions 
and to collectively bargain with the NFL for a better process. 
Accordingly, in early October of this year, we established a 
Blue Ribbon Commission to advise us on matters of domestic 
violence prevention, intervention, and processes of discipline. 
I've included the names of the members of the commission in the 
submitted testimony and also their bios. We're also fortunate 
and pleased to see that a member of our NFLPA commission, Ms. 
Virginia Seitz, is testifying at the hearing today.
    With the assistance of experts and community leaders, we 
have started a meaningful dialogue with our membership on ways 
to create programming and policy to address these societal 
issues. We requested that the NFL join with us in appointing 
the members of the commission and participating in the 
Commission's work. The NFL declined to do so to date, but that 
did not stop us from moving ahead.
    But we cannot move ahead in bargaining by ourselves. We've 
attempted to engage the league in formal negotiations and 
bargaining to improve the Personal Conduct Policy and the 
processes by which it is to be administered. We provided the 
NFL with a fair proposal over a month ago, and despite the 
receipt of a letter response only this past Sunday, the NFL 
still refuses to commit to collective bargaining. We believe 
that a jointly bargained system is the only way to ensure that 
professional football's approach to the issue of domestic 
violence has the credibility and effectiveness that the fans, 
the sport's business partners, and our players have come to 
expect and respect, such as our comprehensive drug-related 
policies.
    We remain fully committed to addressing these issues in a 
meaningful way because that's the only way we can ensure that 
change happens. We also remain ready to assist any Members of 
the Committee in improving the way domestic violence is 
addressed in our sport and in our country.
    Thank you again for your time, and we look forward to 
answering any questions you may have for us.
    [The prepared statement of Ms. Patterson follows:]

    Prepared Statement of Teri Patterson, Deputy Managing Director, 
                        NFL Players Association
    Good afternoon Mr. Chairman and members of the Committee. My name 
is Teri Patterson and I serve as the Deputy Managing Director of the 
NFL Players Association whom I represent here on the panel today. We 
greatly appreciate the Committee's interest in the critical issue of 
domestic violence. We always welcome the opportunity to meet with any 
Members of the Committee to discuss the issues concerning our sport. We 
have seen in the past that the leadership of elected officials brought 
thoughtful and meaningful change to our sport, for example, 
concussions. We have worked with and supported members of this 
committee as they continued to push for better standards to protect 
athletes that participate in football on all levels.
    We are here today to address your concerns surrounding domestic 
violence in professional sports. Neither our players nor the NFLPA 
condone domestic violence in any form. We understand the significance 
of our position, both for society at large and more importantly, for 
the families and individuals involved. Any incident of domestic 
violence by any player is too many, but it does not and should not 
reflect on the overwhelming majority of our members who contribute to 
their communities in countless ways. This week, for example, you will 
see players out in the community with many of your constituents and 
their children, as part of the Play60 campaign. For more examples of 
the extraordinary things our players do in the community, particularly 
during this Holiday season, please visit this link: https://nflpa.com/
news/all-news/nfl-players-give-back-for-thanksgiving-2.
    We believe that a comprehensive system of education, prevention, 
intervention, and counseling will help us find solutions to lowering 
the instances of domestic violence that present themselves each and 
every year. Specifically related to our sport we believe that those 
tools combined with fair and appropriate discipline is the best way to 
achieve the goals of preventing incidents of domestic violence and 
assisting those involved. Unfortunately we have seen repeated instances 
where discipline under the Personal Conduct Policy of the NFL, 
implemented unilaterally by its Commissioner, has failed to get us 
closer to those solutions.
    We have seen on more than one occasion when disciplinary matters 
are left solely to the NFL, the process is mismanaged and often the end 
result has not been able to withstand outside review. For example, in 
the ``Bounty'' incident in New Orleans, the Commissioner's unilaterally 
imposed discipline was overturned not only by a system arbitrator but 
also by a former NFL Commissioner who was tasked with reviewing the 
NFL's actions. In the more recently imposed discipline of Ray Rice, the 
Commissioner's arbitrary discipline was also overturned after further 
review by a former Federal judge appointed as a neutral arbitrator. The 
current system, run unilaterally by the NFL, simply does not work. It 
does not work for our members but we have heard from your constituents 
as well as I am sure you have that continue to express distrust and 
displeasure in the current system of discipline.
    So we have been tasked by our membership to find solutions and to 
collectively bargain with the NFL for a better process. Accordingly, in 
early October of this year, we established a Blue Ribbon Commission to 
advise us on matters of domestic violence prevention, intervention and 
processes of discipline. Members of that commission are as follows:

        Deborah Epstein
        Professor of Law and Director of the Domestic Violence Clinic
        Georgetown Law School

        Sue Else
        CEO
        Girl Scouts of Historic Georgia
        **Former President and CEO of the National Network to End 
        Domestic Violence, Inc.

        Steve Stenstrom
        President
        Professional Athletes Outreach
        **Former Player

        John Jenkins
        Pastor
        First Baptist Church of Glenarden

        Joshua DuBois
        Founder
        Values Partnerships

        Kathy Ruemmler
        Partner
        Latham & Watkins
        **Former White House Counsel to Presidents Clinton and Obama

        Virginia Seitz
        Partner
        Sidley Austin
        **Former USDOJ Assistant Attorney General of the Office of 
        Legal Counsel

        Billy Dexter
        Partner, Global Diversity Advisory Services Practice
        Heidrick & Struggles

    We submit, at this time for the record along with this testimony, 
the full biographical information on the members of our commission for 
your review. We pleased to see that a member of our NFLPA Commission, 
Virginia Seitz, will be testifying at the hearing today. With the 
assistance of experts and community leaders, we have started a 
meaningful dialogue with our membership on ways to create programming 
and policy to address these societal issues. We requested that the NFL 
join with us in appointing the members of the Commission and 
participating in the Commission's work. The NFL declined to do so but 
that did not stop us from moving ahead.
    But we cannot move ahead in bargaining alone. We have attempted to 
engage the NFL in formal negotiations and bargaining to improve the 
Personal Conduct Policy and the processes by which it is to be 
administered. We provided the NFL with a fair proposal over three weeks 
ago and despite the receipt of a letter response only this past Sunday, 
November 30, 2014, the NFL still refuses to commit to collective 
bargaining. We believe that a jointly bargained system is the only way 
to ensure that professional football's approach to the issue of 
domestic violence has the credibility and effectiveness the fans, the 
sport's business partners, and our players have come to expect and 
respect such as our comprehensive drug related policies.
    We remain fully committed addressing these issues in a meaningful 
way because that is the only way we can ensure change happens. We also 
remain ready to assist any Members of the Committee in improving the 
way domestic violence is addressed in our sport and in our country. 
Thank you again for your time and we look forward to answering any 
questions you may have for us.
                                 ______
                                 
                     NFLPA Commission--Biographies
Experts, Clinicians and Educators--Education, Prevention Tactics and 
        Resources
Deborah Epstein, Professor of Law, Director of Domestic Violence Clinic 
        and 
        Associate Dean of Clinical Education and Public Interest and 
        Community 
        Service Programs, Georgetown Law School

    Prior to joining the law faculty, Professor Epstein practiced at 
the civil rights firm of Bernabei & Katz, representing plaintiffs in 
sex discrimination suits, and clerked for Eastern District of 
Pennsylvania Judge Marvin Katz. From 1994-96, Professor Epstein co-
chaired a multi-disciplinary effort to create a new Domestic Violence 
Unit within the D.C. Superior Court that fundamentally restructured the 
way that the local justice system handles civil and criminal family 
abuse matters. Until 2001, she co-directed the D.C. Superior Court's 
Domestic Violence Intake Center and directed the Emergency Domestic 
Relations Project, a public interest organization providing legal and 
educational services to indigent victims of intimate abuse. She is a 
member of the Mayor's Commission on Violence Against Women, the D.C. 
Domestic Violence Fatality Review Team, the D.C. Domestic Violence 
Coordinating Council, and has served on the Board of Directors of the 
D.C. Coalition Against Domestic Violence. She is the author of several 
publications in the areas of domestic violence and sexual harassment 
law.
Sue Else, Former President and CEO of the National Network to End 
        Domestic 
        Violence, now CEO of the Girl Scouts of Historic Georgia, Inc.

    After volunteering at a battered women's shelter, Ms. Else later 
secured a job at the shelter and went on to become its executive 
director. Ms. Else later moved to Kansas City, Mo., where she served as 
the President and CEO of Hope House for 18 years. Under her leadership, 
the organization grew from 13 staff members and a five-bedroom bungalow 
to more than 70 staffers and two shelters with beds for up to 104 women 
and children.
    In 2006, she became the President of the National Network to End 
Domestic Violence in Washington, D.C. During her seven-year tenure 
there, she brought national attention to the cause, expanded the 
agency's reach, oversaw the development of a curriculum that has since 
been implemented in 32 states and served as the national spokesperson, 
appearing on ``Good Morning America,'' ``Dr. Phil,'' CNN, NPR and other 
media outlets.
Faith-based Advisors
Steve Stenstrom, Former Player, President of Professional Athletes 
        Outreach

    Mr. Stenstrom comes to PAO from his ministry to students on the 
campus of Stanford University. Mr. Stenstrom has a passion for 
connecting with and mentoring others, and developing their God-given 
potential. Mr. Stenstrom is also a Bay Area regional coach of The 
Master's Program, a leadership mentoring program for Christian business 
and ministry leaders. He has a passion for God's Word, and his 
experiences in the business and sports worlds offer a unique and 
exciting outlook for PAO's future.
John Jenkins, Pastor, First Baptist Church of Glenarden

    Pastor John K. Jenkins Sr. is senior pastor of First Baptist Church 
of Glenarden in Maryland. He became a licensed minister in 1973 at the 
age of 15 and has an honorary Doctorate of Divinity from Southern 
California School of Ministry in Inglewood, California. Pastor Jenkins, 
founded First Baptist Church of Glenarden SHABACH! Ministries, Inc., a 
501 (c)(3) arm of the church and serves as its chairman emeritus, which 
provides clothing, food, education and other resources to more than 
11,000 people in the Washington, D.C. area. In addition to his role at 
First Baptist, he is a trustee at Bethel University and board chairman 
for Project Bridges and The Skinner Institute. Furthermore, he sits as 
a board member for the Greater Prince George's Business Roundtable and 
National Association of Evangelicals. In the past he served as vice 
president/executive director of National Ministries with Converge 
Worldwide and was on the boards of Great Dads and Teen Challenge.
Joshua DuBois, Founder of Values Partnerships

    Joshua DuBois is the best-selling author of The President's 
Devotional, a compilation of the devotionals which he sends President 
Obama. He is also the Founder of Values Partnerships, which works with 
foundations, nonprofits and private companies to create partnerships 
with the faith communities and grassroots initiatives. Prior to 
founding Values Partnerships, Mr. DuBois was a Special Assistant to 
President Obama and Executive Director of the White House Office of 
Faith-Based and Neighborhood Partnerships. In this capacity, Mr. DuBois 
facilitated the Obama Administration's engagement of faith-based 
organizations around the country.
Judges and Attorneys--Due Process, Fairness and Discipline
Kathy Ruemmler, Partner at Latham & Watkins, Formerly President Obama's 
        Chief Counsel, Formerly Principal Associate Deputy Attorney 
        General

    Ms. Ruemmler is a Partner at Latham and Watkins in the Litigation 
Department and the global Co-chair of the White Collar Defense and 
Investigations Practice. As President Obama's chief lawyer, Ms. 
Ruemmler was one of his most senior advisors, providing strategic 
advice on all legal matters. Prior to the four and a half years Ms. 
Ruemmler was in the White House, she served as the Principal Associate 
Deputy Attorney General at the Department of Justice, joining the 
Justice Department on the first day of the Obama Administration as its 
highest-ranking political appointee.
Virginia Seitz, Former USDOJ Assistant Attorney General for the Office 
        of Legal Counsel, now Partner at Sidley Austin

    Ms. Seitz specializes in constitutional law, labor law, employment 
law and administrative law and recently returned to the partnership at 
Sidley in DC in the firm's Supreme Court and Appellate practice. 
Following her nomination by President Obama and Senate confirmation, 
Ms. Seitz was sworn in as Assistant Attorney General for the Office of 
Legal Counsel in September 2011 and served through December 2013. As 
the leader of the Office of Legal Counsel, Virginia was responsible for 
providing legal advice to the President and Executive Branch 
departments and agencies on issues of particular difficulty and 
importance, including those issues on which there was a dispute between 
Federal agencies.
Successful Business Leaders--Leadership, Education and Implementation
Billy Dexter, Partner and Member of Global Diversity Advisory Services

    Billy Dexter has been a leader in talent acquisition and diversity/
inclusion related efforts for more than 20 years. He is a partner with 
Heidrick & Struggles and is a member of the global Diversity Advisory 
Services Practice that assists clients in creating diverse leadership 
teams. Prior to joining Heidrick & Struggles, Billy was executive vice 
president and chief diversity officer of MTV Networks, a Viacom 
company.

    The Chairman. Thank you very much, Ms. Patterson. I just 
have to note at this point that there was an enormous amount of 
pressure coming from many directions, not necessarily the folks 
at the witness table but the folks that you work with, for us 
not to have this hearing. We went ahead anyway, so not 
everything is--this openness is not as commonly held a process 
as I would like.
    Mr. Joe Torre, who is Executive Vice President of Baseball 
Operations of Major League Baseball. Welcome.

 STATEMENT OF JOE TORRE, EXECUTIVE VICE PRESIDENT OF BASEBALL 
               OPERATIONS, MAJOR LEAGUE BASEBALL

    Mr. Torre. Thank you, Mr. Chairman. Good afternoon, 
Chairman Rockefeller, Senator Thune, and members of the 
Committee. I'm Joe Torre, Executive Vice President of Baseball 
Operations for Major League Baseball. I want to thank you for 
the opportunity to discuss the efforts we are undertaking to 
address the issues of domestic violence and sexual assault.
    The subject matter of this hearing is personally important 
to me. As a person whose childhood was touched by domestic 
violence, I have come to understand that discussing the issue 
publicly has the potential to help millions of victims who 
believe that they must suffer in silence. In 2002, my wife Ali 
and I formed the Safe at Home Foundation to create educational 
programs aimed at ending the cycle of domestic violence. And 
I'm proud to say that we've reached close to 50,000 youngsters 
in that time.
    Through my work in this area, including co-chairing the 
Attorney General's Task Force on Children Exposed to Violence, 
I have had the opportunity to work with some truly outstanding 
individuals who have devoted their lives to working toward 
solving the issue of domestic violence in this country.
    Commissioner Selig has instilled in our sport the 
understanding that Major League Baseball is a social 
institution, and as our national pastime, has an obligation to 
set a positive example. The Commissioner and I deplore domestic 
violence and crimes against women and families. We recognize 
the clear public expectation for the professional sports 
leagues to be leaders in addressing this social ill. Some of 
our clubs already have taken a leading role in this issue. For 
example, the Seattle Mariners have partnered with the 
Washington State Coalition Against Domestic Violence on a 
statewide educational initiative called ``Refuse to Abuse.''
    Going forward, the Commissioner has instructed his staff to 
develop a stand-alone policy to address domestic violence and 
sexual assault prior to the upcoming season. Although we are in 
the midst of developing this policy, I would like to explain to 
the Committee what we have done thus far and what we hope to do 
in the next few months.
    Since September 2014, as part of our education process, 
representatives of Major League Baseball have met with over a 
dozen national and local organizations focused on addressing 
domestic violence and violence against women, and/or providing 
services and support to victims. Representatives from those 
groups consistently told us that, while they were obviously 
unsettled by the recent incidents of domestic violence in 
professional sports, they believe that those incidents have 
shined a light on an issue often in the shadows. They believe, 
and we agree, that sports leagues can make a difference.
    We have begun selecting a variety of organizations to serve 
on a joint MLB/MLBPA steering committee that will develop 
education and training materials for players, staff, and their 
families. Some of these initiatives include posting 
informational materials at Major League and Minor League 
ballparks and publicizing contact information for confidential 
hotlines and shelters. MLB intends to develop educational 
programs at each club specifically designed for the families 
and intimate partners of players. We also are developing 
protocols that our clubs must follow in response to domestic 
violence or sexual assault incidents that will include 
appropriate measures to ensure the safety of affected 
individuals, providing confidential counseling and treatment 
for victims, and providing counseling and intervention for 
perpetrators.
    Major League Baseball has selected a San Francisco-based 
group called ``Futures Without Violence'' to help us develop 
and implement training and education programs for all of our 
players. Futures has been partnering with the San Francisco 
Giants on these important issues for more than a decade. 
Futures has arranged for Dr. Linda Chamberlain to speak with 
the medical staffs of our clubs at MLB's Winter Meetings in San 
Diego this coming weekend. Dr. Chamberlain founded the ``Alaska 
Family Violence Prevention Project,'' and will be speaking to 
our club medical staffs on a trauma-informed approach to 
addressing domestic violence.
    In January 2015, the top prospects in baseball will be 
educated on domestic violence and sexual assault during MLB's 
annual Rookie Career Development Program. Beginning with MLB 
spring training this February, every major and minor league 
player will be educated on issues relating to domestic violence 
and sexual assault by Futures and other organizations, 
including: Mentors in Violence Prevention, Men Can Stop Rape, A 
Call to Men, and Casa De Esperanza. The staffs of MLB clubs and 
the Commissioner's office also will be educated.
    The Commissioner understands that an important component of 
any policy covering domestic violence and sexual assault is 
appropriate discipline for players who engage in this conduct. 
Presently, the Commissioner has the authority, under MLB's 
Collective Bargaining Agreement with the Players Association, 
to discipline players for just cause and for conduct that is 
materially detrimental or materially prejudicial to the best 
interests of baseball including, but not limited to, engaging 
in conduct in violation of Federal, state, or local law.
    Under a just cause standard, the Commissioner's office is 
required to prove a violation by a player at an evidentiary 
hearing before a neutral arbitrator, which can be difficult in 
the absence of a conviction or a plea, or without cooperating 
witnesses or tangible evidence regarding the conduct. In 
addition, our arbitrators in the past have been less inclined 
to uphold severe discipline under a just cause standard for 
off-field conduct that does not impact the player's ability to 
perform.
    MLB has proposed revisions to its disciplinary policy 
covering MLB players that would make it easier for the 
Commissioner to impose an appropriate level of discipline on 
players who commit acts of domestic violence or sexual assault, 
and have that discipline be upheld in arbitration. MLB does not 
have the right to insist on any changes to player discipline 
until its current Collective Bargaining Agreement with the 
Players Association expires in December of 2016. However, we 
are hopeful that we will come to an agreement with the Players 
Association prior to the start of next season on a disciplinary 
policy specifically tailored to domestic violence and sexual 
assault.
    As we told our owners two weeks ago, Major League Baseball 
is committed to developing a culture in which its athletes 
implicitly understand their moral obligation, as both men and 
role models, to speak out and act against crimes against women 
and families. We fully understand that educating over 4,000 
players from diverse backgrounds on an issue that many of them 
have not previously considered is not an easy undertaking. 
However, we intend to devote the time and the resources 
necessary to accomplish just that.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Torre follows:]

 Prepared Statement of Joe Torre, Executive Vice President of Baseball 
                   Operations, Major League Baseball
    Chairman Rockefeller, Senator Thune, and members of the Committee, 
I am Joe Torre, Executive Vice President of Baseball Operations for 
Major League Baseball. On behalf of Major League Baseball, I thank you 
for the opportunity to discuss the efforts that we are undertaking to 
address the issues of domestic violence and sexual assault.
    The subject matter of this hearing is personally important to me. 
As a person whose childhood was touched by domestic violence, I have 
come to understand that discussing the issue publicly has the potential 
to help millions of victims who believe that they must suffer in 
silence. In 2002, my wife Ali and I formed the ``Safe at Home'' 
Foundation to create educational programs aimed at ending the cycle of 
domestic violence. I consider it one of my proudest accomplishments in 
my career. Through my work in this area, including co-chairing the 
Attorney General's Task Force on Children Exposed to Violence, I have 
had the opportunity to work with some truly outstanding individuals who 
have devoted their lives to working toward solving the issue of 
domestic violence in this country.
    Commissioner Selig has instilled in our sport the understanding 
that Major League Baseball is a social institution, and as our national 
pastime, has an obligation to set a positive example. The Commissioner 
and I deplore domestic violence and crimes against women and families. 
We recognize the very clear public expectation for professional sports 
leagues to be leaders in addressing this social ill. Some of our Clubs 
already have taken a leading role in this issue. For example, the 
Seattle Mariners have partnered with the Washington State Coalition 
Against Domestic Violence on a state-wide educational initiative called 
``Refuse to Abuse.''
    Going forward, the Commissioner has instructed his staff to develop 
a stand-alone policy to address domestic violence and sexual assault 
prior to the 2015 baseball season. Although we are in the midst of 
developing this policy, I would like to explain to the Committee what 
we have done thus far and what we hope to do in the next few months.
    Since September 2014, as part of our education process, 
representatives of Major League Baseball have met with over a dozen 
national and local organizations focused on addressing domestic 
violence and violence against women, and/or providing services and 
support to victims. Representatives from those groups consistently told 
us that while they were obviously unsettled by the recent incidents of 
domestic violence in professional sports, they believe that those 
incidents have shined a light on an issue often in the shadows. They 
believe, and we agree, that sports leagues can make a difference.
    We have begun selecting a variety of organizations to serve on a 
joint MLB-MLBPA steering committee that will develop education and 
training materials for players, staff and their families. Some of these 
initiatives include posting informational materials at Major and Minor 
League ballparks, and publicizing contact information for confidential 
hotlines and shelters. MLB intends to develop educational programs at 
each Club specifically designed for the families and intimate partners 
of players. We also are developing protocols that our Clubs must follow 
in response to domestic violence or sexual assault incidents that will 
include appropriate measures to ensure the safety of affected 
individuals, providing confidential counseling and treatment for 
victims, and providing counseling and intervention for perpetrators.
    Major League Baseball has selected a San Francisco-based group 
called Futures Without Violence (``Futures'') to help us develop and 
implement training and education programs for all of our players. 
Futures has been partnering with the San Francisco Giants on these 
important issues for more than a decade. Futures has arranged for Dr. 
Linda Chamberlain to speak with the medical staffs of our Clubs at 
MLB's Winter Meetings in San Diego this coming weekend. Dr. Chamberlain 
founded the Alaska Family Violence Prevention Project, and will be 
speaking to our Club medical staffs on a ``trauma-informed approach'' 
to addressing domestic violence.
    In January 2015, the top prospects in baseball will be educated on 
domestic violence and sexual assault during MLB's annual Rookie Career 
Development Program. Beginning with MLB spring training this February, 
every Major and Minor League player will be educated on issues relating 
to domestic violence and sexual assault by Futures, and other 
organizations including Mentors in Violence Prevention, Men Can Stop 
Rape, A Call to Men, and Casa De Esperanza. The staffs of MLB Clubs and 
the Commissioner's Office also will be educated.
    The Commissioner understands that an important component of any 
policy covering domestic violence and sexual assault is appropriate 
discipline for players who engage in this conduct. Presently, the 
Commissioner has the authority under MLB's collective bargaining 
agreement with the Players Association to discipline players for ``just 
cause'' for conduct that is materially detrimental or materially 
prejudicial to the best interests of Baseball including, but not 
limited to, engaging in conduct in violation of federal, state or local 
law. Under a ``just cause'' standard, the Commissioner's Office is 
required to prove a violation by a player at an evidentiary hearing 
before a neutral arbitrator, which can be difficult in the absence of a 
conviction or plea, or without cooperating witnesses or tangible 
evidence regarding the conduct. In addition, our arbitrators in the 
past have been less inclined to uphold severe discipline under a ``just 
cause'' standard for off-field conduct that does not impact the 
player's ability to perform.
    MLB has proposed revisions to its disciplinary policy covering MLB 
players that would make it easier for the Commissioner to impose an 
appropriate level of discipline on players who commit acts of domestic 
violence or sexual assault, and have that discipline be upheld in 
arbitration. MLB does not have the right to insist on any changes to 
player discipline until its current collective bargaining agreement 
with the MLBPA expires in December 2016. However, we are hopeful that 
we will come to an agreement with the MLBPA prior to the start of next 
season on a disciplinary policy specifically tailored to domestic 
violence and sexual assault.
    As we told our owners two weeks ago, Major League Baseball is 
committed to developing a culture in which its athletes implicitly 
understand their moral obligation as both men and role models to speak 
out and act against crimes against women and families. We fully 
understand that educating over 4,000 players from diverse backgrounds 
on an issue that many of them have not previously considered is not an 
easy undertaking. However, we intend to devote the time and the 
resources necessary to accomplish just that.

    The Chairman. Thank you, Mr. Torre.
    It was my mistake that I did not say at the beginning of 
this hearing that we face two challenges. One, we have 
generally a rule that witnesses can speak for 5 minutes or less 
but not more, and second, we have votes starting at 4 o'clock. 
So that puts pressure on all of us to get on with it.
    Ms. Virginia Seitz, Outside Counsel, Major League Baseball 
Players Association. What is an outside counselor? Are you a 
part of them, or do you advise them, or what?
    Ms. Seitz. I advise them, and I've been doing it for the 
past 25 years. I've been Outside Special Counsel for most of 
the last 25 years to the Major League Baseball Players 
Association.
    The Chairman. But they couldn't make it.
    Ms. Seitz. Well, I'm testifying on behalf of the 
Association's Executive Director, Tony Clark. He couldn't 
attend today, because he is right now chairing MLBPA's annual 
Executive Board meeting. And it will not surprise you to hear 
that one of the major topics at that meeting that's under 
discussion today and tomorrow is, in fact, domestic violence 
and the work the Association has been doing this fall to 
address domestic violence.
    The Chairman. Please proceed with your testimony and the 
time----
    Ms. Seitz. I will attempt to be brief.
    The Chairman. You don't need to be. That time is mine. You 
have your full 5 minutes.

  STATEMENT OF VIRGINIA SEITZ, OUTSIDE COUNSEL, MAJOR LEAGUE 
                  BASEBALL PLAYERS ASSOCIATION

    Ms. Seitz. This fall, the Players Association has been 
working with Major League Baseball to examine our current 
program addressing domestic violence, which only covers 
players, in light of recent events. We've been considering how 
it needs to be modified and perhaps folded into a program for 
the entire baseball family that's based on accountability, 
consequences, and fairness.
    Back in 2011, the Players Association and Major League 
Baseball negotiated and implemented a policy that addresses 
off-field violent conduct, including domestic violence, in two 
ways. It provides for both therapeutic intervention and for 
discipline in cases of inappropriate and unlawful conduct.
    With respect to the first, under our Joint Treatment 
Program, we utilize medical professionals all around the 
country to design therapeutic treatments for players who are 
charged with domestic violence-related crimes. Based on our 
understanding of domestic violence, we had moved away from a 
one-size-fits-all approach in favor of an individualized 
evaluation and case-by-case treatment for the player and the 
family involved.
    With respect to discipline, as Mr. Torre described, the 
program gives the Commissioner of Baseball or the employer club 
the authority to discipline a player where an act of domestic 
violence has been alleged. Under the Collective Bargaining 
Agreement, a player may be disciplined for just cause for any 
conduct materially detrimental or materially prejudicial to the 
best interests of baseball including any conduct that violates 
Federal, state, or local law. It's critically important, from 
the association's point of view, that discipline be imposed for 
just cause and that it be subject to review before a neutral 
arbitrator.
    In addition to the program just described, the Association 
maintains its own clinical psychiatrist on staff. He's well-
known and frequently meets with players on a confidential basis 
to address mental health issues as they arise, including those 
that might lead to violence. This part of the Association's 
program reflects its belief that the most effective treatment 
is that which happens before violence can occur.
    In sum, under our current program, a player may be 
disciplined, may undergo treatment developed by licensed 
professionals, and may seek help through our own clinical 
psychiatrist. We recognize, however, that more can be done, and 
so this fall, we have begun a dialogue with MLB about 
modifications and improvements to our program. That includes, 
first, an enhanced public relations program to promote the 
understanding and eradication of domestic violence in our 
society. Second, an improved educational and therapeutic 
program for Major League Baseball players and their families, 
so that potential issues can be addressed in an appropriate and 
confidential manner before violence occurs and so that all are 
aware of resources that can provide assistance and prevent 
harm. And third, possible changes to the existing disciplinary 
structure for domestic violence offenses.
    Like many organizations, the MLBPA has devoted an 
extraordinary amount of time and effort this fall to consulting 
with a wide range of experts and expert organizations in the 
domestic violence area. We have learned that there is no one 
simple solution, no one easy answer, but we hope that by 
working with the experts and gathering their recommendations, 
we can develop a more effective program for all of baseball and 
become a credible voice in the ongoing national dialogue about 
how to end domestic violence.
    Mr. Chairman, thank you again for this opportunity. I'll be 
happy to answer any questions you might have.
    [The prepared statement of Ms. Seitz follows:]

  Prepared Statement of Virginia Seitz on behalf of the Major League 
                      Baseball Players Association
    Mr. Chairman, members of the Committee, my name is Virginia Seitz, 
and for much of the last 20 years, I have served as outside counsel to 
the Major League Baseball Players Association (MLBPA). I am testifying 
on behalf of the Association and the Association's Executive Director, 
Tony Clark, who could not attend today. As you know, Mr. Clark is 
chairing the MLBPA's annual Executive Board meeting as we speak. Not 
surprisingly, one of the topics Mr. Clark is discussing with our 
members at that meeting is the same topic we are here to discuss 
today--Domestic Violence.
    This fall, the Players Association has been working with Major 
League Baseball (MLB) to determine whether our current program 
addressing domestic violence, which only covers players, is sufficient 
in light of recent events, or whether it needs to be modified and 
folded in with a program that could be a solution for the entire 
baseball family--players, coaches, managers, club officials, union and 
league officials and owners.
    As Mr. Clark observed in a recent response to the House Committee 
on Energy and Commerce, domestic violence is an enormous problem for 
our Nation. It cuts across all lines of class, race, income, 
profession, and gender. Its reach is not limited to the locker room. 
According to the National Network to End Domestic Violence (the 
Network), one in three women have experienced rape, physical violence 
or stalking by an intimate partner in their lifetime. Other experts 
report that more than three women are murdered by their husbands and 
boyfriends in the United States every day. One in three female homicide 
victims in cases reported to the police are killed by an intimate 
partner. Domestic violence costs employers in the United States 
approximately $13 billion each year and, tragically, between 25 percent 
and 50 percent of victims of domestic violence become unemployed.
    On a single day in West Virginia last year, according to the 
Network, 65 children and 90 adults found refuge in emergency shelters 
or transition housing provided by local domestic violence programs. 276 
adults and children received non-residential assistance and services 
related to domestic violence. In South Dakota, comparable figures were 
99 children and 82 adults finding refuge in emergency shelters or 
transitional housing, and 124 adults and children receiving non-
residential assistance. Again, this was in one day. Clearly, domestic 
violence is a national crisis.
    The Players Association and MLB have already negotiated and 
implemented in 2011 a policy that addresses off-field violent conduct--
including domestic violence--and it provides for both therapeutic 
intervention and the possibility of discipline in cases of 
inappropriate and/or illegal conduct. The parties' existing Joint 
Treatment Program (herein ``the Program'') engages qualified medical 
professionals from around the country who are given wide latitude to 
design therapeutic treatment programs geared, where necessary, to 
attempt to rehabilitate Players who are charged with domestic violence-
related crimes. The existing Program also gives the Commissioner of 
Baseball or the employer Club authority to discipline a Player where an 
act of domestic violence has been alleged--subject to the critical 
ability of the Player and the Association to challenge (if they so 
choose) that discipline before a neutral arbitrator. The adoption of 
this Program shows that Player conduct policies can and should be the 
product of arms-length collective bargaining, and it is against that 
backdrop that the parties have returned to the bargaining table to see 
if our Program can be improved.
    A few specifics on the treatment options offered under our current 
Program: The Program provides that the MLB/MLBPA Treatment Board, a 
joint enterprise originally created by the parties under the auspices 
of baseball's joint drug testing program, is responsible for designing 
and supervising individualized therapeutic treatment programs for 
Players who have engaged in off-field violent conduct, including 
domestic violence or sexual assault. Referrals to the Treatment Board 
are mandatory when, among other things, ``a Player is charged by law 
enforcement authorities with a crime involving the use of physical 
force or violence, including but not limited to, sexual assault, 
domestic violence, resisting arrest, battery, and assault.''
    The parties thus have eschewed a one-size-fits-all approach in 
favor of individualized evaluation and treatment on a case-by-case 
basis. Any Player referred to the Treatment Board is evaluated by a 
neutral expert to determine whether he could benefit from a counseling-
based treatment program and, if so, which type of program would be most 
effective. The deliberations of the Treatment Board are completely 
confidential, and the Board members work collaboratively to design a 
therapeutic model that is most appropriate for the Player, and family, 
involved.
    Once a treatment program has been developed for an individual 
Player, participation thereafter is voluntary and a Player is not 
subject to discipline for failing to participate. Nevertheless, Players 
are incentivized to cooperate because, where discipline has been or may 
be imposed, a Player's participation in a treatment program established 
through the MLB/MLBPA Treatment Board must be considered by the 
arbitrator as a mitigating factor in any disciplinary challenge.
    As for discipline, baseball's current labor agreement contemplates 
the potential for discipline when a Player commits an act of domestic 
violence or sexual assault. Our Collective Bargaining Agreement 
provides as a general matter that a Player ``may be subjected to 
disciplinary action for just cause by his Club. . .or the 
Commissioner,'' and also more specifically that ``Players may be 
disciplined for just cause for conduct that is materially detrimental 
or materially prejudicial to the best interests of baseball including, 
but not limited to, engaging in conduct in violation of Federal, state 
or local law.'' The key phrase in these provisions from the 
Association's point of view is of course ``just cause.'' The just cause 
standard is a cornerstone of American labor-management relations, and 
is particularly salient in the context of alleged domestic violence by 
professional athletes, where the high visibility and sensitivity of 
each incident demands a commitment to deliberation, consistency, 
reasonableness and fundamental fairness that, as recent events have 
shown, can prove elusive.
    But, Mr. Chairman, as you know, domestic violence does not always 
result in the filing of a police report or the airing of a video, and 
the best policies are the ones that address root causes before violence 
occurs. Therefore, in addition to the Program described above, the 
Association maintains its own clinical psychiatrist on staff, who 
frequently meets with Players on a confidential basis to address mental 
health issues as they arise. Where necessary, he refers Players to 
other specialists and/or to practitioners in the Player's home city 
and/or the city where the Player resides in the off-season. The 
Association's program reflects its belief that the most effective 
treatment is that which happens before the violence occurs.
    In sum, Mr. Chairman, under our current program, a Player may be 
disciplined, may undergo treatment developed by licensed professionals 
and may seek help on his own through our own clinical psychiatrist. We 
recognize, however, that this may not be enough. Obviously, more can be 
done with regard to education, public outreach and awareness, for 
victims, for families and for all who are involved in or touched by our 
sport.
    Consequently, starting this fall, we have begun a dialogue with MLB 
about possible modifications or improvements to our current program. 
Although the precise content of these ongoing discussions is 
confidential, there are three main elements under consideration:

  (1)  an enhanced public relations program that would help to promote 
        an understanding for, and an eradication of, domestic violence 
        in our society;

  (2)  an education and improved therapeutic intervention program for 
        Major League Baseball Players and their families so that 
        potential issues can be better addressed in an appropriate and 
        confidential manner before violence occurs; and

  (3)  possible changes to the existing disciplinary structure for 
        domestic violence offenses.

    Like many organizations, the MLBPA has devoted an extraordinary 
amount of time and effort this fall to consulting with a wide range of 
experts and groups in the domestic violence area. We have met with 
national and local groups who are involved with the domestic violence 
issue both on the policy and the treatment levels. We have interviewed 
practitioners and groups with an eye towards providing additional 
education, training and resources for the Players and their families in 
the months to come--whether or not we ultimately agree with MLB on a 
new, comprehensive domestic violence policy.
    From these discussions, we have come to appreciate better the 
myriad issues involved with domestic violence, and the needs, fears, 
and hopes of all who are impacted. Finding effective solutions that can 
actually help those who are victimized--as opposed to focusing 
exclusively on punishing the perpetrators--is not always easy. There is 
no one simple solution, no one easy answer.
    It is our hope that by working with experts in the field and by 
gathering the recommendations of the best and the brightest, we can 
develop a more effective, more comprehensive program for all of 
baseball. If we can, we will then be able to offer a credible voice to 
the ongoing national dialogue about how best to end domestic violence.
    Mr. Chairman, thank you again for this opportunity, and I would be 
happy to answer any questions you may have about our program or the 
objectives of the Major League Baseball Player Association.

    The Chairman. Thank you very much, Ms. Seitz.
    Ms. Kathleen Behrens, Executive Vice President, Social 
Responsibility and Player Programs, the National Basketball 
Association. Please proceed.

           STATEMENT OF KATHY BEHRENS, EXECUTIVE VICE

             PRESIDENT, PLAYER PROGRAMS AND SOCIAL

        RESPONSIBILITY, NATIONAL BASKETBALL ASSOCIATION

    Ms. Behrens. Thank you, Mr. Chairman, Senator Thune, and 
Members of the Committee. I appreciate your inviting us to this 
hearing today.
    My written testimony has been submitted to the Committee, 
so I will certainly try to be brief in the interest of time. We 
share your view, however, that a hearing like this is certainly 
helpful and expect that it will generate not only thought, but 
action, and that can certainly help all of us at this table.
    I am the NBA's Executive Vice President for Social 
Responsibility and Player Programs, and as such, I oversee all 
of our community programs and partnerships as well as all of 
our educational efforts with our players. Our Commissioner, 
Adam Silver, regrets that he is not able to be here today, but 
he had a long-standing commitment to lead a group of NBA owners 
and executives on a trip to India this week.
    Like the Committee and like others who already have spoken 
we have taken a fresh look at all of our programs, policies, 
and educational efforts in this area over the course of the 
last few months, and we have determined through our work, 
especially in partnership with the Players Association, that 
there is more that we can and should be doing to better educate 
our players and to help prevent domestic violence from 
occurring in the first place. We work closely with the Players 
Association on all of our educational programs for players and 
have determined that this year we need to do even more.
    We'll be doing new awareness and educational sessions with 
our players, with player's family members, and with team and 
league staff, to help raise awareness, inspire leadership, and 
hopefully prevent domestic violence from happening within the 
NBA family. At the same time, we know that discipline is part 
of the process as well, and our Collective Bargaining Agreement 
allows for the discretion of the Commissioner, but also neutral 
arbitration for our players, due process that we believe is 
fair.
    In the end, we want to stress to this committee and to 
others that we take this issue seriously. We are committed to 
doing all that we can to prevent it. We are committed to doing 
all that we can to provide firm but fair discipline when 
necessary and we will continue to learn and improve in all of 
these areas.
    I am happy to answer any questions that the Committee has. 
Thank you.
    [The prepared statement of Ms. Behrens follows:]

 Prepared Statement of Kathy Behrens, Executive Vice President, Player 
  Programs and Social Responsibility, National Basketball Association
    Chairman Rockefeller, Senator Thune, and Members of the Committee:

    The National Basketball Association appreciates the opportunity to 
provide information to this Committee about our programs and policies 
relating to the issue of domestic violence. We take this issue 
extremely seriously and are committed to a comprehensive program of 
prevention and, when necessary, discipline to deter such conduct.
    1. Education and Training. The NBA provides substantial education 
and training programs for players that address, among other things, 
player conduct issues such as domestic violence. Examples of such 
programs are:

  a.  Prior to the start of each season, the NBA and the National 
        Basketball Players Association (the union representing NBA 
        players) conduct a comprehensive Rookie Transition Program for 
        incoming NBA players. Over four full days of sessions, and with 
        the assistance of NBA and Players Association staff, former 
        players, subject matter experts, and outside speakers, rookie 
        players are exposed to a wide variety of educational and 
        developmental sessions designed to help them transition into 
        their new roles as professional athletes. In addition to 
        sessions on professional and life skills, media and community 
        relations, and personal development, players receive education 
        and training on numerous topics related to conduct. These 
        include sessions focusing on domestic violence and sexual 
        misconduct, as well as sessions devoted to drugs and alcohol, 
        safe driving, gambling, and compliance with law.

  b.  Two times each year, the NBA and Players Association conduct a 
        Team Awareness Meeting with all players on each NBA team. These 
        meetings cover selected topics determined annually by the NBA 
        and the Players Association, including issues relating to 
        player behavior. During the 2014-15 season, we will be 
        conducting a third Team Awareness Meeting focused solely on 
        domestic violence and related issues. These sessions, to be 
        completed by mid-February of 2015, will be conducted by Ted 
        Bunch, co-founder of A Call to Men, a leading violence 
        prevention organization providing training and education for 
        men, boys, and communities, and Kalimah Johnson, founder of 
        SASHA Center, a Detroit-based healing and awareness center 
        focusing on sexual assault.

    The league office maintains a robust Player Development Department, 
staffed by ten full-time employees and a number of consultants, whose 
mission is to provide support, education and resources to assist 
players with all manner of issues during their time in the NBA and to 
help them transition successfully into and out of the league. In 
addition, each team employs a Player Development Director who serves 
the same function on a local basis. Some of the key initiatives of 
Player Development personnel include tailored programs for players who 
are 20 years-old and under; life-skills programs that are conducted at 
our Pre-Draft Camp, Draft, and Summer League; and a financial education 
program that is created and delivered in partnership with the Players 
Association. Other special resources are provided to individual players 
on an as-needed basis.
    The NBA and the Players Association also oversee a Player 
Assistance Program designed to help players struggling with emotional, 
mental health, anger management, or addiction issues--any one of which 
may be associated with domestic violence. The Player Assistance Program 
is managed by professionals jointly retained by the NBA and the Players 
Association, and includes a nationwide network of counselors who are 
available to players on a 24/7/365 basis.
    2. Rules and Policies. The primary source for rules and policies 
governing NBA player conduct is the Collective Bargaining Agreement 
(CBA) negotiated between the NBA and the Players Association. The 
following provisions of the CBA, among others, are relevant to the 
issue of domestic violence:

  a.  Under the CBA, all NBA players enter into Uniform Player 
        Contracts (UPCs) with their respective teams. The UPC, in 
        paragraph 5 thereof and elsewhere, contains various conduct 
        provisions, including the requirement that players conduct 
        themselves on and off the court according to the highest 
        standards of honesty, citizenship, and sportsmanship. (See 
        Exhibit A hereto.)

  b.  The UPC also incorporates Article 35 of the NBA Constitution and 
        By-Laws, which among other things grants the Commissioner the 
        power to impose a suspension or fine (up to a maximum fine of 
        $50,000) on any player who, in the Commissioner's opinion, is 
        guilty of conduct that does not conform to standards of 
        morality or fair play, that does not comply at all times with 
        all federal, state, and local laws, or that is prejudicial or 
        detrimental to the NBA. (See Exhibit B hereto.)

  c.  Article VI of the CBA contains various provisions governing 
        player conduct, including the following: (i) a provision 
        requiring that a player undergo counseling if there is 
        reasonable cause to believe that he has engaged in any off-
        court violent conduct (or if he is convicted of such conduct); 
        (ii) a provision requiring that a player who is convicted of a 
        violent felony receive a minimum suspension of 10 games; and 
        (iii) a prohibition against players possessing a firearm or 
        deadly weapon of any kind at NBA or team venues or events or 
        when traveling with the NBA or an NBA team. (See Exhibit C 
        hereto.)

    The foregoing provisions of the CBA are explained and amplified in 
other memoranda and notices supplied to players at various times. For 
example, all players receive a memo summarizing the player conduct 
rules at the beginning of each NBA season. Another reminder--focusing 
on respect in the workplace, and making clear that prohibited conduct 
includes bullying, hazing, retaliation, or discriminatory or harassing 
behavior--is prominently displayed in poster form in all team locker 
rooms. (See Exhibit D hereto.) Also under the CBA, NBA teams are 
entitled to establish and maintain reasonable Team Rules governing the 
conduct of their players.
    3. Enforcement Process, Discipline, and Appeal. The league office 
is responsible for the enforcement of the NBA's policies relating to 
player misconduct--specifically, members of the Legal, Security, Social 
Responsibility and Player Development, and Basketball Operations 
Departments, as well as the Commissioner's Office. Where appropriate, 
and particularly with respect to allegations of domestic violence, the 
NBA will seek guidance from outside subject matter experts.
    With respect to alleged criminal conduct by players, it has been 
the NBA's practice to rely on the disposition of the criminal 
proceedings. If the player is convicted, the NBA will make a 
determination as to the appropriate disciplinary penalty for the 
conduct. If the charges are dismissed, no penalty will be imposed. More 
recently, however, our approach has evolved and we will, where 
warranted by the allegations and the preliminary evidence, conduct our 
own investigations and make our disciplinary determinations based on 
the facts as we find them.
    Under the CBA, a player (through the Players Association) has the 
right to challenge any discipline imposed by the NBA if it has a 
financial impact on him in excess of $50,000. Such challenges are 
governed by the grievance procedures set forth in the CBA and are heard 
and determined by a neutral arbitrator jointly selected by the NBA and 
the Players Association.
    4. Recent Developments. In the past few months, the NBA has 
endeavored to take a fresh look at our policies and practices in the 
domestic violence area, and as part of this effort has sought guidance 
from experts in the field--including representatives from the Corporate 
Alliance to End Partner Violence, Men Can Stop Rape, Safe Horizon, 
Joyful Heart Foundation, and the Institute on Domestic Violence in the 
African American Community. We have also retained Valli Kalei Kanuha, a 
Professor of Social Work at University of Hawaii and well-known 
domestic violence expert, as a consultant. In addition, we are working 
with officials at the Pentagon to learn how the military handles 
domestic violence issues.
    This season, the NBA and the Players Association will implement 
domestic violence training sessions for players' family members through 
both national and local providers, and will make available appropriate 
resource guides. Additionally, we are examining the creation of a NBA-
dedicated hotline support system for players and their families (and 
for league and team staff) that require assistance and support in 
dealing with domestic violence and related issues.
    On September 25, 2014, Jeffery Taylor, a player for the Charlotte 
Hornets, was arrested and charged with misdemeanor counts of domestic 
violence assault, assault, and destruction of property--all in 
connection with an incident at a Michigan hotel with a woman with whom 
he was having a romantic relationship. Immediately thereafter, the NBA 
commenced its own independent investigation of the matter. During this 
investigation, by agreement of all parties, Mr. Taylor was on a paid 
leave of absence from the team. On October 29, 2014, Mr. Taylor pleaded 
guilty to domestic violence assault, subject to the charges against him 
being dismissed if he completes domestic violence training and a series 
of other court-ordered conditions. On November 19, 2014, after 
consulting with outside domestic violence experts and others, 
Commissioner Silver suspended Mr. Taylor without pay for 24 games, 
imposed other conditions, and issued a publicly-released opinion fully 
explaining the NBA's process and rationale. (See Exhibit E.) Although 
Mr. Taylor had the option under the CBA of contesting the discipline 
before a neutral arbitrator, he chose not to do so, and instead 
accepted the Commissioner's discipline as appropriate and apologized 
for his actions.
    The NBA is committed to vigilance with respect to the issue of 
domestic violence. We have made it clear to all members of the NBA 
Family that domestic violence is not acceptable in any form and will 
result in appropriate discipline, but that there will also be resources 
and support available to help prevent its occurrence in the first 
place.
    I thank the Committee for the opportunity to provide this 
information.
                               Exhibit A
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit B
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit C
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit D
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Exhibit E

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much for that.
    Ms. Michele Roberts, who is the Executive Director, NBA 
Players Association. Welcome.
    Ms. Roberts. Thank you. Good afternoon, Mr. Chairman. Is my 
mike on? I can't tell. Now it's on.
    The Chairman. Beautiful.
    Ms. Roberts. OK. Great.

  STATEMENT OF MICHELE ROBERTS, EXECUTIVE DIRECTOR, NATIONAL 
                 BASKETBALL PLAYERS ASSOCIATION

    Ms. Roberts. My name is Michele Roberts, and I am the 
Executive Director of the National Basketball Players 
Association, the labor union that represents all NBA players in 
collective bargaining.
    I appreciate the Committee's desire to explore the topic of 
domestic violence in professional sports. As a lawyer formerly 
in private practice with the law firm of Skadden Arps, my most 
rewarding pro bono project involved the representations of 
victims of domestic violence who were seeking civil protection 
orders in local courts right here in D.C. When I began work at 
the NBPA as Executive Director in mid-September, I was 
encouraged to learn that domestic violence is a topic that our 
players recognized needed to be addressed long before the 
events of recent months when the public's attention turned so 
intently on the subject.
    Recent events have given us an opportunity to reexamine and 
strengthen the already comprehensive scheme the NBA and the 
NBPA had in place and add even more safeguards with a focus on 
prevention and counseling. We want to make sure that every 
player, wife, significant other, and family member has a safe 
environment to seek help without fear of retaliation or 
additional harm. And in doing so, our recent efforts have 
brought together representatives of all members of the NBA 
family in an unprecedented fashion. We also want to lead by 
example and help create the kind of awareness and attention 
that this prevalent and society-wide problem deserves.
    Let me first step back though to briefly describe some of 
the steps our players had already taken, through collective 
bargaining and otherwise, to address these issues. I do not 
exaggerate when I say that we begin to broach this topic with 
our players years before they even enter the NBA. Each June at 
our ``Top 100 Camp,'' the NBPA brings together the nation's 
elite high school basketball players, together with their 
parents, and helps prepare them for competitive life at the 
next level, with an emphasis on character, education, and life-
skills development.
    Close to 200 current NBA players have attended the Top 100 
Camp. During this week-long program at the University of 
Virginia campus, the players work on their basketball skills, 
but the majority of each day is focused away from the court, 
where our staff of retired players, counselors, psychologists, 
and psychiatric professionals lead large and small group 
discussions that, in part, focus specifically on respect issues 
with girls and women. At this young and impressionable age, we 
teach players that part of embracing their manhood includes 
treating every woman with kindness and respect. At last June's 
Camp, the boys and their parents spent a great deal of time 
with Kalimah Johnson, a very effective educator and founder of 
the SASHA Center, a Detroit-based healing and awareness center 
focusing on sexual assault.
    The education continues the moment a player enters the 
league, with the Rookie Transition Program, a 4 day joint 
program between labor and management that likewise focuses on 
personal skills development and provides training on numerous 
topics related to conduct, including domestic violence. In past 
years, Judge Glenda Hatchett has been a very effective voice, 
delivering graphic and powerful presentations on the effects 
and consequences of sexual misconduct and abuse of women.
    To complete the progression, we not only raise awareness 
for our players before and upon entering the NBA, but we now 
hold a Team Awareness Meeting, designed jointly by the NBA and 
NBPA, devoted solely to the topic of domestic violence. As we 
speak, Kalimah Johnson, whom I mentioned earlier, and Ted 
Bunch, co-founder of ``A Call to Men,'' a leading violence 
prevention organization, are traveling around the country to 
meet with every NBA team for a session devoted solely to 
domestic violence awareness. These sessions supplement the 
year-round work done by our NBPA Player Programs staff, a group 
of seven retired players who work full-time for the union 
together with the joint labor-management Player Assistance and 
Health Education Programs, that help players confront many of 
the emotional, anger management, and other stress-related 
issues that can be at the root of a domestic conflict.
    Our Collective Bargaining Agreement itself specifically 
lays out various policies designed to prevent, deter, and, if 
necessary, punish acts of domestic violence. Under our Uniform 
Player Contract, players are required to conduct themselves on 
and off the court according to the highest standards of 
honesty, citizenship, and sportsmanship, and the Commissioner 
may impose a fine or suspension for conduct that does not 
conform to standards of morality or fair play, that does not 
comply at all times with all Federal, state, and local laws, or 
that is prejudicial or detrimental to the NBA.
    And let me, because I see I'm running out of time, end on 
this final note.
    Since I began my tenure, I have determined that, in 
addition to the CBA-mandated levels of discipline, a greater 
focus is warranted on prevention and services to family 
members. At the union's expense, I recently convened a group of 
NBA mothers, fathers, spouses, and significant others for an 
all-day session at our offices in New York. Those discussions 
were facilitated by a domestic violence expert, Karma Cottman, 
with the D.C. Coalition Against Domestic Violence. And among 
other things, we identified as a principal need the 
establishment of a hotline and counseling service that will 
encourage not just players, but family members and other 
interested persons to seek out help without the fear of 
retaliation. Many people are fearful that, if they speak out 
about the possibility or the actual occurrence of a domestic 
violence event, they will expose themselves to public ridicule, 
be alienated by relatives and friends, and/or jeopardize a 
player's livelihood, and thus, put at risk their family's 
financial health. Everyone must be comfortable that there is a 
safe and confidential manner to seek help.
    And with that and the passage now of 6 minutes and 14 
seconds, I'll conclude my presentation, and I'm happy to answer 
any questions.
    [The prepared statement of Ms. Roberts follows:]

      Prepared Statement of Michele Roberts, Executive Director, 
                National Basketball Players Association
    Mr. Chairman and Members of the Committee:

    My name is Michele Roberts and I am the Executive Director of the 
National Basketball Players Association, the labor union that 
represents all NBA players in collective bargaining. I also serve as 
Executive Director of the Women's National Basketball Players 
Association, the labor union that represents all WNBA players in 
collective bargaining.
    I appreciate the Committee's desire to explore the topic of 
domestic violence in professional sports. As a lawyer formerly in 
private practice with the law firm of Skadden Arps, my most rewarding 
pro bono project involved the representation of victims of domestic 
violence seeking civil protection orders in local courts, right here in 
the District of Columbia. When I began work at the NBPA as Executive 
Director in mid-September, I was encouraged to learn that domestic 
violence is a topic that our players recognized needed to be addressed 
long before the events of recent months, when the public's attention 
has turned so intently on the subject. Recent events have given us an 
opportunity to re-examine and strengthen the already comprehensive 
scheme the NBA and NBPA had in place, and add even more safeguards with 
a focus on prevention and counseling. We want to make sure that every 
player, wife, girlfriend, and family member has a safe environment to 
seek help without fear of retaliation or additional harm. And in doing 
so, our recent efforts have brought together representatives of all 
members of the NBA family in an unprecedented fashion. We also want to 
lead by example and help create the kind of awareness and attention 
that this prevalent and society-wide problem deserves.
    Let me first step back, though, to briefly describe some of the 
steps our players had already taken through collective bargaining and 
otherwise to address these issues. I do not exaggerate when I say that 
we begin to broach this topic with our players years before they even 
enter the NBA. Each June at our Top 100 Camp, the NBPA brings together 
the Nation's elite high school basketball players, together with their 
parents, and helps prepare them for competitive life at the next level, 
with an emphasis on character, education and life-skills development. 
Close to 200 current NBA players have attended the Top 100 Camp. During 
the week-long program at the University of Virginia campus, the players 
work on their basketball skills, but the majority of each day is 
focused away from the court, where our staff of retired players, 
counselors, psychologists and psychiatric professionals lead large and 
small group discussions that, in part, focus specifically on respect 
issues with girls and women. At this young and impressionable age, we 
teach players that part of embracing their manhood includes treating 
every woman with kindness and respect. At last June's Camp, the boys--
and their parents--spent a great deal of time with Kalimah Johnson, a 
very effective educator and founder of the SASHA Center, a Detroit-
based healing and awareness center focusing on sexual assault.
    The education continues the moment a player enters the league, with 
the Rookie Transition Program, a four-day joint program between labor 
and management that likewise focuses on personal skills development and 
provides training on numerous topics related to conduct, including 
domestic violence. In past years, Judge Glenda Hatchett has been a very 
effective voice delivering graphic and powerful presentations on the 
effects and consequences of sexual misconduct and abuse of women.
    To complete the progression, we not only raise awareness for our 
players before and upon entering the NBA, but we now hold a Team 
Awareness Meeting, designed jointly by the NBA and NBPA, devoted solely 
to the topic of domestic violence. As we speak, Kalimah Johnson, whom I 
mentioned earlier, and Ted Bunch, co-founder of A Call to Men, a 
leading violence prevention organization, are traveling around the 
country to meet with every NBA team for a session devoted solely to 
domestic violence awareness. These sessions supplement the year-round 
work done by our NBPA Player Programs staff--a group of seven retired 
players who work full-time for the union--together with the joint 
labor-management Player Assistance and Health Education Programs, that 
help players confront many of the emotional, anger management and other 
stress-related issues that can be at the root of a domestic conflict.
    Our Collective Bargaining Agreement itself specifically lays out 
various policies designed to prevent, deter and, if necessary, punish 
acts of domestic violence. Under our Uniform Player Contract, players 
are required to conduct themselves on and off the court according to 
the highest standards of honesty, citizenship and sportsmanship, and 
the Commissioner may impose a fine or suspension for conduct that does 
not conform to standards of morality or fair play, that does not comply 
at all times with all federal, state, and local laws, or that is 
prejudicial or detrimental to the NBA.
    More specifically, as far back as 1999, the parties agreed that 
when there is reasonable cause to believe that a player has engaged in 
sexual assault or acts of domestic violence, he is required to undergo 
a clinical evaluation and appropriate counseling, with conviction of a 
violent felony punishable by an immediate suspension of at least ten 
(10) games. Players are required to cooperate with investigations, and 
all discipline is appealable to an independent arbitrator.
    Since I began my tenure, I have determined that, in addition to the 
CBA-mandated levels of discipline, a greater focus is warranted on 
prevention and services to family members. At the union's expense, I 
recently convened a group of NBA mothers, fathers, spouses and 
girlfriends for an all-day session at our offices in New York. Among 
other things, we identified as a principal need the establishment of a 
hotline and counseling service that will encourage not just players, 
but family members and other interested persons, to seek out help 
without the fear of retaliation or unintended consequences. Many people 
are fearful that if they speak out about the possibility or the actual 
occurrence of a domestic violence event, they will expose themselves to 
public ridicule, be alienated by relatives and friends, and/or 
jeopardize a player's livelihood, and, thus, put at risk their family's 
financial health. Everyone must be comfortable that there is a safe and 
confidential manner to seek help. This is my foremost priority at this 
point.
    As a final note, we continue to believe that collective bargaining 
is the most appropriate forum for the resolution of these issues and 
are confident that our policies and initiatives address in a meaningful 
way the concerns of the Committee. Congress has long given deference to 
parties operating under collective bargaining agreements to develop 
their own solutions to problems, properly recognizing that the parties 
bound by a collective bargaining agreement have a longstanding 
relationship with unique problems and problem solving methods that are 
often difficult to comprehend by those outside the relationship. We 
fully believe in and support the Committee's and Congress' goal of 
eliminating domestic violence in sports, and we believe this goal is 
best accomplished by the leagues and players working together to 
accomplish this universal objective. Together we can and will set a 
tone of appropriate respect for women and all family members.

    The Chairman. Thank you very much.
    Jessica Berman, who is Vice President and Deputy General 
Counsel of the National Hockey League. Welcome.

STATEMENT OF JESSICA BERMAN, VICE PRESIDENT AND DEPUTY GENERAL 
                COUNSEL, NATIONAL HOCKEY LEAGUE

    Ms. Berman. Thank you, Chairman, Ranking Member, and the 
members of the Committee for inviting the National Hockey 
League to testify here today regarding domestic violence in 
professional sports.
    The NHL takes very seriously the issues of domestic 
violence. We believe we have an obligation to raise awareness, 
provide education, and penalize offenders, all with the hope 
and intention of deterring future misconduct. To that end, and 
working with the NHLPA, the duly authorized collective 
bargaining representative of all NHL players, the League has 
responsibly developed, implemented, and enforced strict 
policies, practices, and procedures regulating the off-ice 
personal conduct of its players, which extend to and encompass 
situations of domestic abuse.
    A core component underlying these rules and policies is a 
comprehensive education program, which has existed for at least 
the last decade. The League provides annual training for our 
players on a variety of critical social issues, and these 
issues have included domestic abuse. This training and 
education has been delivered in a number of forms and contexts, 
and by multiple voices. Those voices have included the NHL 
security department and medical professionals charged with 
administering our substance abuse and behavioral health 
program, which is a jointly administered program created by the 
NHL and NHLPA in 1996. They meet with players on an annual 
basis on each team to discuss with them, among other things, 
personal conduct issues.
    In addition, the NHL and NHLPA organize an annual Rookie 
Orientation Program, and at this past year's program, at two 
different breakout sessions, the issue of domestic violence was 
addressed, as well as other personal conduct issues. We believe 
that by making the messages clear and reinforcing them on a 
regular basis, the players are better prepared to appreciate 
and manage difficult problems that they face, both from a 
personal and professional standpoint. As a result, they will be 
better equipped to avoid situations that will bring harm to 
themselves and to their families.
    In addition to our work in the area of education and 
raising awareness, the Collective Bargaining Agreement, which 
will remain in effect until at least September 15, 2020, 
governs the terms and conditions of employment for all NHL 
players. The CBA grants both the League and each of its 30 
Clubs the authority to enforce the rules regulating players' 
personal off-ice conduct, and this responsibility has, and will 
continue to be, exercised appropriately, fairly, and 
judiciously.
    I'll just briefly go through a couple of the relevant 
provisions which provide the League with that authority. In our 
Collective Bargaining Agreement, the Commissioner has broad 
authority to act and impose discipline when a player has been 
or is guilty of conduct that is detrimental to or against the 
welfare of the League or the game of hockey. This language has 
historically been applied by the League Office to a wide array 
of personal conduct off-ice matters, and we believe it provides 
the League with an adequate degree of discretion and authority.
    The standard form employment contract, which is also part 
of our Collective Bargaining Agreement, provides NHL teams with 
the authority to discipline players for conduct that violates 
the rule that requires a player to conduct himself, on and off 
the rink, according to the highest standards of honesty, 
morality, fair play, and sportsmanship, and to refrain from 
conduct detrimental to the best interest of the Club, the 
League, and professional hockey generally.
    The National Hockey League remains committed to the 
principle of addressing players' personal conduct problems in a 
meaningful way, and by doing so, protecting and maintaining 
both the integrity and generally good reputation of our players 
and our sport. We do not hesitate to take disciplinary action 
in necessary and appropriate circumstances, as most recently 
evidenced by the indefinite suspension issued to a player in 
the NHL who was recently charged with a domestic violence 
offense. While no trial has occurred in that situation, and the 
player remains innocent until proven guilty, we felt the most 
appropriate course of action in that case was to remove the 
player from the ice, at least until we are able to satisfy 
ourselves with respect to what has actually transpired.
    The NHL appreciates being provided with the opportunity to 
express our views here today, and we remain available to answer 
any questions that you may have. Thank you.
    [The prepared statement of Ms. Berman follows:]

Prepared Statement of Jessica Berman, Vice President and Deputy General 
                    Counsel, National Hockey League
    I would like to thank the Chairman, the Ranking Member, and the 
Committee Members for inviting the National Hockey League (``NHL'' or 
the ``League'') to testify today regarding domestic violence in 
professional sports.
    The NHL takes seriously issues of domestic violence. While our 
historical experience suggests that these issues are not prevalent 
among our Player population, we nonetheless believe we have an 
obligation to raise awareness, provide education, and penalize 
offenders, all with the hope and intention of deterring future 
misconduct. To that end--working with the National Hockey League 
Players' Association (``NHLPA''), the duly authorized collective 
bargaining representative of NHL Players--the League has responsibly 
developed, implemented and enforced strict policies, practices and 
procedures regulating the off-ice personal conduct of its Players, 
which extend to and encompass situations of domestic violence.
    A core component underlying all of these rules and policies is a 
comprehensive education program. For at least the last decade, the 
League has provided annual education for our Players on a variety of 
critical social issues, including issues relating to domestic violence. 
This training and education has been delivered in a number of forums 
and contexts, by multiple voices. In particular, on an annual basis 
both the NHL Security Department personnel and the medical 
professionals charged with administering our Substance Abuse and 
Behavioral Health (``SABH'') Program (the ``Program Doctors'') meet 
with the Players on each NHL team to educate them, and to discuss with 
them, among other things, personal conduct issues. In addition, the NHL 
and NHLPA organize an annual Rookie Orientation Program at which at 
least two different breakout sessions comprehensively address the 
importance of avoiding personal conduct issues--including, 
specifically, domestic abuse.
    Although the emphasis and content of the League's annual sessions 
are reviewed and modified on a regular basis to ensure that they remain 
engaging and relevant, in general, the education programs focus on: (i) 
identifying the triggers that lead to conflict, personal conduct issues 
and domestic violence; (ii) outlining ways to avoid dangerous 
situations prior to their escalation; (iii) offering alternative 
mechanisms for handling personal conflicts; (iv) providing information 
about third-party assistance for Players and their families in need of 
counseling or other behavioral intervention; and (v) explaining the 
criminal, civil, professional, personal and other consequences 
associated with engaging in personal misconduct. It is our hope and 
sincere belief that the NHL's comprehensive education and training 
programs have helped our Players make better decisions in their lives; 
certainly that would include their conduct with respect to their 
relationships with family members and other loved ones.
    We believe that by making the messages clear and reinforcing them 
on a regular basis, the Players are better prepared to appreciate and 
manage difficult problems that may arise, both from a personal and 
professional standpoint, and, as a result, avoid situations that will 
bring harm to their families and themselves. Our Players are 
continuously reminded that they live and act as role models to people 
both inside and outside the hockey community and that their behavior 
and conduct will always be judged and held to the highest standards. 
Our Players take seriously the importance of their roles in this 
regard, and in representing each of their respective team 
organizations, the League and the sport of hockey generally, and, 
overwhelmingly, their conduct has made a positive contribution to their 
communities.
    In addition to the our work in the area of education and raising 
awareness, the Collective Bargaining Agreement (``CBA''), which will 
remain in effect until at least September 15, 2020, sets forth 
provisions (as may be amended from time to time by agreement of the 
parties) that govern terms and conditions of employment for all NHL 
Players. The CBA grants both the League and each of its 30 NHL Member 
Clubs authority to enforce rules relating to Players' personal (off-
ice) conduct, and this responsibility has been--and will continue to 
be--exercised appropriately, fairly and judiciously. I will now briefly 
identify and describe various of these provisions, and I have included 
full text versions of the relevant materials as attachments to my 
written statement.

  1.  CBA Article 18-A: Commissioner Discipline for Off-Ice Conduct--
        Article 18-A of the CBA sets forth the rules, procedures and 
        guidelines for the League pursuant to which it can review, 
        assess and impose supplementary discipline for Players' off-ice 
        conduct. The provision, which has been collectively bargained 
        with the NHLPA, grants to the Commissioner broad authority to 
        act and impose discipline when a Player ``has been or is guilty 
        of conduct (whether during or outside the playing season) that 
        is detrimental to or against the welfare of the League or the 
        game of hockey.'' This language historically has been applied 
        to a wide array of personal conduct matters, and we believe it 
        provides the League with an adequate degree of discretion and 
        authority. (Full text attached at Attachment 1)

  2.  CBA Exhibit 1: Standard Player's Contract--Exhibit 1 to the CBA 
        is the standard form employment contract (the ``Standard 
        Player's Contract'' or ``SPC'') used for all NHL Players with 
        their NHL teams. The SPC also contains rules that are 
        applicable to Players' personal conduct. In particular, Section 
        2(e) requires that a Player ``conduct himself on and off the 
        rink according to the highest standards of honesty, morality, 
        fair play and sportsmanship, and to refrain from conduct 
        detrimental to the best interest of the Club, the League or 
        professional hockey generally.'' This paragraph provides NHL 
        teams with discretion to apply appropriate discipline in the 
        event a Player's personal conduct violates this standard. (Full 
        text attached at Attachment 2)

  3.  NHL Constitution Article 6 & NHL By-Law Section 17--The NHL 
        Constitution Article 6 & NHL By-Law Section 17 each contain 
        rules and guidelines for imposing discipline both for Players 
        and for other League and Club personnel for off-ice misconduct. 
        (Full text attached as Attachments 3 and 4)

  4.  Substance Abuse and Behavioral Health Program (``SABH 
        Program'')--The NHL/NHLPA SABH Program is a joint program 
        established and implemented by the NHL and the NHLPA that 
        comprehensively addresses matters relating to substance abuse 
        and behavioral health (including as they may relate to certain 
        criminal arrests and/or convictions) through education, 
        counseling, treatment, follow-up care, and where appropriate, 
        sanctions in the form of Player discipline. The SABH Program is 
        administered by the Program Doctors that have been retained by 
        the NHL and NHLPA jointly, and those professionals make their 
        services available to all NHL Players and their families, as 
        necessary. The Program Doctors deliver annual education to the 
        Players on each of our 30 Member Clubs, a portion of which 
        education is dedicated to domestic violence issues. The SABH 
        Program also makes available a 24/7 confidential hotline to 
        Players and their families to assist with crisis management and 
        intervention, including as it might relate to personal conduct 
        matters.

  5.  NHL Security Department Policies/Education--The NHL Security 
        Department acts as a liaison with each team's security 
        department in an effort to safeguard and protect the Players 
        and all other constituents and stakeholders in the game. This 
        results in regular and consistent communication between the 
        League Office and the 30 NHL Member Clubs, and ensures that the 
        League is aware of any issues that may warrant intervention or 
        might otherwise need to be addressed by the League.

     Furthermore, the Security Department has developed and regularly 
        disseminates to the Players information and education in areas 
        where Players may encounter increased risk, including areas 
        such as gambling, domestic conflict and personal conduct 
        management.

    The National Hockey League remains committed to the principle of 
addressing Players' personal conduct problems in a meaningful way, and 
by doing so, protecting and maintaining both the integrity and 
generally good reputation of our Players and our sport generally. We do 
not hesitate to take disciplinary action in necessary and appropriate 
circumstances, as most recently evidenced by the indefinite suspension 
issued to a Los Angeles Kings' Player, who recently was charged with a 
domestic violence offense against his spouse in California. While no 
trial has occurred and the Player remains innocent until proven guilty, 
we felt that the most appropriate course of action in that case was to 
remove the Player from the ice, at least until we are able to satisfy 
ourselves with respect to what actually transpired.
    Please be assured that we will certainly continue to prioritize the 
subject of training and education of the Players who play in our League 
on issues related to personal conduct, including domestic violence. 
Indeed, in light of recent events, we have undertaken a process to 
reevaluate everything that we do in this area, both at the League and 
local Club level to ensure they are both effective and state-of-the-
art. In this regard, we will continue to utilize third-party providers 
and experts to ensure best practices, and we obviously intend to engage 
and involve our Players' Association in any ``next steps'' that might 
prove appropriate.
    The NHL appreciates being provided with the opportunity to express 
our views regarding these issues. We remain available should you seek 
additional information.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Ms. Berman.
    Steve Fehr, the Special Counsel, National Hockey League 
Players' Association.

  STATEMENT OF STEVEN FEHR, SPECIAL COUNSEL, NATIONAL HOCKEY 
                  LEAGUE PLAYERS' ASSOCIATION

    Mr. Fehr. Thank you. And if I might, I would like to say 
I've never lived in and rarely been to West Virginia, but I've 
long been an admirer of the Senator from West Virginia, and I 
would like to thank you for all that you've done, not just in 
holding this hearing, but throughout your career. And I wish 
you the best in 2015 and beyond.
    In regard to none of the Executive Directors other than Ms. 
Roberts being able to show up, Senator Thune, I would like to 
say that the Executive Director of the NHLPA, who happens to 
have the same last name as I do, wanted very much to be at this 
hearing. He had a long-standing commitment overseas. I believe 
staff was told that if the hearing was next week or yesterday 
or even this morning, he would have been able to attend, and 
he'd be happy to meet with you in your offices or at a future 
hearing.
    There could be some advantages and disadvantages to going 
last. Like Ms. Behrens, I'm not going to read from my prepared 
statement. I appreciate that you will place it in the record. 
It's a little too long, and parts of it would be a bit 
repetitive, not only of what Ms. Berman said about the NHL but 
what my colleagues, particularly Ms. Roberts and Ms. Seitz said 
on behalf of the basketball players and the baseball players. 
But let me just make a few points.
    Professional athletes face extraordinary public scrutiny, 
both on and off their field of play. They are often thrust into 
the public spotlight at a very young age, sometimes 20 or even 
younger in the NHL, with pressures few people ever experience 
during their lifetime. Many of you expect the players to be 
role models, but in most cases, their background and training 
in high-performance athletics has done little to assist them in 
assuming that role. In light of this, the NHLPA has worked 
diligently with the NHL to develop procedures, policies, and 
programs to help these young men and their families deal with 
these pressures. We believe our efforts have met with some 
success, but it is a never-ending project.
    It starts with education. We stress education for our 
players beginning at a young age. As Ms. Berman indicated, much 
of that is done through the SABH Program, in which services are 
available to all players and to all who could be involved in a 
situation involving domestic violence. That includes families. 
That includes girlfriends, and I did ask staff if it was 
appropriate to say that word. Trained medical professionals are 
available for counseling and other services on a 24-hour basis.
    We also have our Rookie Orientation Program, which has been 
in place for 2 years now. It was initiated by the Players' 
Association along with the League. It is based on a model that 
was used by MLB and the MLBPA. And as you may know, the 
Executive Director of the NHLPA worked as the Executive 
Director of the MLBPA for many years. We stress education and 
training of players coming into the league on many subjects, 
including domestic violence.
    On the subject of discipline, the CBA does give the 
Commissioner power to discipline for what we call ``off-ice 
conduct.'' Obviously, that would include situations involving 
domestic violence. Under the CBA, such discipline is eventually 
reviewable by a neutral arbitrator. The arbitrator is asked to 
review, among other things, whether the discipline imposed by 
the Commissioner for off-ice conduct was ``supported by 
substantial evidence'' and was ``proportionate to the gravity 
of the offense.'' This right to appeal should encourage the 
fair and consistent application of disciplinary policies and of 
results that can withstand objective scrutiny. The fact that 
the arbitrator is independent, that is, not an employee of the 
NHL or a representative of the NHL, adds considerable 
credibility to the process and strengthens the perception that 
any penalties imposed are just.
    I should add, as I said in my statement, that discipline in 
this area can be complex, particularly when there is interplay 
between potential criminal charges or actual criminal charges 
and disciplinary proceedings in the workplace.
    Finally, as Commissioner Bettman said last week in a letter 
to the House committee, there have been very few incidents that 
have come to light in recent years involving NHL players and 
domestic violence. And I do not say that, Senator Thune, to 
minimize or downplay the issue, because obviously, it is a very 
important issue, and even if there is one, it is one too many, 
and we need to continue to work until there are none.
    Thank you for holding this hearing, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Fehr follows:]

  Prepared Statement of Steven Fehr, Special Counsel, National Hockey 
                  League Players' Association (NHLPA)
    My name is Steven Fehr, and I am Special Counsel to the National 
Hockey League Players Association (NHLPA). I appear today in response 
to the Chairman's invitation to testify. The Executive Director of the 
NHLPA, Donald Fehr, is unavailable due to a longstanding commitment 
overseas.
    We want to thank the Chairman and the Committee for the invitation, 
as well as for taking the time to focus on this important issue. We all 
share the common goal of doing whatever we can to reduce the incidence 
of domestic violence in this country. Given some recent cases that have 
drawn great public attention from the realm of sports, today's 
discussion is both warranted and timely.
    Professional athletes face extraordinary public scrutiny both on 
and off their field of play. These athletes are often thrust into the 
public spotlight at a young age with pressures few people ever 
experience during their lifetime. Our society expects them to be ``role 
models,'' but in many cases their background and training in high-
performance athletics has done little to assist them in assuming this 
role. In light of this, the NHLPA has worked with the NHL to develop 
procedures, policies and programs to help these young men and their 
families deal with these pressures. Those will be discussed in more 
detail below. We believe that our efforts have met with some success. 
But it is a never-ending project.
    The issue of player discipline in this area is a complex one. When 
an employer disciplines an employee for misconduct away from the 
workplace, it raises a host of concerns on its own. But when you add 
the prospect of discipline for allegations that have yet to be proven, 
the issues become even more difficult. The careers of athletes are very 
short and all games are precious. Of course, the NHLPA wants to do all 
that it can to eliminate domestic violence that involves our members. 
At the same time, we cannot accept the proposition that a player 
should, as a matter of course, be punished until he has had his ``day 
in court,'' or in neutral arbitration as the case may be. And in 
instances in which there is an actual or potential criminal proceeding 
in addition to the prospect of employer discipline, the legal issues 
can be very complicated to navigate.
    We should also make a point regarding the number of domestic 
violence incidents involving our members. We do not have data to 
compare to the numbers in society in general, or in other sports, but 
it would seem that such incidents involving NHL players are few and far 
between, as Commissioner Bettman has said. Indeed, with respect to the 
number of instances in recent years when NHL players were subject to 
prosecution for domestic violence, we are only aware of two such 
allegations against NHL players over the last nine years. In one, the 
charges were ultimately dropped, and the other is currently pending.
    With that background let me give you more detail about the efforts 
of the NHLPA in this area.
    The NHLPA is the exclusive collective bargaining representative of 
the more than 700 professional hockey players who play for the 30 clubs 
in the NHL, 23 of which are in the U.S. and the remaining 7 in Canada. 
As such, we negotiate the players' terms and conditions of employment, 
including the bases upon which ``off-ice'' misconduct may be addressed 
by the League, and to represent our members in any disciplinary 
proceedings. Over the years, and particularly during the 2012-2013 
bargaining that culminated in the parties' new collective bargaining 
agreement (CBA), we have negotiated with the NHL over policies and 
procedures related to the authority of the League and the Clubs to 
discipline players for off-ice personal misconduct, which would of 
course include instances of domestic violence or other crimes. In 
addition, and perhaps more important, for many years we have worked 
closely with the NHL to provide our members and their families with a 
comprehensive program of education and personal and family support in 
the form of the Substance Abuse and Behavioral Health Program (SABH). 
As will be explained below, the successful operation of this program 
may well have contributed to the infrequency of incidents of domestic 
violence.
Player Representation
    The CBA provides the NHL Commissioner with the authority to 
discipline players for off-ice misconduct to the extent that such 
behavior is found to be detrimental to the game of hockey or to the 
welfare of the League. In addition, under the terms of the ``Standard 
Player Contract'' between individual players and their Clubs, which is 
also part of the CBA, NHL Clubs are authorized to discipline their 
players for conduct ``detrimental to the best interest of the Club, the 
League or professional hockey generally.'' Such discipline, of course, 
is subject to the conditions as well as the procedural and substantive 
protections set out in the CBA, including a player's right to have his 
League or club discipline for off-ice misconduct reviewed by a neutral 
arbitrator. The NHLPA's role in the off-ice discipline process is 
rooted in our statutory duty to represent our members. Under the 
National Labor Relations Act unions owe all bargaining unit employees a 
duty of fair representation. Thus, the NHLPA attempts to ensure that 
the procedural protections of the Collective Bargaining Agreement are 
complied with; that the discipline assessed by the League or Clubs is 
consistent with the relevant provisions of the CBA; and that the 
discipline which results comports with traditional notions of 
fundamental fairness and due process.
    A critical component of the negotiated disciplinary process, and 
central to the effort to achieve fairness and protect due process, is 
the aforementioned right to review by a neutral, independent 
arbitrator. This procedure has been available for many years to players 
who are the subject of Club discipline; in the 2013 CBA it was extended 
to apply to cases of Commissioner discipline. Upon the exercise of this 
contractual appeal right, the arbitrator is asked to review, among 
other things, whether the discipline imposed by the Commissioner for 
off-ice conduct was ``supported by substantial evidence'' and 
``proportionate to the gravity of the offense.'' The right to appeal 
should encourage the fair and consistent application of disciplinary 
policies and of results that can withstand objective scrutiny. The fact 
that the arbitrator is independent, i.e., not an NHL official or 
representative, adds considerable credibility to the process and 
strengthens the perception that any penalties imposed are just.
Substance Abuse and Behavioral Health Program
    The NHLPA and NHL work together through the Substance Abuse and 
Behavioral Health (SABH) program to ensure that players receive 
education, support and, where necessary, professional counseling and 
treatment. As I indicated previously, the training and background of 
the young men, who many expect to be role models, often does little to 
prepare them for this role. The program teaches and encourages players 
to make appropriate choices in their personal lives, including in their 
relationships with family members. The SABH program provides such 
counseling, treatment and support not only to players, but also to 
wives, spouses, girlfriends, and other family members. Both the League 
and the NHLPA are highly committed to this approach, which in this 
context may be considered preventative.
    The parties established the SABH program in 1996. Since its 
inception, the primary aim of the program has been to provide a 
comprehensive system of professional support for players in order to 
promptly and effectively address behavioral issues, including conduct 
that might lead to criminal charges. The SABH program, which is staffed 
by dedicated health care professionals selected by the NHL and the 
NHLPA, provides players with education and information regarding the 
entire range of behavioral, personal, and relationship issues, 
including spousal abuse. The SABH ``Program Doctors'' are available on 
a 24-hour basis throughout the year to provide confidential assistance 
to players who may be experiencing personal or family crises.
    At the commencement of each season, the SABH Program Doctors visit 
each of the 30 clubs and meet with players to discuss personal conduct 
issues and familiarize them with the array of available program 
services. Players are encouraged by NHLPA staff and representatives to 
reach out to the program before a situation gets out of hand, and are 
reminded that the Program Doctors are immediately available, either by 
telephone or in person, to assist in the management of personal crises. 
Considerable emphasis is placed on the confidentiality of player 
consultations with the Program Doctors. We believe that the players' 
ready access to the highly skilled and trusted professional counseling 
services offered by the SABH program significantly reduces the 
incidence of violent outcomes related to personal issues.
    The SABH program also aims to resolve behavioral issues on a long-
term basis. Where appropriate, Program Doctors refer players to 
counseling or treatment offered by a network of health professionals 
established for this purpose. The progress of the players who receive 
such counseling and treatment is monitored by the Program Doctors and, 
as deemed appropriate and necessary, follow-up care is available to 
players. As a general approach, the SABH program places emphasis on the 
resolution of issues within the player's family as a whole; family 
members, especially spouses, are involved in counseling and treatment, 
either on a separate basis or in conjunction with that provided to the 
player.
Rookie Orientation Program
    More recently, the NHLPA and NHL have instituted an annual multi-
faceted Rookie Orientation Program (ROP) that, among other objectives, 
is designed to serve as an important introduction to the SABH program 
for new players coming into the League. The ROP is a three-day seminar 
held before the commencement of training camp. Those players deemed 
likely to be playing in the NHL for the first time in the approaching 
season are required to attend. The players receive intensive education 
in the whole range of life-style issues confronting younger 
professional athletes, including the development of appropriate coping 
mechanisms within relationships. They are introduced to the 
professionals engaged in the SABH, who explain how they can utilize the 
program services.
    Thank you again for the opportunity to be here today. I look 
forward to answering any questions.

    The Chairman. Thank you very much.
    Just make an announcement. It's very, very difficult if the 
leadership holds votes at 4 o'clock for us to have a reasonable 
hearing, and so I'm trying with everything I can to get them to 
postpone those votes for at least a half an hour, so that all 
members have a chance to speak and ask questions. It is much 
too important a hearing to let couple of votes get in the way 
of it. Senator Thune?
    Senator Thune. Mr. Vincent, as we've discussed, last 
Friday, the former Federal judge who heard Ray Rice's appeal of 
his suspension ruled that Mr. Rice had not misled NFL 
Commissioner Roger Goodell about his confrontation with his 
fiancee and in her 17-page opinion, the judge discusses the 
pre-discipline meeting between Ray Rice and Roger Goodell 
stating that, and I quote, ``At the time of the June 16 
meeting, the NFL also knew that there was a camera inside the 
elevator and thought it was likely that there was a video from 
the camera. Various sources, including NFL security, had 
reported the existence of such a video. Rice had received this 
video in discovery during his criminal case, but the NFL never 
asked Rice for the second video.'' That's end quote. That's 
from the judge.
    So the question is, how did the Commissioner not know that 
there was a second video inside the elevator at the time of the 
June 16 meeting with Mr. Rice?
    Mr. Vincent. Well, Senator, I'd like to begin with Judge 
Jones' decision and her opinion letter. I thought it made it 
very clear the Commissioner first imposing discipline and then 
coming back and imposing discipline again was a deficiency in 
our system. But as we read through her opinion letter, I think 
she made it obvious that if the Commissioner had imposed more 
severe discipline on the onset, it would have made it very 
difficult for her to rule any differently.
    We've learned. I think the Commissioner has acknowledged 
those mistakes. We have acknowledged those mistakes. This is 
all part of our evaluation as we look at the new Personal 
Conduct Policy. We failed. The Commissioner failed to impose 
the proper discipline in the Ray Rice case in the very 
beginning.
    Senator Thune. But the question is did the NFL ask for the 
second video and did the Commissioner know it existed? I mean, 
I assume the NFL knew of it if Ray Rice had it.
    Mr. Vincent. Yes. Senator, the first video, heartless, 
gutless, despicable. I don't think there was a need for a 
second video to impose the proper discipline. We failed in that 
particular area. The Commissioner has acknowledged that. Our 
office has acknowledged that. We made a critical mistake.
    Senator Thune. So what efforts is the NFL making to ensure 
that, in the future, all the relevant, available evidence is 
there before making a decision on whether and how to punish a 
player that's involved in a domestic violence or a sexual 
assault case?
    Mr. Vincent. Well, I would begin, Senator, with stating 
that having the right people at the table, having the right 
voices to evaluate, to potentially investigate these horrific 
crimes, I thought at the time. We know now that the right 
people weren't at the table. Listening to our experts across 
the country, we've learned that the right voices, the right 
discipline, the right process was not in place. We've learned 
from those mistakes. We've begun implementing, at least at a 
minimum, having the right people, the right discussion, the 
right system: one, by protecting the victims first and 
survivors, and then second, working toward a fair process, but 
firm discipline.
    Senator Thune. When might we expect the Mueller 
investigation to conclude?
    Mr. Vincent. We're expecting it at any time. We've all been 
put on notice in our office, as Mr. Mueller gives us a call or 
he wants to speak, to be cooperative. But we're hoping that 
that ends, and we're expecting that report to come to some 
closure shortly.
    Senator Thune. Will that be a public report and will it 
detail the results of that investigation?
    Mr. Vincent. I believe so.
    Senator Thune. I want to ask a question, and this would be 
of the Players Association representatives, and I'll try, in 
the interest of time, Mr. Chairman, to give other people an 
opportunity to ask questions, keep this very short, so if you 
could answer, yes or no. A lot of the focus has been on finding 
the right penalty for domestic violence, but would you agree 
that, at its core, the solution will require athletes to take 
responsibility for their own conduct and use the same self-
discipline that has allowed them to excel at sports to renounce 
and end this ugly violence? Ms. Patterson?
    Ms. Patterson. I would say that it's a multifaceted 
approach, which includes personal accountability. But I do 
believe it also includes education, counseling, and some of the 
other efforts that Ms. Roberts specifically spoke about, 
particularly before players come into the league. You know, 
we'd certainly acknowledge that accountability for your own 
actions is important and significant, but we do have to 
acknowledge that players, they are sons, they are brothers, 
they are fathers, husbands, and we just have to assist in that 
development.
    Senator Thune. Ms. Berman, yes or no?
    Ms. Berman. I would say accountability is a very critical 
part of any solution.
    Senator Thune. Ms. Roberts?
    Ms. Roberts. I would concur with both responses, yes.
    Mr. Fehr. I think players are and expect to be held 
accountable for their conduct in many ways.
    Senator Thune. Thank you, Mr. Chairman.
    The Chairman. Thank you. I'm just going to ask one 
question, not a second question, just one question, so that 
everybody gets a chance to do so, then we'll have a second 
round if we're so lucky. This is directed to Ms. Behrens and 
Ms. Roberts.
    The NBA's policy on domestic violence is a minimum 10 game 
suspension for felony violent acts. As I understand the policy, 
the league does not impose penalties when there is no 
conviction. That becomes important. But many domestic violence 
cases do not result in conviction, because of some of the 
factors we've already undertaken--there's the culture of 
silence and all the rest of it, the people withdraw, don't 
press or whatever.
    Too often, victims don't cooperate with law enforcement for 
a variety of reasons, so the charges are mysteriously dropped, 
or defendants will plead no contest. When I hear no contest, 
red lights go off in all directions, but this has a very 
different effect. In the last 2 years, I'm aware of six NBA 
players who have been charged with domestic violence, but the 
league did not impose any penalties, because there have been no 
convictions.
    So my question to Ms. Behrens and Ms. Roberts, are you 
prepared to develop uniform policies that will address conduct 
by players who have been charged with a domestic violence but 
there are no convictions?
    Ms. Behrens. Mr. Chairman, as I submitted to the Committee 
an opinion that the Commissioner released about 2 weeks ago 
relating to the suspension of one of our players, and in that, 
the Commissioner acknowledged that we needed to do more on this 
issue in terms of discipline going forward, both in terms of 
our due process and not really relying on the criminal justice 
system.
    One of the things that we've learned from our experts, and 
a number of the members talked about it, certainly Senator 
McCaskill mentioned it, is that domestic violence for too long 
has gone both under-reported, under-prosecuted, and under-
sentenced. And we are committed to making sure that we're not 
just relying on the criminal justice system going forward, and 
that we are independently investigating charges that might be 
brought against a player, and as such, are making sure that the 
Commissioner, who does have discretion beyond the 10 games that 
you mentioned in the Collective Bargaining Agreement, does have 
discretion beyond that to impose a suspension that is longer, 
as we did in the recent case of Jeff Taylor.
    So that is our plan going forward, that we will be doing 
independent investigations, ensuring due process for our 
players, and making sure that the suspensions are firm but 
fair.
    The Chairman. Ms. Roberts?
    Ms. Roberts. What I would add, Senator, is that in the 
existing CBA, there is, in fact, language that allows the 
Commissioner, even in the absence of a conviction, if there is 
a reasonable basis to conclude that a player has been engaged 
in violence, including domestic violence, counseling can be 
ordered. And again, as Kathy has mentioned, there is a basis to 
impose discipline. So it's ``in there.'' Having said that, I 
agree with Ms. Behrens, we are continuing to have discussions 
about ways to tweak and improve our system to the extent that 
there's any absence of sufficient transparency about there 
being the ability to impose fair discipline.
    The Chairman. So you both indicate to me that you're moving 
away from the necessity for a conviction before action can be 
taken.
    Ms. Roberts. What I am suggesting is that there is, as I 
say, there is language that does permit, if there is a 
reasonable basis to conclude that a player has engaged in 
violent conduct, including domestic violence, subject to an 
investigation by the Commissioner, if that's substantiated, 
there is an ability to exact a punishment.
    The Chairman. Thank you.
    Ms. Roberts. You're welcome.
    The Chairman. Senator Heller?
    Senator Heller. Thank you, Mr. Chairman. Again, thanks for 
holding this hearing. Also to our witnesses that are here 
today, thank you for taking time. Ms. Patterson, most of my 
questions will be directed toward you.
    Yesterday, the Washington Post reported that the NFL and 
the Players Associations are still at odds regarding changes to 
the Personal Conduct Policy and how players discipline is 
handled. Is that accurate?
    Ms. Patterson. I would say yes.
    Senator Heller. It is accurate?
    Ms. Patterson. That's correct.
    Senator Heller. Also in the article, the union has taken 
the position that a player should have the right to determine 
whether they play or not after an incident like domestic 
violence or sexual assaults take place. Is that also accurate?
    Ms. Patterson. I wouldn't say that's accurate generally.
    Senator Heller. Can you be more specific?
    Ms. Patterson. Well, it's hard with a hypothetical.
    Senator Heller. I'm just taking the article.
    Ms. Patterson. Right.
    Senator Heller. Is it true that the union's position is 
that a player should determine for themselves, under certain 
incidents like domestic violence or sexual assault take place, 
whether or not they should play?
    Ms. Patterson. No. I would not say that's accurate.
    Senator Heller. What is accurate?
    Ms. Patterson. That we want to have confidence in a process 
in terms of discipline if an incident does occur, and we would 
like to collectively bargain with the league on how that 
discipline is applied.
    Senator Heller. So you're saying that the article in the 
Washington Post is inaccurate?
    Ms. Patterson. I'm saying the question that was posed, and 
it sounds narrowly such, because I'm not familiar with the 
article, nor was I asked to be a part of it. But I'm saying 
that that part that you just asked me about is inaccurate.
    Senator Heller. I'm just trying to get to the point as to 
whether or not the Players Association is saying it's okay to 
knock out a woman with one punch on Wednesday and still suit up 
for a team on Sunday.
    Ms. Patterson. Absolutely not. We do not condone domestic 
violence. I stated that earlier, and I will keep stating it. 
What we do is defend players, and we defend the process.
    Senator Heller. Was a 12 game suspension for knocking out 
his fiancee with one punch appropriate in the Ray Rice case?
    Ms. Patterson. I don't know that that was appropriate. What 
we think is inappropriate is inconsistent and unfair handling 
of players and their issues.
    Senator Heller. What would be appropriate? I mean, you're 
eluding the questions. What would be an appropriate suspension 
for an individual that knocks out his wife or his fiancee?
    Ms. Patterson. Well, Senator, I apologize for appearing to 
elude the questions, but I just have to respectfully say that 
the union is not in the business of applying discipline. We are 
in the business of representing our membership to the full 
extent of their rights, both under the law and under the 
Collective Bargaining Agreement.
    Senator Heller. Well, I would tend to disagree, Ms. 
Patterson. You're either for stopping sexual assault, domestic 
abuse, and child abuse, or you're not.
    Ms. Patterson. Right, but I'm not suggesting that we're 
condoning any sort of misconduct.
    Senator Heller. Well, let me ask you this question then. Do 
you believe sexual assault, domestic violence, and child abuse 
are far more important, than the union's issues with collective 
bargaining?
    Ms. Patterson. I would agree that they're far more 
important, but that's outside the scope of what we're talking 
about in terms of labor. I agree that societal issues are more 
important, yes.
    Senator Heller. Mr. Chairman, I have no more questions.
    The Chairman. Yes, you've done a very good job on the ones 
you've asked. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you. I grew up with professional sports. I think I'm the only 
Senator up here that has all four teams in these leagues in 
their state. I'm not competitive.
    And my dad, as many of you may know, was a sports writer 
and then became a general columnist, and he would get an extra 
ticket to the NFL game, and I would go watch him when I was 12 
years old and stand outside the locker room and wait for him, 
and he would be the last one out, and there would be some 
rather inebriated fans as we left. And he is only 5 foot 6, but 
they would tap him on the back and say, ``Great game.'' And he 
would always say, ``It was a team effort.''
    And I always have looked at sports that way, and I look at 
it another way, and that is as a prosecutor for 8 years, and 
knowing what it's like when our office took on a very difficult 
case against the late Kirby Puckett, who is an icon in our 
state. We did not win that case, but I could understand that 
culture and how difficult it is to win those cases in the court 
of law, so I appreciate the questions that were asked about 
discipline beyond the courtroom.
    I also understand what it's like to take on domestic 
violence cases. Mr. Vincent, in our office, we had a poster 
outside of my door, and it was a woman with a Band-Aid on her 
nose, and she was holding a little boy, and the words under the 
poster said, ``Beat your wife, and it's your kid that will go 
to jail.'' And I so appreciated your personal story and your 
willingness to stop that cycle of violence in your own life, 
and I know how difficult that is. So thank you very much.
    My question is really about how to make sure that these 
criminal cases move forward. I was disturbed by reports in the 
New York Times and the Washington Post that leagues or teams 
may be discouraging women that come forward to them, wives or 
partners of players from going forward to law enforcement. The 
only way you stop this cycle is not only what I hope you are 
all doing now with your new approach to these issues as having 
tough penalties, but I also think you have to make sure that 
people are not discouraged from going forward.
    So I would just like to ask this question of the four 
league representatives that are here, and that is, do your 
teams ever discourage people that come to them, the owners or 
the coaches, from going forward with domestic violence cases to 
law enforcement? And do you have a policy in place, and can you 
control these owners or coaches from doing that to make sure, 
going forward, that this does not happen again? I would start 
with you, Mr. Vincent.
    Mr. Vincent. Well, Senator, we hope that that doesn't 
occur. And that is the culture that we have to break. That's 
the cycle that we have to break as we look at implementing our 
new policy. We've been talking about personal accountability. 
We've also been talking extensively about club accountability.
    We want to make sure that the victims and survivors 
actually have the proper support that these women, these 
children, that we can break that silence, that they have a 
place that they can go to, they have support confidentially, 
that they're safe when they go home. We've embedded ourselves 
with our critical response teams and making sure the local 
support is in place. But for this behavior----
    Senator Klobuchar. I have a very focused question about not 
stopping people from going forward to law enforcement, not from 
discouraging them. Is there a way to control the coaches and 
the team owners by saying you cannot do that, if someone comes 
forward, you have to encourage them to go to law enforcement?
    Mr. Vincent. Yes, ma'am. As part of our education, that's 
something that we're educating on.
    Senator Klobuchar. OK. Thank you. Thank you very much. Mr. 
Torre?
    Mr. Torre. Yes, Senator. I wholeheartedly agree with you on 
not discouraging the victims from coming forward, because that 
would be the worst thing that could happen. And I hope it 
doesn't happen in our sport, because I know winning games are 
very important, but to me, being a good human being certainly 
surpasses that.
    Senator Klobuchar. And is there a policy in place?
    Mr. Torre. Well, we are discussing with the Players 
Association----
    Senator Klobuchar. But why would the Players Association 
influence whether or not you tell someone to not go forward to 
law enforcement?
    Mr. Torre. No, I misunderstood that. There's no question--
--
    Senator Klobuchar. Yes, I don't think that that's a 
negotiable issue.
    Mr. Torre. Our teams, and we have general managers 
meetings, we have owners meetings, and I speak to every 
manager, and it's about doing things the right way.
    Senator Klobuchar. OK.
    Mr. Torre. And certainly, being a human being is much more 
important. I went overboard, but that's the way I feel.
    Senator Klobuchar. Thank you. No, no, no. I appreciate 
that. I just think you've got to think of this different than 
the collective bargaining issue.
    Mr. Torre. No question.
    Senator Klobuchar. This is about going forward with a 
criminal investigation. Ms. Behrens?
    Ms. Behrens. Senator, yes. We, in fact, are, as part of our 
education efforts, doing enhanced training for our team staff. 
And one of the things that we're making very clear is not only 
are we saying not to discourage, but we're encouraging and 
making sure that the teams are being proactive in this space. 
And our first line is, support victims first, and we're making 
that clear.
    Senator Klobuchar. Ms. Berman?
    Ms. Berman. I'm unaware of any discouragement. And to the 
contrary, we have a system in place where the NHL's centralized 
security department has contacts at every local team where, if 
something like that was going on, I would hope we would be 
hearing about it, because it certainly would violate League 
policy.
    Senator Klobuchar. Thank you.
    The Chairman. Are you finished?
    Senator Klobuchar. Yes.
    The Chairman. OK. Senator Schatz?
    Senator Schatz. Chair, I defer to Senator McCaskill.
    Senator McCaskill. I think I beat you in the room. First, 
let me correct the record on the NBA questions about 
punishment. I've looked at the articles and the sections on 
counseling for violent misconduct. Let me make sure the record 
is clear. The most a commissioner can do for violence without a 
conviction is counseling, isn't that correct, Ms. Behrens?
    Ms. Behrens. No, Senator. I'm sorry, that's not correct.
    Senator McCaskill. So what can the Commissioner do besides 
counseling if there's not a conviction?
    Ms. Behrens. The Commissioner has discretion, under our 
Collective Bargaining Agreement, which was the discretion that 
he used in the suspension of Jeff Taylor most recently. And 
that discretion and the language refers to the notion that 
conduct that is detrimental to the League.
    Senator McCaskill. To the League. OK.
    Ms. Behrens. It's not necessarily related to a violation or 
a conviction.
    Senator McCaskill. OK. Thank you. I also handled domestic 
violence cases for many years, started the first domestic 
violence unit in Kansas City. And when I began that unit in the 
nineties, the detectives told me, ``Well, you know, we really 
can't do these cases, because victims won't come forward. 
Victims refuse to testify. So why are you doing this? Why are 
you making us go through the motions of trying to prosecute 
domestic violence?''
    And I said, ``Well, we better shut down the homicide 
unit.'' And they looked at me blankly. I said, ``Well, we don't 
have victims in homicide cases, but we manage to put a case 
together based on an investigation as to what occurred, based 
on witnesses' testimony who witnessed the event, based on 
physical evidence, based on 911 calls.''
    And I point this out, because I think one of the biggest 
problems you have writ large is this notion that you all can 
sit back and wait to see if there is, in fact, a criminal 
prosecution and conviction. And I think you all know 
fundamentally the pressure that is brought to bear on that 
victim from the moment an arrest is made or from the moment the 
team finds out. Because many times, you all know, you have a 
lot of off-duty police officers that are huge fans, and they 
work for you all. And when they find out one of your guys are 
in trouble, I know this for a fact, because when I was the 
prosecutor, I got the call that Cris Carter was involved in 
something in Westport, a big famous Chiefs player, and I 
immediately heard from the team about what I should and 
shouldn't do with Cris Carter. Before I'd even heard from the 
police department, I heard from the team.
    So what we really have to do here is look to see what you 
are doing independently to investigate these cases, and 
independently determine what the facts are, because that's how 
the NFL got in trouble, Mr. Vincent, is you didn't see it--
Roger Goodell didn't see it as his responsibility to ask the 
question, is there another tape, and I need to see it before we 
do punishment. There was not a process in place.
    And let me just give you one example. And I think we should 
say for the record that Major League Baseball Commissioner, Bud 
Selig, has never sanctioned an MLB player for domestic 
violence. Never in 22 years. Now, teams have, but at the 
Commissioner level, that has never occurred. And I'm going to 
go through one example, Francisco Rodriguez. By the way, I 
found all this just Googling around on my iPad last night 
preparing for this hearing. This wasn't prepared by my staff--
anybody could do just this and look into Rodriguez' record that 
is written in print.
    In 2005, based on sworn court testimony, he put a young 
lady by the name of Daian Pena, he hit her so hard that she was 
hospitalized in Venezuela. He then convinced her to move to the 
United States with him and in 2010, he assaulted her father at 
the Mets stadium, pulling him out of the family lounge. At the 
time, Carlos Beltran said, ``Well, this is bad. We all have 
problems at home, but you need to keep it at home.''
    He was prosecuted for that, and during the prosecution of 
that, he had an order of protection entered to not contact the 
young lady or her father. He violated those orders of 
protection. This is in 2010. Violated those orders or 
protection, was convicted of the assault of her father, and 
given one year of anger management.
    He then goes onto the Milwaukee Brewers. And in 2012, he's 
arrested--a 911 call at 2:40 in the morning. And his girlfriend 
is huddled in a closet at their home and tells everyone what 
has occurred--excuse me, that's my phone--tells everyone what 
has occurred. They arrest him. There's staff there at the home 
who are also from Venezuela. So what happens? The case is not 
prosecuted, because guess where the victim and the housekeeper 
went? To Venezuela.
    He then becomes a free agent, and guess where he is back in 
2014? He's back in Milwaukee pitching, and pitches in the All-
Star game. And nothing has ever happened to him in terms of 
baseball.
    Now, I know I've taken all my time, but I wanted to get 
that story out there. And what I would like for the record, and 
I'm going to stick around for another round if the Chairman is 
willing to do it, because I want to know from each of you how 
serious is your league about an independent investigation into 
the facts? Or how content are you to sit back and go, well, 
maybe she won't go through with it, maybe she won't come 
forward, and if there's not a conviction, we're off the hook?
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator McCaskill. Senator Schatz? 
The votes start you think at 4:10? Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman. Thank you, Ranking 
Member. My question is for Mr. Vincent. We know Commissioner 
Goodell recently changed the NFL's domestic violence policy to 
require a six game suspension for first offenses. We also know 
that after he changed that policy, Mr. Goodell personally 
called Ray Rice. What was the content of that conversation?
    Mr. Vincent. I wasn't aware of him calling Mr. Rice.
    Senator Schatz. Well, this has been widely reported. And my 
understanding is that it was to reassure him that this would be 
applied prospectively rather than retroactively. And you're not 
aware of this?
    Mr. Vincent. No, sir.
    Senator Schatz. OK. Well, I'd like to offer you these 
questions, and you can get back to the Committee, because my 
question for you about that is, is this normal? Does the League 
consider this appropriate? Does the Commissioner, as a general 
proposition, interact directly with players who are subject to 
disciplinary proceedings, or was this a one-off? And I think it 
goes to the culture that Senator Heller spoke of in his opening 
statement, which is get the player back on the field. Your 
financial incentives are aligned toward getting the player back 
on the field. And I found it odd, and I found nothing in your 
policies and procedures that would indicate that it was 
appropriate for the Commissioner of the football league to call 
an individual player to reassure him that everything was just 
fine.
    Mr. Vincent. Senator, I will investigate that and get any 
information back to you.
    Senator Schatz. Thank you. The NFL's handling of domestic 
violence is illogical in my opinion, especially when you look 
at the strict treatment of athletes who violate the drug 
policy. Take Josh Gordon. Mr. Gordon was suspended for an 
entire season for testing positive for marijuana during the off 
season. This imbalanced treatment actually happens all the 
time.
    ESPN analyzed cases of players found guilty of domestic 
violence between 2000 and 2014. The analysis showed that, in 88 
percent of the cases, the NFL suspended players for only one 
game or not at all for domestic violence. While in comparison, 
in 82 percent of substance abuse cases, the NFL handed out 
suspensions of four games or more. Does the league consider 
that to be an inconsistency that has to be corrected going 
forward?
    Mr. Vincent. Yes, sir, Senator. And that's one of the 
things that we've been looking at, that we've been evaluating. 
I think now, our staffers, the Commissioner, when you learn the 
complexities and the severity of child abuse, domestic 
violence, and sexual assault, we failed, we failed in that area 
to punish, to hold one accountable. I know recently in the 
Players Association's most recent proposal--and this is one of 
the complexities that we have, when is it the appropriate time 
to take someone off the field? The most recent proposal said 
you need a conviction. We strongly disagree with that. We 
strongly disagree that there needs to be a felony or a 
conviction for us to remove someone off the field.
    Senator Schatz. Where are the owners in all of this? I know 
we've sort of touched upon this issue, but it seems to be, in 
particular with the NFL, a lot of the leverage is with the 
individual teams, and a lot of the difficulty is with the 
individual teams. And the teams aren't represented, if I'm not 
mistaken, at this table. And I'm wondering what leverage you 
think the NFL can exercise with respect to its interactions 
with the owners. Because certainly in the Ray Rice case, the 
problem was system-wide, but it was in particular with the 
Baltimore Ravens as an organization, and I'm wondering how 
those interactions are going. I think Senator Heller and other 
are referring to the collective bargaining process. That's part 
of it. But really, a lot of the challenges of the financial 
incentives of the owners are to get the player back on the 
field and figure that the fans will forgive them in the end.
    Mr. Vincent. Yes. And in our last two owners meetings--we 
have one coming in the next 2 weeks--it has been the focus of 
our discussion, some uniformity to make sure that we are 
consistent with in penalty process and how we see----
    Senator Schatz. So what leverage are you prepared to 
exercise in your interactions with the owners, because I 
understand that by revenue, the owners are bigger than the 
League, and I'm wondering what you're prepared to do to try to 
get the owners to participate in this new system of 
accountability?
    Mr. Vincent. Well, we're looking at all options. And one of 
the things when we start talking about club accountability, 
maybe the removal of draft picks. You know, you have to do 
things to really hit the club, to hold the clubs accountable. 
But all things are on the table. We're discussing all options 
to make sure that everyone is held accountable, the player, the 
staff, local law enforcement that's working with the team, as 
well as the clubs themselves.
    Senator Schatz. Thank you very much.
    The Chairman. Senator Walsh, followed by you.

                 STATEMENT OF HON. JOHN WALSH, 
                   U.S. SENATOR FROM MONTANA

    Senator Walsh. This question is for you. As you mentioned, 
you and your wife founded the Safe at Home Foundation to 
education young people about domestic violence. Proactive 
approaches to ending the cycle of domestic violence, like your 
foundation, are critical, so thank you and your wife for taking 
that on. Can you tell us about your experience with the 
foundation and what education strategies you have found to be 
most effective in preventing domestic violence before it starts 
and what could be incorporated from your foundation into the 
leagues?
    Mr. Torre. Well, I just feel our Safe at Home Foundation, 
when we first started the foundation, we were deciding on which 
way to approach, because growing up in that environment, I 
really didn't find out until later on in life that a lot of my 
insecurities came from what was going on in my home where my 
dad was abusing my mom. And having been a child growing up that 
way, I was lucky, I got to play baseball, so I had a place to 
hide. Not a lot of youngsters were that lucky.
    So when we first started, went to a middle school and start 
talking to youngsters, not about baseball. I said, ``We'll talk 
about baseball in a minute, but I want to explain this camera 
crew behind me, because we were going to have our first gala.'' 
And in speaking to the youngsters about what was going on in my 
home, I looked out there, and about six or seven are shaking 
their head like this. In other words, we struck a nerve.
    So the most important thing, we have a master's level 
counselor in each one of our rooms. We name them after my mom, 
Margaret's Place. And what we do is let the kids know that, 
first of all, it's not their fault, and they're not the only 
ones going through this. When I grew up, I thought I was the 
only one. I was embarrassed to share it with anybody. And we've 
had a number--as I said earlier, close to 50,000 youngsters--
that have come through our programs, and we have peer 
leadership programs.
    We just don't reach enough kids. That's our issue for me. 
Because I don't believe there are bad kids. I think kids do bad 
things. And you know, just from my experience with the Attorney 
General's Defending Childhood Taskforce, going around and 
listening to so many different gang members, tribal 
communities, you realize how many different layers of domestic 
violence or violence period that there are. And what we try to 
do with these youngsters that come through our program is to 
make them think that their future, make them understand their 
future is out there. It's not like when they leave school and 
they're sort of helpless, just go with the first strong 
personality they see. We educate them to the point of making 
them feel pretty good about themselves.
    Senator Walsh. Thank you.
    The Chairman. Thank you, Senator Walsh. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman. One thing I wanted 
to note up front is that all of you are here, we're 
appreciative that you're here testifying today. But 
Commissioner Goodell, Commissioner Selig, Commissioner Silver, 
Commissioner Bettman were all asked to be here, and leadership 
does start at the top. I do think that it's pretty convenient 
that none of them were able to appear today, and it says 
something about their level of commitment. They should all be 
here today. And while I'm appreciative that you've been willing 
to appear in their stead, I think that it says something about 
how big a commitment there is going to be on this. That does 
need to lead to the owners as well, who have to take 
responsibility for what happens here.
    I want to associate myself with the comments of Senator 
McCaskill, because you do need to establish an investigative 
process for these cases that do not result in criminal 
conviction. This is imperative, because you have to hold 
yourselves to a higher standard. The bottom line is that, in 
many of these cases, victims are not going to come forward 
because of the financial pressure that they face, the social 
pressure that they face, and the terror that they face. 
However, that does not alleviate your responsibility to get the 
facts, to look at the evidence, and to still impose discipline, 
even if a victim is too terrified to come forward.
    In the same regard, I wanted to follow up on Senator 
Klobuchar's questions about the reports of victims who are 
being encouraged not to come forward, or, in the instance that 
Senator McCaskill gave, where one victim was actually flown to 
another country. I believe as you look at your policies, the 
sanctions should be as severe for this type of witness 
tampering as it should be for the underlying violent acts, 
because this is, witness tampering. If you put those sanctions 
in place, it will make very clear that, if someone is a victim 
of domestic or sexual violence, that neither the coaches nor 
the players nor anyone else should be interfering with their 
ability to come forward or interfering with the way that they 
are able to be safe and receive the support that they need as 
victims of a crime.
    Now, I wanted to ask specifically a follow-up question on 
an issue. As I look to you, Ms. Roberts and to Ms. Patterson, 
one of the things that I'm concerned about as I've listened to 
the testimony today is that, in terms of the players-side of 
this, that they not hide behind the collective bargaining 
process or agreement when it comes to basic accountability and 
basic responsibility for not committing crimes. This is what 
they are, crimes, crimes of violence against women, sexual 
violence against women, or, as we've seen some instances, 
violence against children.
    I want to use as an example, Ms. Roberts, the recent 
situation of the imposition of discipline against Jeff Taylor, 
who is a Charlotte Hornet player. I understand he received a 24 
game suspension for a conviction for domestic violence for 
beating a girlfriend. What I saw was the union's complaint that 
that suspension was ``excessive.'' As I understand it, the 
player himself has accepted this suspension. I have to say your 
response, or the union's response, I don't know if it was yours 
in particular, to say that this was excessive. To me this 
highlights the problem that we're facing, and it's disgusting 
to me that you would say that it is excessive. So I would want 
you to address that.
    Ms. Roberts. Sure. I'm happy to.
    Senator Ayotte. What do we do in those situations? Why do 
you believe that was excessive? If we're going to get at this 
issue, this has to be the player's responsibility, the 
responsibility of the officials in the league, and the owners, 
everyone needs to have a hand at this. So I would like to know 
what you were thinking, or not you particularly, but the 
unions.
    Ms. Roberts. I'm happy to answer your question, Senator. 
And let me be clear, because the Players Association was not, 
for one second, suggesting that some punishment was not 
warranted. Of course, it was warranted. And we expected the 
Commissioner to impose punishment, and he did. Our position was 
simply that, we have a CBA, which we believed, and we have a 
disagreement about this, had precedent that indicated that that 
was an excessive punishment. The Commissioner, when he imposed 
the punishment, acknowledged that it was a significant 
departure from prior punishments. And so again, our position 
was that the CBA required us to collectively bargain, if there 
was going to be some imposition of punishment that belied the 
CBA.
    Having said that, the player was never discouraged from 
accepting responsibility. It was his desire, his right to 
grieve or not to grieve. He chose not to grieve. And I said to 
him in his face, and I said it behind his back, and I'll say it 
again, we absolutely endorse his decision to take 
responsibility for what he did, and the matter has been closed.
    My only point, Senator, is this. While we all agree, and we 
do all agree that this is very serious business, and we need to 
take it seriously, we don't believe that we need to, at the 
same time, abandon due process. And that's the only point. That 
doesn't mean that 24 games may not be appropriate under certain 
circumstances. It simply meant that, within the four corners of 
the CBA, and again, we have a disagreement about this, it did 
go beyond the scope of what was collectively bargained for.
    But I don't want you, Senator, or anyone to assume that the 
National Basketball Players Association does not take this 
seriously. We do. I have spent the last 2 weeks visiting with 9 
of my 30 teams. I intend to see the rest of them in the next 2 
months. And every time I meet with them, I make clear to them 
that we will not tolerate this kind of conduct. It's not the 
NFL's problem. It's our problem as well. And so I don't want 
our position on the Jeff Taylor matter to in any way confuse 
our commitment to making sure that this thing goes away.
    My only final point I make is this----
    The Chairman. No, I'm sorry. Your time is over.
    Ms. Roberts. Then I guess I won't.
    The Chairman. Senator Blumenthal is next. I'm going to go 
vote. Senator Cantwell will be Chair. And I'll be back. And 
let's just work it out, OK? But we got to keep it going.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you. Thank you, Mr. Chairman, and 
thank you for having this hearing. I want to join in expressing 
my admiration for your proceeding in spite of the obstacles, 
some of them that have been raised. And thank all of you for 
being here. We have some sports heroes here, and we have some 
professional legal heroes, and I'm grateful to each of you for 
coming to talk to us today.
    But I want to talk about the people who are not here, the 
owners. And in a certain sense, they are the bosses. They're 
going to be the ones who make the ultimate decision. Let's just 
talk the realities here. And the financial reality is that 
words and promises are a lot more difficult than action. And 
I'm looking for a way to impose accountability beyond a 
hearing, beyond negotiations, and accountability that means 
something in dollars and cents.
    Right now, the professional leagues represented here are 
not only the object of public scrutiny, they are the 
beneficiary of huge benefits in the form of tax breaks, 
subsidies for teams, and stadiums, as well as chief among them, 
the antitrust exemption. Today, I am proposing that we end the 
blank check to the leagues, the antitrust exemption that has 
enabled the leagues to successfully negotiate together, as no 
other corporations in the United States would be permitted to 
do under antitrust laws, for literally billions of dollars. And 
that antitrust exemption should be contingent on doing the 
right thing, really acting, not only talking about acting, but 
doing it. And by acting, I mean investigating comprehensively 
and aggressively, imposing sanctions as a consequence of that 
investigation, adopting a due process that has been so sorely 
lacking and, Mr. Vincent, is the reason why the league was so 
embarrassed, because there was no process, as Ms. Patterson has 
also observed, and, maybe most important looking forward, and 
really, it hasn't been mentioned here, aid to the organizations 
and groups that provide assistance to the survivors and victims 
of domestic violence within your leagues, in your families, and 
across the United States.
    I want to thank Mr. Torre for his example, because I think 
men have a vital role, which is the reason why your players can 
be such role models, such positive role models, for others and 
why the leagues can be such positive role models in providing 
tangible financial assistance, which you have not yet done, for 
all the talk here, to the advocacy groups and organizations 
that are so pivotal in fighting domestic violence. So I'm 
asking for a commitment that you will support this 
accountability and that you will support the groups that assist 
victims and survivors.
    In the interest of time, I'm just going to ask, is there 
anyone here who would not make that commitment? By the absence 
of a response, I'm going to assume that you would agree with me 
that that kind of commitment is important and necessary. You've 
begun doing it. But I'm not asking you to continue what you've 
done, but for a substantial increase in that assistance to the 
hotlines and the shelters, and all the service groups. And I 
hope that you will all join in that commitment.
    Let me ask Mr. Vincent, what is the timeline for you, for 
the league, to adopt a process for imposing punishment within 
the NFL?
    Mr. Vincent. The Commissioner had stated in his earlier 
press conference that he would like to have a new policy in 
place by the Super Bowl--that would be the latest.
    Senator Blumenthal. And what is the process that will 
provide for owners to approve that process?
    Mr. Vincent. And next week, we actually have our owners' 
meeting where we'll begin to talk about, again, some of the 
things that we've learned. We've heard much about the process, 
accountability. So we're hoping to have, within the next 2 
weeks, a real clarity in the position on where we are as far as 
a real formal, clear process moving forward.
    Senator Blumenthal. The bill that I proposed would sunset 
the professional sports leagues antitrust exemptions under the 
1961 Sports Broadcasting Act and the comparable provisions for 
the MLB. One year after the bill's enactment, it would 
authorize a commission to provide a report to Congress 
regarding the league's behavior in the interests of the public, 
and it would allow Congress to reauthorize exemptions every 5 
years, based in part on commitments to aid public service 
organizations. How much is the NFL willing to commit to aid 
those organizations?
    Mr. Vincent. Well, we make substantial commitments. We've 
made 5-year commitments both to the National Domestic Violence 
Hotline----
    Senator Blumenthal. And what is the amount of those 
commitments?
    Mr. Vincent. I think it's almost 4 to $5 million a year.
    Senator Blumenthal. You've made a commitment to the 
domestic violence hotline for $5 million a year?
    Mr. Vincent. National Domestic Hotline. Yes, sir. We've 
also----
    Senator Blumenthal. Would you be willing to make 
commitments of the same or comparable size to other 
organizations that do similar kinds of work?
    Mr. Vincent. I cannot make that commitment today.
    Senator Cantwell [presiding]. Senator Booker?
    Senator Blumenthal. Who can make that commitment?
    Senator Cantwell. I just want to make sure, we're trying to 
get the rest of the members in, so your time has expired.
    Senator Blumenthal. Who can make that commitment?
    Mr. Vincent. That's something that we discuss as an entire 
team, we discuss with our experts who are those leading 
organizations, those organizations at the grassroots level that 
need the support to support our families, to support NFL 
personnel. So that's a collective decision that was made for us 
to support the National Domestic Violence Hotline and the 
National Sexual Assault Resource Center.
    Senator Blumenthal. Thank you very much to all of you. I'm 
sorry that my time has expired.
    Senator Cantwell. Thank you. Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you. Real quick, I just want to thank 
the Ranking Member for saying that perhaps we should be 
revisiting this after the new year, when I assume you'll be the 
Chairperson, because that issue of accountability keeps coming 
up. It only can be held by this body, should we have the chance 
to revisit this and see the progress that has been made. I'm 
going to go very quickly, as a vote has been called.
    You, obviously, Mr. Vincent, are saying that you're seeking 
to help fund, and a lot of the charity you enumerated in your 
opening statement was about funding and supporting domestic 
violence prevention, domestic violence treatment, and the like. 
And that's true, that you see that those organizations often 
need more resources, is that correct?
    Mr. Vincent. Yes, sir.
    Senator Booker. Mr. Torre, real quick. The Major League 
Baseball does not have a tax-exempt status, is that correct? 
The league, the actual league, Major League Baseball.
    Mr. Torre. Right. Correct.
    Senator Booker. Does that hurt your financial bottom line?
    Mr. Torre. No. I don't think so.
    Senator Booker. Right. And so I don't think so either.
    Mr. Torre. Yes, I think we're doing well, yes.
    Senator Booker. Mr. Vincent, the Congressional Budget 
Office says, if we remove those teams, those leagues--unlike 
Major League Baseball, there are a number of leagues, including 
the NFL, that have a tax-exempt status. The Congressional 
Budget Office says if we removed that tax-exempt status, it 
would yield millions of dollars a year annually back to 
taxpayers. And my question to you is, understanding that these 
organizations need more funding, why does the NFL need a tax-
exempt status, when we could be redirecting the money to 
domestic violence prevention and treatment programs?
    Mr. Vincent. Well, what I would say, let me make it clear, 
all club revenues, all league generated----
    Senator Booker. You don't have to enumerate that for the 
record. I am very familiar with individual teams' revenues. I'm 
simply asking you right now. I have to justify to my 
constituents why the NFL, this multi-billion dollar 
organization, has tax-exempt status. Do you believe that just 
like the Major League Baseball, do you believe that you should 
have tax-exempt status?
    Mr. Vincent. Yes. We're run just like a trade association, 
very similar, our office.
    Senator Booker. No, no. So you think that you should 
continue to enjoy a tax-exempt status that Major League 
Baseball does not have?
    Mr. Vincent. No, it's not to enjoy. Today, that's how we're 
currently run. Our clubs again, our revenue is taxed. And 
Senator, I've actually seen your proposal, and I do believe 
that when we combine both public and private resources, we 
could fund the intervention and the prevention, some of the 
things that I've seen in your proposal. This is how we both 
collectively, both privately, and public resources, we can make 
a difference in the area of domestic violence, sexual assault, 
and child abuse.
    Senator Booker. No, and I really appreciate that, and I 
appreciate the charity. My simple point is, are professional 
leagues that enjoy, as the Senator just said, exemptions to a 
lot of laws and enjoy tax-exempt status, simply should not 
enjoy a tax-exempt status where that money that the 
Congressional Budget Office says could be reaping--could save 
taxpayers millions of dollars annually. That money could be 
used to invest in these programs that right now it seems we 
have to rely on the charity of the NFL, and I don't think 
that's adequate. But let me shift gears real quick.
    I feel very, very fortunate, having played college 
football, to have a lot of friends that have played in the NFL, 
played in the NBA, and some friends that are still in the NFL 
and NBA. And it has been described to me as just incredible 
resources. Player orientation to me is dazzling, when they let 
the players know, hey, we're here for you. If there's a crisis, 
you have hotlines. If you're stuck at a club and can't get a 
ride and are inebriated, the NFL is there for you, right? You 
can call. And the NBA. This I know. Thank you for shaking your 
head. Maybe you're not aware.
    Mr. Vincent. Yes, sir.
    Senator Booker. Yes. And so one of the concerns I have is 
that when it comes to calling that team for issues of domestic 
violence, that often the incentive, from my experience and what 
I know about my friends that are players, and forgive me, I 
only know the NBA and NFL players, is that often the objective 
is to keep that player out of the news, to keep issues quiet. 
And to me, that works against ultimately what the goal is when 
it comes to domestic violence, which is bringing light and 
attention to a problem as opposed to just creating an 
environment where it's swept under the rug.
    And so one of the big concerns I have as these reforms are 
discussed and talked about is this rapid response that clearly 
we see, that I know about personally, that that rapid response 
doesn't have two different objectives that are contrary to 
actually dealing with the problem that might be encountered.
    And I'd just like, in the second that I have left, if you 
could give me some assurances that what I know to be the case 
from friends who've played and are playing in the NFL and NBA, 
that this system will be changed in a way that puts the 
victims' needs and concerns and family situations ahead of that 
player's ability to remain on the field and the corporate 
interest that exists to keep that player being productive.
    Mr. Vincent. Yes.
    Senator Booker. And I'd like both NBA representatives and 
NFL representatives to do so, and I'm done.
    Mr. Vincent. OK. Well, that is at the core of what we're 
talking about, what we've been evaluating, is to make sure that 
the victims and the survivors have the support that they need. 
We recognize that we have to break the culture of silence. The 
programs that you mentioned, the last 4 years that was my sole 
responsibility, player programs and services. It's a shared 
responsibility. Those programs are put in place in 
collaboration with the Players Association to assist families.
    We want to encourage the families to seek out proper help, 
proper assistance. I can assure you moving forward in the area 
of domestic violence, sexual assault, and child abuse, that we 
want to make sure that we break that silence, that the victims 
and survivors are safe.
    Ms. Behrens. And Senator, I'll just make the same 
assurance, that part of our training and education program that 
we're rolling out with our teams and have shared at the highest 
levels is to make sure that this is not something that is 
discouraged but encouraged, both for people to get help, but 
also to report behavior that's in violation, certainly of any 
criminal law and any violation of the NBA's codes of conduct.
    Senator Booker. And just as I return to the Chair. That's 
the accountability that we need to make sure these systems are 
changing. And just for the record, I think it's ridiculous that 
the NFL and other sports teams enjoy tax-exempt status. That's 
resources the taxpayers could be using for something else.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Senator Booker. So actually, 
thank you for emphasizing that point, because I don't think I'm 
going to have time for questions, and I will just submit some 
questions for the record.
    But that particular issue is of interest to me, and 
obviously, the fact that the Baseball Association and 
Basketball Association don't enjoy that tax-exempt status, and 
yet, the NFL continues it.
    I guess my main point is, we saw this case with Donald 
Sterling, and we saw immediate and swift action. In fact, 
Michael Jordan praised the NBA saying ``a powerful message was 
sent that there can be no tolerance, zero tolerance, for racism 
and hatred.'' So it's clear that, in some cases, these 
organizations can act swiftly and do act swiftly. The question 
is, in this issue of domestic violence, why you don't. And I 
think that what we're hearing from many of my colleagues today 
is, what is the culture within these organizations that prevent 
it from acting as swiftly as was in the case of Donald 
Sterling?
    So I'm going to submit some questions for the record, but I 
also, too, want to be on record that the NFL, I'm hearing from 
my constituents as I've raised this issue related to what is a 
very hateful name in association with the NFL, but my 
constituents now are just flabbergasted that the NFL continues 
to enjoy a tax-exempt status. For what purpose? And yet, on 
these issues of having a name of hatred for a team, and then 
having these cases of domestic violence, to say nothing of the 
incidents of what happened in Florida with players, the NFL is 
not showing the leadership that I believe that it should, and 
it certainly doesn't deserve the tax-exempt status.
    So I'm going to submit from further questions for the 
record, and I want to thank my colleague, Senator McCaskill, 
for her leadership on this issue, and certainly want to work 
with her in her role as previously understanding these issues 
from a prosecutorial perspective of how we can get some 
cultural issues ingrained into these institutions.
    So I'm going to turn the gavel over to you, and thank you.
    Senator McCaskill [presiding]. Thank you. I'm going to 
state on the record here that I'm going to miss a vote. I think 
this is--I would vote aye on the nominee that we're voting on 
right now, and the record should reflect that, but I'm going to 
skip that vote, because I think the questions that need to be 
asked here, in the long run, could have more impact on a 
problem that I think is pervasive and important than one more 
vote in a confirmation that is going to occur with or without 
my vote. So I'm going to stick around.
    So Mr. Rubio, you have an opportunity to question now, and 
then hopefully, I'll get another chance.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you. Thank you, Madam Chair. I 
appreciate it. Thank you all for being here. And I'm going to 
limit my comments to the National Football League, although all 
of you, domestic violence is important in society as a whole 
and all of the sports, it's the sport I'm most familiar with as 
both a fan of it, living in a city that has a franchise. You 
may not know this, but I would have played in the NFL, had it 
not been for my lack of size, speed, and talent, but that was 
my goal.
    And I want to begin by saying, Mr. Vincent, I have the 
highest respect for you, though. You and I have never met. We 
have a lot of friends in common. You're reputation among many 
in league circles is as high as anyone I've ever heard. 
Certainly as a Dolphin fan remember us drafting you in 1992 and 
sorry to see you leave in 1995. When Jimmy let you go, it was a 
big mistake--in 1996. But in any event, I appreciate your 
service, both as a player, and for the NFLPA, I believe, and 
now for the league.
    But I do want to make two points about the NFL that are 
important and ask you this question. The NFL doesn't just play 
for 3 hours on Sundays, Monday, and Thursday nights. The NFL is 
a 24 hour, 7 day a week endeavor that actively wants Americans 
to admire and emulate the people it puts on the field. It wants 
our young people to wear--and this is true of all the leagues, 
but again, I'm focused on the NFL--it wants young people like 
my sons, and they want to and do, to wear the same shoes, to 
wear their jerseys, to buy the same and use the same products. 
I mean, we just read a couple of weeks ago, now, they regulate 
what earphone they can use during pre-game warmups, because the 
league has established a contract with one of the providers, 
and they want them to wear those. So this is an ongoing, 24 
hour endeavor. It wants young people to emulate and to look up 
to these athletes, and they do.
    In fact, I can tell you, being involved now in youth 
football, and this is very sad, but it is true in some 
instances, some of the only positive male role models that many 
young Americans today have happen to be the professional 
athletes they'd see on Sundays or at nights on television in 
any of your leagues. So I think it's important to preface that, 
because this is not just a sport that's played on a field 3 
hours at a time. This actually has deep impacts throughout 
society, and there are millions of young--especially young 
boys, but young Americans who look up to these players. And 
whatever happens or does not happen with them has a deep impact 
on them, because for many of them, it's the only male role 
model that they have in their lives, unfortunately, in the 
cases where people go wrong.
    And that's why the Ray Rice case so interested me. Because 
the situation with Mr. Rice involved, number one, someone that 
my sons actually personally admired. My sons actually came to 
admire Ray Rice, because there's--I'm now getting deep in the 
weeds here, but one of my sons kind of plays a hybrid running 
back position. He's not the tallest kid on the team, but he's 
very quick. And so he looked for someone on the National 
Football League that had the same attributes, and that was Ray 
Rice, and he really looked up to him. And a few weeks ago, he 
wanted to know why isn't Ray Rice playing, and I had to explain 
to him why he wasn't playing. And the impact of that was 
extraordinary on him. He's still kind of young to full 
comprehend what it means, but what happened or didn't happen 
with him had an impact on him and other young people across 
America, because it served as an example of what happens in 
society and in life when someone does the wrong thing. So 
that's why I'm so interested in that case beyond the horrifying 
instance that happened.
    My understanding from the testimony I watched on television 
a few minutes ago is that you stated that the Commissioner nor 
the league had ever seen the elevator video, but that it didn't 
need to, because in essence, everything that happened in that 
elevator that the video showed had already been admitted to and 
testified to by Mr. Rice, is that correct?
    Mr. Vincent. Yes. And if I can, Senator, again, the 
Commissioner had stated that he not yet seen the video, and as 
I mentioned earlier, I think anyone, anyone of us who had 
witnessed that, you know, saw that despicable act----
    Senator Rubio. But the point is that Mr. Rice, whatever we 
saw on the video, and it's certainly a horrifying video to 
watch, but he basically had already told the Commissioner, that 
whatever that video showed, he had already admitted to, is that 
correct?
    Mr. Vincent. Yes.
    Senator Rubio. And so basically, not having seen the video 
is the same as having seen it in this instance. I mean, that's 
what you've said here today, that you didn't need to see the 
video, because they already knew what happened.
    Mr. Vincent. Senator, as I acknowledged in the beginning, 
we made a mistake.
    Senator Rubio. Well, I guess I'm trying to understand the 
process by which--and you may have explained this already, what 
is the process? Because I know what would have happened to Ray 
Rice had he tested positive for marijuana. I know what would 
have happened to Ray Rice had he tested positive for steroids 
or an amphetamine or epinephrine, had he taken Sudafed at the 
wrong time without a doctor's note. I know what would have 
happened if he would have done any of those things.
    Is this a completely arbitrary process where the 
Commissioner assigns punishment based on how he feels, or is 
there a set model in place for what an action equals, an 
admitted action, because this is not an instance where there 
was a dispute? Mr. Rice fully admitted to what he did and 
actually described it to an extent that you said here today you 
didn't need to see the video to know how bad it was. What is 
the criteria that they use to determine the punishment?
    Mr. Vincent. Senator, we failed to impose the proper 
discipline on Ray Rice.
    Senator Rubio. But I guess my question is, how do we 
measure? I wanted to know what is the process in place moving 
forward, I suppose, as well. But at the time, what was the 
process if someone came forward, admitted what we saw on the 
video, that they had punched their fiancee in the face in an 
elevator, by what measure did the Commissioner decide how to 
impose a punishment? Why 3 games instead of 10? Why six games 
instead of a full year? Was it fully just arbitrary, or was 
there something he looked to as a measuring stick?
    Mr. Vincent. No. I would say he actually looked back to 
some of the past cases. And when he's actually tried to impose 
discipline, harsher discipline in the past, it was appealed and 
knocked down. And I think that shows the severity of what we 
know about these crimes. He went back, and typically----
    Senator Rubio. Appealed to an arbitrator?
    Mr. Vincent. The Players Association appealed that offense, 
and the discipline that was handed out in the past was appealed 
and knocked down.
    Senator Rubio. So your testimony is that if a player comes 
forward and says to the league, I just punched my fiancee in 
the face and knocked her out, and the Commissioner decides, I'm 
going to suspend you for a year, the players' union will file 
an appeal against that decision, because one year is too long 
for someone that just punched their fiancee in the face and 
admitted to it?
    Mr. Vincent. The Players Association has that ability.
    Senator Rubio. And they've been successful?
    Mr. Vincent. That's one of our--that's where we have our 
challenge here. Yes, sir.
    Senator Rubio. What is the criteria now?
    Mr. Vincent. That's what we're developing. The Commissioner 
right now has the ability to either impose or designate an 
individual to see the case, to hear the case. Right now, 
understanding and learning the complexities that are associated 
with it, it has been talked earlier about having internal 
investigations or parallel investigations with law enforcement, 
but we're looking at, again, severe discipline. Our August 28 
letter to both the owners and also the players, the 
Commissioner spelled out very clearly, first offense, a minimum 
of six games. Aggravating factors gives him or his designee the 
ability to impose more severe punishment.
    Senator Rubio. My time is up.
    Senator McCaskill. Thank you. Thank you very much. First, I 
wanted to comment before I didn't get a chance. I've never seen 
so many women representing major league sports, professional 
sports in this country, at a moment of high profile importance 
for the leagues, and I think it's a good thing. I think it's 
terrific. And I would tell all of you to go back to the 
organizations you represent and say that you need to be at the 
table more often, not less often. But I don't think I ever 
recall seeing this many women representing professional sports 
at a moment like this in our country's history, so I wanted to 
make note of that.
    First, I had a question to the National Hockey League. In 
reading about the suspension of the player that occurred 
recently, I think he's a defenseman for the Kings, and I won't 
try to pronounce his name, I noticed in the article that the 
team was complaining, because his salary was going to continue 
to count against the salary cap while he was punished. I found 
that interesting, because it creates a financial incentive for 
the team to not punish.
    So my question to you, yes or no, does the league favor 
removing a salary counting against the salary cap during a time 
of suspension?
    Ms. Berman. Initially, when the suspension was imposed, it 
was determined by the League Office that the suspension should 
be with pay. So while the team continued to pay the player, 
that money counted against the team's salary cap. Subsequently, 
we reached an agreement with the union to change the treatment 
for the team's perspective with a host of conditions, so that 
it's no longer counting against the cap.
    Senator McCaskill. So are you saying, and is this true with 
all of you that have caps, that when someone is suspended for 
misconduct with pay, that that pay counts against the salary 
cap, so the team is, in fact, being financially punished for 
doing the right thing?
    Ms. Berman. Well, this wasn't discipline that was imposed 
by the team, with all due respect. It was imposed by the 
League. So the team doesn't have an incentive one way or the 
other to act or not act, because we handled it.
    Senator McCaskill. But the team could impose it, and 
wouldn't it still count against their salary cap?
    Ms. Berman. Only if they were choosing to pay the player 
during the discipline.
    Senator McCaskill. OK. Well, is that true with the other 
leagues? If someone is suspended with pay, does that count 
against salary caps?
    Mr. Vincent. Yes, Senator. We just had our last two, when 
we look at the Adrian Peterson and the Greg Hardy, when they 
were put on the Commissioner's exempt list, the team was 
penalized. There's a salary cap. Why they were, it's an example 
of paid leave. So the team is actually being punished, because 
that is a cap hit.
    Senator McCaskill. OK. Well, I think you all ought to look 
at that. I think you need to remove every disincentive there is 
to punish players who have had bad conduct. And, you know, if a 
team is going to have that money count against the salary cap 
even when the player is not playing, then that's going to weigh 
in favor of a much shorter suspension for the team-imposed 
discipline. So I'll follow up with QFRs on that.
    Do any of you have a process in place now to independently 
investigate the facts?
    Ms. Behrens. Yes, Senator. I'll answer that question. I 
think as we talked about with our recent case involving the 
player, Jeffrey Taylor, we immediately commenced an independent 
investigation, retained two outside counsel, including two 
former prosecutors, one of whom had extensive history in 
dealing with domestic violence.
    Senator McCaskill. OK. Yes for the NBA. NHL, do you have an 
independent process to investigate the facts?
    Ms. Berman. Under the CBA, we do, yes.
    Senator McCaskill. Your own investigators.
    Ms. Berman. Correct.
    Senator McCaskill. They're pulling records, they're pulling 
911 tapes, all of that?
    Ms. Berman. Yes. We have an internal process for conducting 
investigations on all misconduct. Yes.
    Senator McCaskill. And Mr. Torre, by the way, I can't let 
the hearing be over. I don't know if they put you here, because 
they know how much all of us in St. Louis adore you. But as you 
noticed----
    Mr. Torre. I was fired.
    Senator McCaskill. Well, that always happens, right? After 
you leave, the affection, you know, it resurfaces, right? But I 
wanted to get that in.
    Mr. Torre. Thank you.
    Senator McCaskill. As a huge Cardinal fan, you are an 
important part of our organization in many different ways. So 
does MLB yet have an independent investigation process?
    Mr. Torre. Yes, we do. It's not my department, but we do 
have a department of investigation.
    Senator McCaskill. OK. I would like to know what happened 
on the investigation on the Rodriguez case. I would like to 
know what the outcome of that investigation was. I would like 
to know if they ever asked Mr. Rodriguez if he paid the plane 
ticket for the victim and the witness to go back to Venezuela.
    Mr. Torre. I'd have to get that information.
    Senator McCaskill. Thank you. And does the NFL have its own 
independent investigation?
    Mr. Vincent. Yes, ma'am. We do so with our security 
department, our internal security department.
    Senator McCaskill. How many of you, yes or no, have an 
independent program for just wives and significant others where 
the players are not allowed to attend, whether it is a 
confidential, here are the issues you're going to face, here 
are phone numbers you can call if you're in financial stress, 
here are phone numbers you can call if you've been abused, here 
are places you can go for help, how many of you have an 
independent program like that for spouses and significant 
others?
    Mr. Vincent. Yes, we do in the NFL.
    Senator McCaskill. NFL?
    Mr. Vincent. Yes.
    Senator McCaskill. MLB?
    Mr. Torre. Some teams have them. Uniformly, we don't all 
have them, but it's something with that we're developing at 
this point.
    Senator McCaskill. Looking at. OK. I'll follow up with more 
questions on that, because I want to make sure you get it.
    Mr. Torre. Sure.
    Senator McCaskill. Yes?
    Ms. Behrens. Yes. I think as Michele Roberts explained 
earlier, we, with the Players Association, have been meeting 
with our family organizations to determine the best ways that 
we can provide resources for them going forward.
    Senator McCaskill. But you don't have an independent one 
now?
    Ms. Behrens. We don't currently, no.
    Senator McCaskill. OK. Because in some of the articles I 
read, the women were saying, ``There was no place for us to go. 
The teams weren't calling us. The teams weren't reaching out to 
us. It was all about the players.'' And what about NHL?
    Ms. Berman. Our program extends to the players' families. 
And historically, our program doctors have been accessed by 
players' spouses and significant others.
    Senator McCaskill. But do you have an independent program? 
For example, for initiation into the league, when someone 
comes, is there an independent program for the spouse of the 
player?
    Ms. Berman. To the extent they exist, I think they would 
exist at the team level. There isn't one that's League-wide.
    Senator McCaskill. I would like to have your league look at 
whether or not there should be a policy that that's required. 
What about mandating reporting to law enforcement? Do any of 
you have a policy at the league level that a coach is required, 
or an assistant, any team personnel is required, if they learn 
of conduct by a player that is illegal in terms of a felony 
assault or any kind of assault, that you are required to report 
that to law enforcement?
    Mr. Vincent. Yes, ma'am. We have that in place.
    Senator McCaskill. So right now, if a player calls his 
coach and says, you know, I was drunk, got in a fight with my 
wife, popped her in the face, I've just left the house, she's 
called 911, when he calls that coach, under the NFL policy, is 
that coach then required to pick up the phone and call the 
police?
    Mr. Vincent. That coach is required to do so. Yes, ma'am.
    Senator McCaskill. OK. And has a coach ever failed to do 
that? How long have you had that policy?
    Mr. Vincent. It has been in place for some time now. I 
can't tell you the number of years, but he is required to call.
    Senator McCaskill. OK. Well, I'd like to know how many 
times coaches have called. That's a question I'll have for the 
record. And I don't have time to ask all of you that, but I 
will for the record. And I think you get my drift. You all 
can--and listen, I think all of you are terrific people and 
want to do the right thing, but you've got to understand that 
the status quo is not acceptable, that turning the other way 
and thinking that this problem is being handled by these 
players and their families out of the light, many, many, many 
families are suffering, and I think you all know that in your 
hearts.
    So I'm going to keep following up. There will be more 
accountability in the future. And I'll have a number of 
questions for the record. And thank you all very much for being 
here. I'll turn the hearing over to Mr. Rubio for more 
questions.
    If you finish your questions and Senator Rockefeller is not 
here, you need to recess the hearing, because he is coming 
back. No? Oh, no. So you can gavel out.
    Senator Rubio. I just have two quick--I wanted to give Ms. 
Patterson----
    Senator McCaskill. And I am going to go vote now, so thank 
you.
    Senator Rubio [presiding]. And I won't keep you, though. 
But I did want to give you, Ms. Patterson, the opportunity to 
respond, because Mr. Vincent, in his answer to my question, 
outlined the role the NFLPA has played in the past in defending 
players accused of domestic violence or other infractions. What 
is the NFLPA's role if a player --and so I wanted to lay the 
groundwork in Mr. Rice's story. Mr. Rice came forward and 
admitted to the facts to such an extent that we've heard here 
today that the league didn't even need to see the video to know 
what had happened, that in essence, they learned nothing new 
from the video they didn't already know.
    In a case like that, what is the NFLPA's role in supporting 
the player, or what role do they play in that process?
    Ms. Patterson. First of all, the players have the option to 
have us in attendance if they have a meeting or a conversation 
with the Commissioner, so we support them in that way. If a 
player chooses to grieve or appeal after a discipline has been 
handed down, such as in the Ray Rice case, we do prepare that 
appeal and represent the player on appeal.
    I think it's worth noting for the record, under the 
Personal Conduct Policy, that appeal goes back to the 
Commissioner for his review of his own decision. So that is 
what was different in the Ray Rice case, because we fought for 
neutral arbitration.
    Senator Rubio. So these instances in the past that Mr. 
Vincent outline, the reality we're in, the past that--his 
testimony today was that the Commissioner felt limited by the 
punishment he could apply to Mr. Rice because of previous 
instances where he had instituted a punishment, and it had been 
successfully appealed. Who were those instances successfully 
appealed to? Or maybe, Mr. Vincent, you know the cases that you 
were referring to when you outlined that in your testimony.
    Mr. Vincent. Well, yes. Well, the one that comes to mind is 
the Brandon Marshall.
    Senator Rubio. Which Brandon Marshall? Is it the instance 
down in South Florida with his wife?
    Mr. Vincent. Yes, sir. And the suspension that was imposed 
was three games, and it was appealed and knocked down to two.
    Senator Rubio. That suspension was appealed to an 
independent arbitrator?
    Mr. Vincent. Yes. No, back to the Commissioner.
    Senator Rubio. So the Commissioner lowered his own 
decision?
    Mr. Vincent. Well, actually, it was appealed, the PA 
appealed it, and the neutral--I'm sorry, in this particular 
case a neutral arbitrator knocked it down to two games.
    Senator Rubio. To two games from three. And so based on the 
Brandon Marshall incident, which, as I recollect, was an 
instance where his wife was actually arrested by law 
enforcement authorities in that case, because he had been 
stabbed in the stomach with the end of a bottle or something, 
so my understanding is she was the one that had actually been 
arrested in that case, although the facts now have turned out 
to be something different, and he has clearly stated that she 
was not at fault.
    But in that case, the Commissioner's punishment was three 
games, but on appeal from the NFLPA, an independent arbitrator 
lowered it to two games. Do you know for a fact that that's the 
instance that was on his mind when he settled on the suspension 
for Mr.----
    Mr. Vincent. I wasn't involved in the Ray Rice situation.
    Senator Rubio. OK. What is it that the NFLPA looks at when 
it makes these appeals? What are the grounds for an appeal? For 
example, does the NFLPA have a criteria for where it thinks you 
go too far in punishing a player because they punched their 
fiancee in the face?
    Ms. Patterson. We don't have criteria. Well, first, we have 
to see what the player wants to do. And if the player wants to 
appeal, no matter what our advice is, we have a duty to do so. 
We represent him in that appeal, and we move forward.
    In the Rice case, it wasn't a matter of the length of the 
suspension. It was the arbitrariness of the second suspension. 
We felt that Mr. Rice was in a double jeopardy situation at 
that point, because there was no new evidence that had emerged. 
So there are different grounds in each case. I hate to say that 
it's case by case, but unfortunately----
    Senator Rubio. No, no. I understand the distinction in the 
Rice case in the sense that he had already received one 
suspension, and then when the video came out and the world saw 
what the Commissioner already knew, they added an additional 
suspension, and the NFLPA argued you now have punished him 
twice for the same thing that you already knew about. I 
understand that.
    My question is, moving forward, if, God forbid, tomorrow 
morning we awaken to a new Ray Rice-type case, and a player 
decides to appeal, I guess your argument is that at that point 
the NFLPA has the same obligations as a lawyer would to a 
client.
    Ms. Patterson. That's correct.
    Senator Rubio. To defend them irrespective of what its 
personal views may be about their conduct.
    Ms. Patterson. That's correct.
    Senator Rubio. OK. And so what we don't have is established 
precedent in which we know that at this point there is an 
appropriate suspension that is unappealable. We don't have that 
set yet. That's what you're working on now.
    Mr. Vincent. Yes. Yes, sir.
    Senator Rubio. OK.
    Mr. Vincent. That's exactly what we're working on is 
criteria, and the Commissioner spelled that out in his August 
28 letter, a minimum, with aggravating factors that will allow 
him to impose more harsh and severe discipline.
    Ms. Patterson. Well, could I respond to that?
    Senator Rubio. Yes, ma'am.
    Ms. Patterson. I would just like to say, again, to some of 
the earlier points, we'd like that policy to be collectively 
bargained. I think one of the Senators said, you know, we know 
what happens if a player has marijuana in his system, or we 
know what happens if, you know, basically if there's a drug 
policy violation. And this is one of the reasons why, because 
there is inconsistency, because there is no standard, because 
neither one of us can give you a criteria for what happens 
next. That's why we believe this policy needs to be 
collectively bargained.
    Senator Rubio. I mean, again, I don't want to belabor the 
point, but there are players that, because they've used 
performance enhancing drugs, some instances involving cold 
medicine that they took without documenting appropriately, 
they're suspended for more games than Mr. Rice was. And that's 
why I think the public looks at that and says, this doesn't 
make a lot of sense to us.
    But I do want you to know, and again, the NFL-centered 
nature of it is because they're more familiar with the league 
than I am or the operations of other leagues, I think that the 
takeaway from today's hearing, to be clear, I think is going to 
be talked about in the days to come. And for Mr. Vincent, 
something I think the league is going to have to deal with is 
the fact that your statement here today, that the Commissioner 
didn't need to see the video, because he already knew what had 
happened. I think that's going to be problematic moving 
forward.
    I know many of my colleagues are going to be concerned 
about that statement as well, because I think some of the 
perception early on was that--and I was under this perception, 
that Mr. Rice had not been accurate and honest with the League 
about what he had done. But in fact, today, the testimony has 
been that League fully understood what he had done, because 
there's nothing that we see in that video that he hadn't 
already told people about. And despite that, the sentence that 
was handed down or the punishment that was handed down was so 
limited.
    I know you've admitted to the fact today that--the league 
admits, I should say--the punishment was not strong enough--but 
I do think it's going to be problematic.
    Mr. Vincent. Well, Senator, let me make sure I am firm, and 
correct, and accurate on what I said. No one needed to see--
again, the Commissioner had stated he had not seen the second 
video. He acknowledged his mistakes on not handing out the 
proper discipline on the initial round.
    Senator Rubio. Right. No, I understand. And I guess my 
point on that is that your statement is he didn't needed to see 
the video, because he already knew what had happened.
    Mr. Vincent. That's my opinion.
    Senator Rubio. Right.
    Mr. Vincent. And I think that's the general public's 
opinion.
    Senator Rubio. OK. All right. Well, I appreciate all of you 
being here today. I know it has been a long hearing. Do we have 
a script for the comments after or questions or--just 
basically.
    The record will be open for two weeks.
    And with that, the hearing is adjourned.
    [Whereupon, at 4:55 p.m., the hearing was adjourned.]
                            A P P E N D I X

    Prepared Statement of Hon. John Walsh, U.S. Senator from Montana
    I'd like to thank Chairman Rockefeller and Ranking Member Thune for 
holding this important hearing.
    I want to note that while this hearing will focus on domestic 
violence in professional sports, the recent cases of domestic violence 
committed by professional athletes are only the most visible examples 
of a horrific problem that affects millions of Americans.
    The CDC reports that almost one-third of women in the U.S. will be 
physically abused by a partner in their lives. Women in Montana's 
Indian Country face sexual assault rates more than double the national 
average. This has to stop.
    Domestic violence is a deep national stain that every segment of 
our society must work to confront, prevent, and end.
    That is why the often inadequate, inattentive, and inconsistent 
responses to allegations of domestic violence are so troubling. 
Domestic violence is a problem that we must work to proactively 
confront as a nation.
    We know that domestic violence is the most underreported crimes in 
the U.S. Domestic violence survivors face losing their homes, their 
privacy, and their livelihood if they come forward. The culture of 
silence surrounding domestic violence, whether in the locker room or in 
our communities, must end.
    When I met with representatives of the Montana Coalition Against 
Domestic and Sexual Violence in Glendive, Montana, I heard about the 
barriers, whether it's our culture or a lack of resources, that stop 
victims of domestic violence from coming forward. We need to provide 
more transitional housing and more training for law enforcement, 
counselors, and healthcare workers to make it easier for victims to 
come forward.
    But beyond reacting to domestic violence after it happens, we need 
to change our culture through increased awareness and education to 
prevent domestic violence from occurring. A key part of this is making 
it clear that allegations of domestic violence, even against high-
profile perpetrators, will be treated with the respect and seriousness 
that they deserve. Everyone and every organization needs to set an 
example.
    Thank you for holding this hearing today. I hope that this 
increased attention results in sustained efforts, among all your 
organizations, to reduce and prevent domestic violence. Thank you.
                                 ______
                                 
                     National Task Force to End Sexual and 
                            Domestic Violence Against Women
                                                   December 9, 2014

Hon. John Rockefeller, Chair,
Hon. John Thune, Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Russell Senate Office Bldg. Room 254,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Thune:

    Thank you for holding a hearing regarding Domestic Violence and 
Professional Sports last week. The National Task Force to End Sexual 
and Domestic Violence (``NTF''), comprised of national state and local 
leadership organizations advocating on behalf of victims domestic 
violence, dating violence, sexual assault and stalking, as well as 
faith based, women's civil and human rights organizations, is pleased 
to submit the enclosed letter for inclusion in the record of last 
week's hearing, ``Addressing Domestic Violence in Professional 
Sports.'' The letter has been signed by 240 organizations, including 
national, state and local organizations representing over 40 states 
(including both West Virginia and South Dakota), the District of 
Columbia and Puerto Rico. It contains NTF's recommendations on priority 
issues which should receive attention in terms of both hearings and 
legislation, including the status of the NFL matter, the economic 
impact of domestic and sexual violence in the workplace (and responses 
that improve productivity and workforce stability), and employer best 
practices and policies re: same.
    We look forward to engaging with you on this important set of 
issues both in this Congress and the next. Please contact Lisalyn R. 
Jacobs who chairs our Economic Issues Subcommittee if we can assist you 
in any way.
            Sincerely,
                                 The National Task Force to End Sexual 
                                                  and Domestic Violence
                                 ______
                                 
                         National Task Force to End Sexual 
                        and Domestic Violence Against Women
                                                   December 9, 2014
Dear Senator:

    We write as members of the National Task Force to End Sexual and 
Domestic Violence--domestic and sexual violence advocates, faith-based 
and law enforcement groups, civil, human, and women's rights 
organizations who represent millions of survivors of sexual and 
domestic violence and stalking, and their advocates--with both requests 
and reflections following two solid months of media coverage of a 
number of high profile domestic and sexual violence incidents.
    Twenty years of work to implement and improve the Violence Against 
Women Act has left us well positioned to share the successes and 
challenges that emerged as we responded to the unprecedented surge in 
demand for services that followed the revelation of the second NFL tape 
involving Ray Rice and then fiancee, Janay Palmer. Thus, we write to 
request that the Congress hold hearings in furtherance of the national 
discussion that has begun around the issues of sexual and domestic 
violence, their impact on the economy, the economic lives of survivors, 
and the necessity for workplace and other policies that address the 
needs of battered and abused people and their families. Additionally, 
we want to express our appreciation to the many members of Congress who 
have called for the NFL to be held accountable, and we look forward to 
continuing the dialogue on this issue.
    An immediate consequence of the intense national focus on the NFL 
is increased awareness in American society at large of the profound 
impact of domestic and sexual violence in our lives in general and more 
specifically, in the workplace. As the NFL continues to institute 
reforms, we wish to point out that the NFL is but one employer. Its 
workforce--at the player level--is disproportionately male. Domestic 
and sexual violence as they manifest inside and outside the workplace, 
however, are still experiences that are overwhelming borne by women (85 
percent of survivors are women). Holding timely hearings would allow a 
review of NFL's experience to gain insight into how employers who are 
not adequately prepared can founder in responding to the workplace 
impact of sexual and domestic violence.
    We also call upon Congress to begin work on a Federal response to 
the unacceptably high level of survivor job loss--as high as 50 percent 
among survivors of sexual or domestic violence--that occurs when ill 
prepared employers are reactive rather than proactive. Before one more 
survivor is asked why they stayed, Congress must make it possible for 
them to decide whether they wish to.
    In the near term, we request two things:

  (1)  The holding of hearings as soon as is practicable to determine:

    a.  The status/progress of the NFL matter;

    b.  How to strengthen the economy and encourage employers to be 
            more proactive regarding domestic and sexual violence and 
            workplace while simultaneously increasing productivity and 
            safety in workplace; and

    c.  Best practices from employers and advocates, alike with respect 
            to improving economic security for survivors, and 
            accountability for perpetrators

  (2)  The swiftest possible introduction, mark-up and passage of 
        legislation designed to ensure that survivors have access to 
        the same baseline of workplace, and broader economic 
        protections regardless of where they live.

    As it stands, some survivors have access to paid leave if they need 
time off because they need to attend court, see a counselor, or attend 
to injuries. Others have access to unemployment insurance if they need 
to leave their jobs because of the violence. Still others have job 
security afforded by laws that ban the firing of survivors because they 
are survivors. Though all of these measures are needed to ensure that 
survivors have the strongest set of options for moving forward, access 
to these proven remedies varies drastically according to where 
survivors live. It's time to afford all survivors the protections they 
need regardless of zip code.
    We look forward to working with our public officials and private 
employers in the effort to enact policies, enforce the laws and ensure 
safety and economic stability for all survivors.
            Sincerely,
                                                         Legal Momentum
                                 Chair, Subcommittee on Economic Issues
                        Nat'l Task Force to End Sexual & Domestic Viol.
                         National Organizations

9to5, National Association of Working Women

A Window Between Worlds

Alliance for a Just Society

American Association of University Women

American Federation of Government Employees: District 11 (OR. ID. WA. 
CO, AK, MT, UT, WY)

Americans Overseas Domestic Violence Crisis Center

Boat People SOS

Casa de Esperanza: National <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="602c0114090e20">[email&#160;protected]</a> Network for Healthy Families and 
Communities

Clearinghouse on Women's Issues

Communication Workers of America

Domestic Violence Legal Empowerment and Appeals Project

Exodus, Inc.

General Federation of Women's Clubs

Hadassah, The Women's Zionist Organization of America, Inc.

Institute for Family Violence Studies

Institute for Science and Human Values

Legal Momentum

Mothers of Lost Children

National Alliance to End Sexual Violence

National Center on Domestic and Sexual Violence

National Clearinghouse on Abuse in Later Life

National Coalition Against Domestic Violence

National Coalition of Anti-Violence Programs

National Conference of Puerto Rican Women

National Council of Jewish Women

National Crittenton Foundation

National Domestic Violence Hotline

National Organization of Women

National Partnership for Women and Families

National Resource Center on Domestic Violence

National Women's Political Caucus

Sargent Shriver National Center on Poverty Law

University of Miami Human Rights Clinic

Women of Color Network

Wider Opportunities for Women

Woodhull Sexual Freedom Alliance

YWCA USA
                      State & Local Organizations
Alaska
NOW: Alaska

Arizona
Arizona Coalition to End Sexual and Domestic Violence

Time Out Inc.

Arkansas
Arkansas Coalition Against Sexual Assault

Delta Crisis Center

Serenity Inc.

California
Asian Pacific Women's Center

Doves of Big Bear Valley

House of Ruth Inc.

Humboldt County Domestic Violence Coordinating Council

NOW: Contra Costa

NOW: Pacific Shore

One SAFE Place

Option House

Shelter from the Storm

Unfolding Flowers

Colorado
A Zen Life

Alternatives to Violence, Inc.

Archuleta County Victim Assistance Program

Help for Abused Partners

RESPONSE

SafeHouse Denver

Safehouse Progressive Alliance for Nonviolence

Connecticut
BH Care, Inc.

CT-ALIVE

KK Community Rebuilding

Meriden-Wallingford Chrysalis

District of Columbia
D.C. Rape Crisis Center

Florida
Christians Against Domestic Violence

Healing Grace

NOW: Brevard Chapter

NOW: Jacksonville

NOW: Florida

Women's Production Network

Georgia
The Blood Healing Services

Circle of Hope

Columbus Alliance for Battered Women, Inc. d/b/a Hope Harbour

Forsyth County Family Haven

Hospitality House, Inc.

North Georgia Counseling Education Center

Northwest Georgia Family Crisis Center

Polk County Women's Shelter

Women Watch Afrika, Inc

Hawaii
Women Helping Women

Idaho
The Advocates

Idaho Coalition Against Domestic Violence

Illinois
A Safe Place

Crisis Center for South Suburbia

Christian Community Health Center

Family Resources

Illinois Coalition Against Domestic Violence

Mutual Ground, Inc.

NOW: Illinois

NOW: Quad Cities (also listed under IA)

Rape Victim Advocates

Indiana
Crisis Connection, Inc.

Indy Feminists

Latino Coalition Against Domestic & Social Violence

Noble House Ministries Inc.

Iowa
Center for Creative Justice

Crisis Intervention Services

Domestic Violence Intervention Program

Family Resources

Franciscan Peace Center

NOW: Quad Cities (also listed under IL)

Kansas
Domestic Violence Association of Central Kansas

Kentucky
Kentucky Coalition Against Domestic Violence

Spring Haven Domestic Violence Program

Maine
Family Crisis Services

Maryland
NOW: Maryland

SMR Counseling Services

Massachusetts
Casa Myrna Vasquez

Jane Doe Inc.

Lesley University Women's Center

Pathways for Change, Inc.

Michigan
EGV Teams Counseling

HAVEN

Michigan League for Public Policy

NOW: Wayne County

Shelter Inc.

The Venus Foundation

Minnesota
Bluff Country Family Resources

CADA of Waseca/Le Sueur County

NOW: Minnesota

Someplace Safe

Mississippi
MS Coalition Against Sexual Assault

Missouri
A Safe Place

Audrain County Crisis Intervention Services

Agape House Inc. of Mountain View

Christos House Inc.

NOW: Columbia

Safe Connections

The Victim Center

Nebraska
Center for Sexual Assault and Domestic Violence Survivors

New Hampshire
New Hampshire Coalition Against Domestic and Sexual Violence

New Jersey
Manavi

My Sisters Lighthouse

New Jersey Assoc. on Correction

New Jersey Coalition for Battered Women

NOW: Middlesex County

NOW: Morris County

NOW: New Jersey

NOW: Northern New Jersey

NOW: South Jersey

New Mexico
Alternatives to Violence

Family Crisis Center

Grammy's House

New Mexico Coalition Against Domestic Violence

New Mexico Coalition of Sexual Assault Programs

NOW: Albuquerque

NOW: New Mexico

NOW: Santa Fe

Rape Crisis Center of Central New Mexico

S.A.F.E. House

New York
Advocacy Center

Hope's Door

The Fortune Society

NOW: East End

New York State Coalition Against Sexual Assault

Northern Manhattan Improvement Corporation

The Safe Center LI, Inc.

Women and Work

VCS Inc.

Violence Intervention Program

North Carolina
Be Healthy Ministries

Durham Crisis Response Center

Family Services Inc.

Family Services of Davidson County, Inc.

Guilford County Family Justice Center

Mending Hearts

NOW: Fayetteville

NC Coalition Against Sexual Assault

REACH of Cherokee County, Inc.

Sarah's Refuge Inc.

The Sparrow's House of Yadkin

Ohio
ACTION OHIO Coalition For Battered Women

Alternatives to Violence Center

Cleveland Rape Crisis Center

Community Services of Stark Co.

Ohio Guidestone/Harbor House

Haven of Hope

Ohio Alliance to End Sexual Violence

Project Women

Rape Crisis Domestic Violence Safe Haven

SAAFE Center

Southern Ohio Sexual assault Treatment Center

Tri-County Help Center, Inc. (Belmont/Harrison/Monroe Counties)

Turning Point

Oklahoma
Safenet Services Domestic Violence Shelter

United Nations Association of Oklahoma City

YWCA Oklahoma City

Oregon
Bradley Angle

Community Works

Project DOVE

Tillamook County Women's Resource Center

Women's Safety & Resource Center

Pennsylvania
Alle-Kiski Area HOPE Center, Inc.

KenCrest

NOW: First Pittsburgh

NOW: Ni-ta-nee

PathWays PA

Pennsylvania Coalition Against Domestic Violence

Pennsylvania Coalition Against Rape

Roses Ministry

Survivors, Inc.

Women's Center of Montgomery County

Women's Law Project

Women's Resource Center

South Dakota
South Dakota Coalition Ending Domestic and Sexual Violence

Tennessee
22.5 Degrees

CEASE Domestic Violence and Sexual Assault Inc.

Texas
Austin/Travis County Family Violence Task Force

Crisis Center of the Plains

Daya Inc.

Domestic Violence Protection, Inc..

Humboldt County Domestic Violence Coordinating Council

NOW: South Central Region

No More

Radio

SafePlace

Women's Center of Brazoria County

Rhode Island
NOW: Rhode Island

Vermont
Project Against Violent Encounters

Safeline Inc.

Vermont Network Against Domestic and Sexual Violence

Virginia
Beth El House

Charlottesville/Blue Ridge AAF

NOW: Charlottesville

NOW: Northern Virginia

York-Poquoson Victim-Witness Assistance Program

Washington
Christian Coalition for Safe Families

King County Re-entry Program

Legal Voice

McCready Remodeling

Pierce County Commission Against Domestic Violence

Truth Speaks

Washington Coalition of Sexual Assault Programs

Washington State Coalition Against Domestic Violence

Women of Vision

West Virginia
Tug Valley Recovery Shelter

West Virginia Coalition Against Domestic Violence

West Virginia Foundation for Rape Information and Services

Wisconsin
Community Referral Agency (Polk, Barron Burnett Counties)

Forge Inc.

University of Wisconsin, Madison: Women's Resource Center

Wisconsin Coalition Against Sexual Assault

Wyoming
SAFE Project
                       Trial Coalitions/Programs
Seven Dancers Coalition

Tohono O'odham Nation Domestic Violence Program
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to Troy Vincent
    Question 1. The New York Times recently reported on special 
treatment that NFL players receive from law enforcement when they are 
accused and even arrested for domestic violence. The November 16 
article reported that teams form cozy relationships with the local 
police, often employ off-duty officers, and give them special perks. 
According to the article, teams will work with law enforcement in order 
to minimize publicity and the negative impact on players. In one case, 
a player arrested for domestic violence was actually escorted by police 
back to the residence of the woman he assaulted. This is unbelievable.

    Question 1a. Do your teams employ or otherwise provide financial 
benefits to off-duty police officers? If so, please give me the 
percentage of your teams that do so.
    Answer. Yes, virtually all, if not all, of the 32 NFL clubs employ 
on and off-duty police officers to provide security at stadiums, 
training facilities, hotels, and events. Such events include games, 
owners meetings, the Draft, Super Bowl, Pro Bowl, and Hall of Fame 
Game. These employment relationships often are through third parties. 
For example, the Chicago Bears through SMG, a leading venue management 
and marketing firm, pay Monterey Security to secure the public access 
gates at Soldier Field on game day. Monterey, a third-party security 
consultant, employs dozens of off-duty police officers and sheriff's 
deputies from multiple jurisdictions to service the contract. In 
addition, in almost all cases, clubs reimburse local and state 
governments for law-enforcement services provided on game day.

    Question 1b. Will you adopt a league-wide policy that prohibits 
such employment in order to avoid special, lenient treatment for 
players that run afoul of the law, including domestic violence 
incidents?
    Answer. The League values and relies on the commitment, dedication, 
and service of law enforcement to maintain the safety and security of 
our fans, our players, and the game. In our view, a league-wide policy 
that prohibits the employment of law enforcement officials would 
unnecessarily compromise and undermine vital protections. Law 
enforcement personnel serve a valuable role within our clubs, and their 
presence has helped to anticipate and prevent potentially dangerous 
situations and misconduct.

    Question 2. Mr. Vincent, you testified about the steps that the NFL 
is taking to prevent and respond to incidents of domestic violence, 
child abuse, and sexual assault. While I applaud the league for those 
steps, it seems like those steps, and the NFL's Personal Conduct Policy 
generally, are primarily focused on players. Nothing has been said 
about what happens to league and teams officials who play a role in 
these bad acts, such as conducting cover-ups. For example, Mrs. Janay 
Rice has alleged that the Baltimore Ravens organization scripted her 
press conference, and they suggested that she apologize for her role in 
her husband's assault on her. If true, I find that outrageous.

    Question 2a. Are league and team officials also held accountable? 
Does the Personal Conduct Policy cover the examples given?
    Answer. The NFL's Personal Conduct Policy (PCP) establishes clear 
standards of behavior that apply to all NFL personnel. This includes 
the Commissioner, owners, coaches, and players, as well as all League 
and team employees and officials. In addition, a key element of the new 
PCP is the clear emphasis on reporting obligations for all NFL 
personnel, including League and club management. Under the PCP, clubs 
are obligated to promptly report any potential violation of the Policy 
that comes to their attention and must fully cooperate with any related 
law enforcement and/or NFL investigation. Failure to report an incident 
is grounds for disciplinary action.

    Question 2b. What is the league doing to respond to Mrs. Rice's 
statement that the Ravens organization very inappropriately suggested 
that she apologize?
    Answer. The Baltimore Ravens publicly have stated that at no time 
prior to Ray and Janay Rice's May 23rd press conference did the club 
provide talking points, a script, or a suggested script to Janay or 
speak with her about the press conference. The Ravens also have said 
that no one in the organization recommended or suggested to Ray or 
Janay that she apologize in any way.
    The League's new PCP sets out a clear series of steps to be taken 
when there is an incident that may constitute a violation of the PCP. 
These steps are intended to encourage reporting of misconduct and to 
prevent any retaliation against anyone who reports or was a victim of 
or witness to misconduct. The Policy also is intended to ensure that 
victims and families receive needed assistance, including the provision 
of or referral to appropriate counseling, social and other services, 
clergy, medical professionals, and specialists in dealing with children 
and youth. These resources will be provided through specialized 
Critical Response Teams affiliated with the League office and with 
member clubs, and non-League resources will be made known to all 
involved.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                              Troy Vincent
    Question 1. The entire nation was shocked by the video of a 
football player knocking his fiance unconscious in a hotel elevator and 
honestly I don't believe that anyone who saw that video will ever 
forget it--the punch and the dragging of a woman flopping like a rag 
doll on the cold hard floor.
    Unfortunately this was not an isolated case: There have been 83 
arrests of NFL players for domestic violence reported since 2000. In 
fact, 48 percent of all violent crime arrests for NFL players are for 
domestic violence.
    We know this is not just a problem for the NFL. We have seen too 
many other horrific acts of violence perpetrated by professional 
athletes in the NBA, the NHL and in Major League Baseball.
    We know that domestic violence is a problem that plagues our 
society as a whole--and we know that it is time for all of us to act to 
address this epidemic.
    So I have some questions that I want to ask all of the sports 
leagues that are represented here today:

    Question 1a. We know that, tragically, most cases of domestic 
violence go unreported. How many allegations of domestic violence has 
your league received in the last decade?
    Answer. During the 10-year period between 2004 and 2013, the NFL 
has reviewed 92 domestic violence allegations involving players. In 51 
of these cases, we were able to establish a violation of the PCP. The 
League issued 25 suspensions and 12 fines. The remaining violations 
were punished by other means, including one player who was issued a 
formal reprimand, or the players already had their contracts terminated 
prior to the imposition of discipline.

    Question 2. As representatives of our professional sports leagues, 
you have the unique opportunity to lead the way--and do good for the 
entire nation--by preventing these crimes and setting an example when a 
crime occurs.
    I believe there are three things you can do immediately:

        The first is prevention. We need to stop these horrendous acts 
        of violence before they happen. To do that, you need to act now 
        by educating your players, employees, and their families that 
        domestic violence is unacceptable and will not be tolerated. . 
        This education, or call it counseling or call it life coaching, 
        is absolutely critical to prevent violence.

        Second, you need to create a real zero-tolerance policy for 
        domestic violence.

        Earlier this year, I led a bipartisan group of 16 Senate women 
        urging National Football League Commissioner Roger Goodell to 
        institute a zero-tolerance policy for domestic violence.

        It is up to ALL of our professional sports leagues to send that 
        message to their players--that if they can't meet that 
        standard, then they shouldn't be wearing the uniform. Why do I 
        say that? Because like it or not, here is a fact--players are 
        role models for our children.

        Finally, you need to ensure that the victims of domestic 
        violence are encouraged to report these crimes and immediately 
        given an independent advocate who will fight for them every 
        step of the way.

        That means contracting with well-respected non-profit domestic 
        violence organizations that are right there in the community.

    I am proud that, in California at my urging, the University of 
California and the Cal State Universities have agreed to do this 
voluntarily.
    I believe this same model should be used by all of you.
    It is critical that our professional sports teams put the victim's 
needs at the center of their policies.

    Question 2a. Will your organization commit to establishing a 
domestic violence prevention program that includes rigorous and 
mandatory training for all players, coaches, personnel--and their 
families?
    Answer. Yes. The NFL has established a domestic violence prevention 
program that includes mandatory education and training for all NFL 
personnel. This mandatory education already has been presented to team 
owners, club executives, and all of the teams--with all personnel, 
coaches and players required to attend. This education also was made 
available to families and significant others.
    In addition, over the course of the next several months, the League 
will provide specialized training in the off season for appropriate 
personnel to identify those at risk and provide prompt and confidential 
counseling and other intervention. These ``first responders'' work most 
closely with players and staff and include athletic trainers, player 
engagement directors, chaplains, and human resources executives. 
Moreover, the League is developing Critical Response Teams of experts 
who can respond swiftly to address issues when victims or perpetrators 
are identified or come forward. The League also will develop and 
implement ongoing programs of education for all team and League 
employees--players, non-players, and families.

    Question 2b. Will your organization commit to a zero tolerance 
policy that makes it loud and clear that domestic violence is wrong, 
and will not be tolerated?
    Answer. The NFL has implemented a no-tolerance policy that makes it 
clear and explicit that domestic violence is wrong, illegal, and will 
not be tolerated under any circumstances. The revised PCP was developed 
after an extensive series of meetings and discussions with a wide range 
of experts, including domestic violence/sexual assault experts and 
advocates. Under the policy, individuals who engage in unacceptable 
behavior, such as domestic violence, will face strong sanctions, 
including banishment from the League. However, leading domestic 
violence experts uniformly have advised the League not to adopt a 
``one-strike-and-you-are-out'' policy. They have warned that such a 
policy may have dire, unintended consequences, discouraging reporting 
and driving family violence underground. Such an outcome can put 
victims and survivors at greater risk of abuse, rather than encouraging 
them to seek assistance and support, and eliminates the League's 
ability to mandate appropriate interventions, like counseling, that can 
be effective in preventing future violence.

    Question 2c. Will your organization commit to providing every 
victim with an independent advocate who will provide them the support 
that they need?
    Answer. The NFL is committed to providing victims with an 
independent advocate who will provide support. The League will assist 
victims and families, including by providing or directing victims to 
confidential counseling, social and other support services, medical 
professionals, and other child and youth specialists. These resources 
will be provided through Critical Response Teams of experts affiliated 
with the League office and member clubs. The response teams will assist 
victims and families in matters of personal security and other needs 
following a reported incident. In addition, information about local 
non-League resources to help victims and families will be provided to 
affected parties.

    Question 3. Medical researchers have determined that chronic 
traumatic encephalopathy, or CTE, is caused by repeated head trauma and 
can be brought on by helmet-to-helmet collisions and hard tackles or 
head trauma. In a recent study of many retired football players' 
brains, scientists found lesions in the part of the brain responsible 
for emotions and self-control. Doctors state that damage to that part 
of the brain may cause concussion victims to lose control over anger 
and other emotions, and there have been reports that many former 
players who have no history of domestic violence apparently become 
dangerous to their families as they suffer from CTE.
    It seems to me that the league has a tendency to ignore problematic 
systemic issues until it's too late. The NFL should take a close look 
at whether football-related head injuries contribute to the 
extraordinary amount of domestic violence incidents in the NFL.

    Question 3a. Has the NFL made any effort to understand the 
connection between Traumatic Brain Injury and chronic traumatic 
encephalopathy and violence in the home?
    Answer. The problem of family violence is a broad societal issue 
and, to my knowledge, the scientific community has not established a 
causal relationship between an individual's sustaining a traumatic 
brain injury and committing violence in the home. The NFL has taken a 
number of steps to improve its response to incidents of domestic 
violence and child abuse, to prevent such incidents, and to support 
survivors when incidents do occur, as I discussed in my testimony and 
as set out in the PCP.
    Separately, the League is working to address the serious issue of 
traumatic brain injury. We are working with our partners in government 
and the private sector to make large-scale investments and to drive an 
ambitious scientific research agenda around brain injuries. This work 
is designed to advance our understanding of the brain and long-term 
neurodegenerative disease, as well as to catalyze development in the 
diagnosis, prognosis, and prevention of brain injury in sports, 
military environments, and throughout society.
    The NFL is supporting two primary research projects to achieve 
these goals:

        Foundation for the National Institutes of Health: In 2012, the 
        NFL announced its single-largest donation to any organization 
        in the league's 92-year history: a $30 million grant to the 
        Foundation for the National Institutes of Health (FNIH) for 
        research on brain injuries, especially among athletes and 
        veterans--creating the Sports and Health Research Program. The 
        NIH awarded $14 million in grants with this money in December 
        2013. The grants are supporting research to better 
        understanding chronic traumatic encephalopathy. The NIH is now 
        considering submissions for $16 million in grants announced by 
        the President in May 2014. These grants will fund longitudinal 
        studies to understand the long-term impacts of brain injury.

        Head Health Initiative: In March 2013, the NFL formally 
        partnered with GE and Under Armour to launch the Head Health 
        Initiative, a four-year, $60 million collaboration designed to 
        benefit athletes, members of the military and the general 
        public by developing new diagnostic equipment, further clinical 
        research and developing innovative diagnostic and preventative 
        solutions to brain injury.

    The companies have allocated $20 million to the Head Health 
Challenges. These global grant challenges have invited scientists, 
entrepreneurs and other experts to propose innovative approaches to the 
diagnosis, prognosis and prevention of brain injury. The remaining $40 
million will fund the development of next-generation imaging 
technologies to improve diagnosis and treatment of traumatic brain 
injury. After winning grants through the challenges, researchers from 
around the world are already hard at work on a wide variety of studies, 
including improved algorithms for quantification of biomarkers of brain 
injury severity, tools that link imaging data to clinical and cognitive 
data, robust methods for triaging acute-stage events and developing 
return-to-play guidelines using physiological, molecular, electrical or 
physical changes in brain or body functions.
Correction
    In addition to the above answers, I have reviewed the draft of the 
transcript of the hearing and want to correct for the record my 
response to the following question:

    Senator McCaskill asked whether the NFL has a policy mandating that 
coaches, or other team personnel, report a felony assault or any kind 
of assault to law enforcement upon learning of such an incident.

    I incorrectly stated that the League has in place a policy 
requiring clubs to report to law enforcement. The League's policy 
requires teams to report any potential violations of the PCP to the 
League Office, as described above. In addition, clubs routinely 
cooperate with law enforcement when employees or players are accused of 
any criminal conduct.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Teri Patterson
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions.

    Question 1a. For the others, can you please tell me where you are 
in negotiating new uniform policies to address domestic violence?

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. The NFLPA was instructed by staff to only address and 
answer Question 1b. The NFL issues the discipline of players for 
violations of workplace rules governing conduct detrimental to the 
League, including domestic violence. The NFLPA supports discipline that 
is based on a fair, consistent, transparent process that ensures that 
such discipline is based upon established facts. The NFLPA believes 
that implementation of education and outreach programs that promote 
awareness and hopefully prevent incidents of domestic violence are key 
to an effective policy, and our communications with the NFL suggest 
that they also support education and outreach.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Teri Patterson
    Question 1. Chronic traumatic encephalopathy (CTE) is a progressive 
degenerative brain disease often found in individuals with a history of 
concussions or other forms of head injury. It is commonly associated 
with athletes that participate in contact sports, including football. 
Symptoms of CTE include, among other things, aggression, confusion and 
depression. Some observers speculate that a relationship exists between 
CTE and domestic violence. Anecdotal evidence in support of this 
hypothesis includes the case of former NFL linebacker Junior Seau, who 
was arrested on domestic violence charges after his retirement and who 
was diagnosed, post mortem, with CTE. Other former professional 
football players that have been linked to violent incidents, including 
domestic violence, are Chris Henry, Lou Creekmur, and Mike Webster--all 
of whom have been diagnosed, post mortem, with CTE.
    Does the NFLPA have reason to believe that a link exists between 
traumatic brain injury, including CTE, and violent behavior, both on 
and off the field and including domestic violence? If so, what steps 
can the NFLPA take to ensure that current and former players and their 
families are protected in this regard?
    Answer. The NFLPA takes domestic violence very seriously and 
understands that diagnosing brain disease is very complex. Medical care 
for NFL players is the non-delegable responsibility of the NFL Clubs 
(the employers). The NFLPA monitors this care extremely closely to 
ensure that any deviations from quality care are addressed. The NFLPA 
has external medical advisors and experts who follow the emerging 
science regarding possible links between Traumatic Brain Injury (TBI) 
and both CTE and violent behavior. The NFLPA's Mackey-White Health and 
Safety Committee, comprised of the world's best scientists, 
particularly in neurosciences (many of whom have published this 
research), monitors these developments and advises the NFLPA on both 
the validity of the scientific observations, as well as the best means 
to ameliorate exposure.
    To that end, on-field policies governing the evaluation and 
management of concussions include monitoring the players during games 
(ATC spotters, Unaffiliated Neuro-Trauma Consultants (UNCs), mandated 
sideline exams, emergency action plans, compliance check lists, etc); 
carefully establishing evidence-based return to participation protocols 
administered by independent neurological consultants (INCs). 
Separately, the NFLPA meets with the NFL Competition Committee to 
assure there are rule changes intended to decrease the magnitude and 
frequency of potential concussive impacts. The CBA further mandates 
that the frequency of exposure to concussions is decreased by 
eliminating two-a-day contact practices and increasing the length of 
the off-season. The NFLPA has also made significant investments in 
medical research, most recently through a long term research 
partnership with Harvard University, which seek to address these issues 
and others surrounding player health, longevity and welfare.

    Question 2. In an op-ed that appeared in the November 13, 2014 
edition of the New York Times, NBA Commissioner Adam Silver called on 
Congress to ``adopt a Federal framework that allows states to authorize 
betting on professional sports, subject to strict regulatory 
requirements and technological safeguards.'' What are the views of the 
NFLPA on Commissioner Silver's proposal? Please explain your answer.
    Answer. The NFLPA has no opinion on the views of Commissioner 
Silver's proposal.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                              to Joe Torre
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions.

    Question 1a. For the others, can you please tell me where you are 
in negotiating new uniform policies to address domestic violence?
    Answer. As I stated in my written statement, Commissioner Selig has 
instructed his staff to develop a stand-alone policy to address 
domestic violence and sexual assault prior to the 2015 baseball season, 
and we are in the process of developing stand-alone domestic violence, 
sexual assault and child abuse policies that will apply to all members 
of the Baseball community, including Major and Minor League players, 
field staff, and front office staff.
    With respect to the Major League players, we are in the process of 
negotiating with the Major League Baseball Players Association 
(``MLBPA'') to develop a joint policy that would cover all Major League 
players. In this regard, we have been discussing with the Players 
Association a plan to have Futures Without Violence (``FWV'') develop 
education and training materials for all Major League players beginning 
in 2015 Spring Training. We also hope to select a variety of 
organizations to serve on a joint MLB-MLBPA steering committee that 
will further the development of education and training materials for 
players, staff and their families going forward. Further information on 
the status of our negotiations with the Players Association over 
discipline is set forth in Response to Question 1b below.
    With respect to Minor League players, MLB is mandating that all 
Clubs provide training to all of their Minor League players (as well as 
their respective front office and field staffs). To accomplish this 
effort, MLB has certified the following five independent organizations 
(some of which have been utilized by Clubs in the past) that may be 
utilized by Clubs to provide such training:

        A Call To Men

        The Center for the Study of Sport in Society at Northeastern 
        University

        Futures Without Violence

        Men Can Stop Rape

        Mentors in Violence Prevention

    By the end of the 2015 championship season, each of the 30 Clubs 
must certify to the Commissioner's Office that it has engaged one or 
more of these organizations to provide training to all of its front 
office and field staffs, including all of its Minor League players. If 
a Club would like to engage an organization not identified here to 
provide such training the Club must receive the prior approval of MLB's 
Domestic Violence Sexual Assault Response Team (``DVSART''), which is 
comprised of members of the Labor Relations, Human Resources and 
Investigations departments at the Commissioner's Office. Moreover, with 
respect to Minor League players in the Dominican Republic, we are 
considering the feasibility of hosting a centralized symposium in the 
DR, which would satisfy the Clubs' obligations with respect to training 
such players in 2015. For its part, the Commissioner's Office will 
engage Sanctuary for Families and Safe Horizons in New York in order to 
provide training, education, and outreach to the employees of the 
Commissioner's Office, including Baseball Advanced Media, and the MLB 
Network.
    I also want to inform the Committee that MLB has begun working with 
the Sand Creek Group to develop a universal Family Support Program for 
everyone in the Baseball community. Sand Creek currently works with the 
Commissioner's Office and a number of Clubs to provide independent 
counseling resources on a confidential basis. Under this plan, Sand 
Creek would provide a dedicated 24/7 hotline in English and Spanish for 
addressing personal problems or crisis situations in the lives of all 
employees and their household members. Any support provided by Sand 
Creek under this plan would supplement, and not necessarily replace, 
any existing Employee Assistance Programs the Clubs may already have in 
place. We expect Sand Creek to help us develop programs at each Club 
specifically designed to address the welfare of families and intimate 
partners of players.
    In addition to the foregoing, we will be posting informational 
materials at Major and Minor League ballparks, and publicizing contact 
information for local resources, including shelters, in every community 
in which Major or Minor League Baseball is played. We also are 
developing protocols that our Clubs must follow in response to domestic 
violence or sexual assault incidents that will include appropriate 
measures to ensure the safety of affected individuals, providing 
confidential counseling and treatment for victims, and providing 
counseling and intervention for perpetrators.

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. Our efforts to establish effective education and outreach 
are described in my Response to Question 1a above. With respect to 
discipline, on September 25, 2014, MLB proposed revisions to its 
disciplinary policy covering MLB players that would make it easier for 
the Commissioner to impose an appropriate level of discipline on 
players who commit acts of domestic violence or sexual assault, and 
have that discipline be upheld in arbitration. As I mentioned in my 
statement, MLB does not have the right to insist on any changes to 
player discipline until its current collective bargaining agreement 
with the MLBPA expires in December 2016. However, we are hopeful that 
we will come to an agreement with the MLBPA prior to the start of next 
season on a disciplinary policy specifically tailored to domestic 
violence and sexual assault. Although the Players Association has not 
formally responded as of the date of this response, the Players 
Association has acknowledged that changes to the existing disciplinary 
structure for domestic violence offenses may be necessary. The Players 
Association also has assured us that we will receive a response with 
the deliberate swiftness required given the complexities of the issues.

    Question 2a. Do your teams employ or otherwise provide financial 
benefits to off-duty police officers? If so, please give me the 
percentage of your teams that do so.

    Question 2b. Will you adopt a league-wide policy that prohibits 
such employment in order to avoid special, lenient treatment for 
players that run afoul of the law, including for domestic violence 
incidents?
    Answer. Most, if not all, Clubs employ off-duty police officers for 
tasks like traffic control and ballpark security. The Commissioner's 
Office retains off-duty police officers as Resident Security Agents 
(``RSAs''), who are assigned to each Club. The RSAs are supervised by 
the Commissioner's Office's Vice President of Security. When an RSA 
reports that a player has had an incident with law enforcement, the 
case is handled by MLB's Department of Investigations, which is an 
independent department charged with conducting investigations of 
misconduct and integrity violations committed by individuals associated 
with MLB using full-time investigators employed by MLB. We believe that 
the structure that we have established serves as a check against Club 
personnel from attempting to intervene on the player's behalf with law 
enforcement. At annual RSA meeting, we routinely discuss the importance 
of avoiding conflicts of interest and emphasize the importance of 
compliance with each RSA's own departmental rules. We also intend to 
reiterate to the RSAs at their upcoming annual meeting that they are 
prohibited from seeking special or preferential treatment for a player 
who has been arrested for any reason.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                               Joe Torre
    Question 1a. We know that, tragically, most cases of domestic 
violence go unreported. How many allegations of domestic violence has 
your league received in the last decade?
    Answer. It would be highly unusual for a player or a victim to 
report an allegation of domestic violence to the Commissioner's Office. 
In many instances, the media learns of an allegation before the Club or 
the Commissioner's Office. Public sources indicate that approximately 
sixteen players may have been accused of domestic violence over the 
past ten years. These sources indicate that most of these players were 
not charged, and, of those who were charged, it appears that the 
prosecutors made the decision to drop the charges (for reasons that 
were not disclosed to MLB).
    As set forth in my written testimony, under MLB's current 
disciplinary system, it is very difficult to discipline players based 
on an arrest when the player is not convicted of a crime. Under a 
``just cause'' standard, the Commissioner's Office is required to prove 
a violation by a player at an evidentiary hearing before a neutral 
arbitrator, which can be difficult in the absence of a conviction or 
plea, or without cooperating witnesses or tangible evidence regarding 
the conduct. In addition, our arbitrators in the past have been less 
inclined to uphold severe discipline under a ``just cause'' standard 
for off-field conduct that does not impact the player's ability to 
perform. For these reasons, we have proposed to the Players Association 
a disciplinary policy specifically tailored to address domestic 
violence and sexual assault.

    Question 2a. Will your organization commit to establishing a 
domestic violence prevention program that includes rigorous and 
mandatory training for all players, coaches, personnel--and their 
families?
    Answer. Major League Baseball has committed to establishing a 
domestic violence prevention program that includes rigorous and 
mandatory training for everyone in the Baseball community, including 
players, coaches, personnel, and their families. We fully understand 
that educating so many people from diverse backgrounds on an issue that 
many of them have not previously considered is not an easy undertaking. 
However, as more fully described in my responses to Chairman 
Rockefeller's questions above, we intend to devote the time and the 
resources necessary to accomplish just that.

    Question 2b. Will your organization commit to a zero tolerance 
policy that makes it loud and clear that domestic violence is wrong, 
and will not be tolerated?
    Answer. Commissioner Selig has instilled in our sport the 
understanding that Major League Baseball is a social institution, and 
as our national pastime, has an obligation to set a positive example. 
The Commissioner and I deplore domestic violence and crimes against 
women and families. Major League Baseball recognizes the very clear 
public expectation for professional sports leagues to be leaders in 
addressing this social ill. We are committed to developing a culture in 
which the players implicitly understand their moral obligation as both 
men and role models to speak out and act against crimes against women 
and families.

    Question 2c. Will your organization commit to providing every 
victim with an independent advocate who will provide them the support 
that they need?
    Answer. Major League Baseball is committed to providing every 
victim of domestic violence in its community with the resources 
necessary to overcome this tragedy in their lives. As I described in my 
responses to Chairman Rockefeller's questions, MLB has begun working 
with the Sand Creek Group to develop a universal Family Support Program 
for everyone in the Baseball community. In addition to the foregoing, 
we will be posting informational materials at Major and Minor League 
ballparks, and publicizing contact information for local resources, 
including shelters, in every community in which Major or Minor League 
Baseball is played. Through these resources we will ensure that every 
victim has access to an independent advocate who will be able to 
provide them with the support that they need.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Virginia Seitz
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions. 
For the others, can you please tell me where you are in negotiating new 
uniform policies to address domestic violence?
    Answer. As we mentioned in our written statement, Major League 
Baseball and the Major League Baseball Players Association already have 
a policy in place that addresses domestic violence and provides for 
both therapeutic intervention and the possibility of discipline for 
just cause for inappropriate and/or illegal conduct. The existing 
program gives medical professionals, with the concurrence of the 
parties, wide latitude to design a treatment program to attempt to 
rehabilitate, where necessary, Players who are charged with domestic 
violence-related crimes. The existing program also gives the 
Commissioner or the employer Club authority to impose discipline on a 
Player under Article XII.B where an act of domestic violence is 
alleged--subject to the critical ability of the Player and the union to 
challenge (if they so choose) that discipline under the ``just cause'' 
standard before a neutral arbitrator. This program was implemented in 
2011.
    We recognize, however, that this may not be enough. Obviously, more 
can be done with regard to education, for Players, for the families of 
Players, for victims, and for all who are involved in or touched by our 
sport. Consequently, starting this fall, we have been talking with MLB 
about possible modifications or improvements to our current program, 
focusing on three primary elements:

  (1)  An enhanced public relations program to promote an understanding 
        for, and an eradication of, domestic violence in our society;

  (2)  An improved education and therapeutic intervention program for 
        Major League Baseball Players and their families so that 
        potential issues can be addressed in an appropriate and 
        confidential manner before violence occurs; and,

  (3)  Possible changes to the existing disciplinary structure for 
        domestic violence offenses.

    It was clear that we would not be able to improve our current 
policy unless we better understood not only the issue of domestic 
violence but the options that are available for a more comprehensive 
and effective program. Consequently, over the course of this fall, the 
Players Association has devoted an extraordinary amount of time and 
effort consulting with a wide range of experts and groups in the 
domestic violence area. We have met with both national and local groups 
who are involved with the domestic violence issue both on the policy 
and the treatment levels. We have interviewed practitioners and groups 
with an eye towards providing additional education, training and 
resources for the Players and their families in the months to come--
whether or not we agree with MLB on a new, comprehensive domestic 
violence policy.
    Based on those discussions, as well as a review of existing 
programs in both the public and private sectors, we better appreciate 
several key principles. First, our program must hold those who engage 
in prohibited conduct--whether they are a player, a club official, or 
an owner--accountable for what they have done. Second, how a person is 
held accountable cannot result in the escalation of an already 
dangerous situation into a lethal one or result in victims being 
discouraged from coming forward. Third, given the reality that domestic 
violence occurs in so many different forms and situations, there must 
be a recognition that no one response that can safely and effectively 
address every incident. And fourth, a program will be incomplete if it 
focuses only on the offender and not on the needs and interests of 
those who have been victimized.
    This fall, we have had several discussions with Major League 
Baseball about the issues noted above and additional meetings are 
scheduled in the coming weeks. We believe we share with the league a 
common goal of developing in the near future a comprehensive, fair, and 
effective program for the entire family of baseball and one that, if 
correctly implemented, may help others beyond our industry.

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. We are confident that Major League Baseball shares our 
appreciation of the complexity of this issue, its existence in all 
elements of our society, and the need for a constructive and 
comprehensive solution that addresses all of the challenges noted 
above. This confidence stems from both the program that is already in 
place and our ongoing discussion about how that program can and should 
be improved.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Kathleen Behrens
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions.

    Question 1a. For the others, can you please tell me where you are 
in negotiating new uniform policies to address domestic violence?

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. The NBA is committed to vigilance with respect to domestic 
violence. We will continue to work closely with the Players Association 
to provide education, awareness training, and appropriate resources to 
NBA players and their families. We recognize our responsibility to do 
all that we can to prevent this destructive and unacceptable conduct 
from happening in the future.
    Collective Bargaining Agreement: The Collective Bargaining 
Agreement between the NBA and the Players Association (CBA) will expire 
on June 30, 2021; however, both parties to the CBA have the option to 
terminate it on June 30, 2017 by providing written notice to the other 
party by December 15, 2016.
    Education and Training: The NBA is committed to providing 
substantial education and training programs with respect to family 
violence issues.

  1.  In recent months, the NBA and the Players Association have worked 
        together to strengthen the league's education and training 
        programs, including:

    a.  Pursuant to the CBA, the NBA and Players Association conduct 
            Team Awareness Meetings each season with all players on 
            each NBA team, which cover selected topics determined 
            annually by the NBA and the Players Association. As part of 
            these Meetings, the NBA and the Players Association will be 
            conducting sessions for all players focused solely on 
            domestic violence and related issues during the 2014-15 
            season. These sessions, to be completed by mid-February of 
            2015, will be conducted by Ted Bunch, co-founder of A Call 
            to Men, a leading violence prevention organization 
            providing training and education for men, boys, and 
            communities, and Kalimah Johnson, founder of SASHA Center, 
            a Detroit-based healing and awareness center focusing on 
            sexual assault. We will be continuing this training going 
            forward.

    b.  We are working with the Players Association to set up a family 
            violence focused hotline that would be available to all 
            members of the NBA family. In addition, we are working with 
            the Players Association, as well as the organizations 
            representing players' spouses, mothers and fathers, to 
            develop a training and education program for players' 
            families.

  2.  In addition to the education and training set forth above, the 
        NBA has taken the following steps:

    a.  During the 2014-15 season, we are requiring all NBA teams to 
            conduct a live domestic violence awareness training session 
            for team executives who work most closely with their 
            players (i.e., Basketball Operations, Community Relations, 
            Public Relations, Player Development and Training staff 
            members). The NBA has contacted three outstanding 
            organizations to conduct these training sessions: Mentors 
            in Violence Prevention; Futures Without Violence; and Safe 
            Horizon. We will be continuing this training going forward.

    b.  In the process of taking a fresh look at our policies and 
            practices in the domestic violence area, the NBA has sought 
            guidance from experts in the field--including 
            representatives from the Corporate Alliance to End Partner 
            Violence, Men Can Stop Rape, Safe Horizon, Joyful Heart 
            Foundation, and the Institute on Domestic Violence in the 
            African American Community. We have also retained Valli 
            Kalei Kanuha, a Professor of Social Work at University of 
            Hawaii and well-known domestic violence expert, as a 
            consultant. We will continue to work with these individuals 
            and organizations, as well as others in the field, to 
            ensure that our programs and policies are comprehensive and 
            effective.

    Question 2. The New York Times recently reported on special 
treatment that NFL players receive from law enforcement when they are 
accused and even arrested for domestic violence. The November 16 
article reported that teams form cozy relationships with the local 
police, often employ off-duty officers, and give them special perks. 
According to the article, teams will work with law enforcement in order 
to minimize publicity and the negative impact on players. In one case, 
a player arrested for domestic violence was actually escorted by police 
back to the residence of the woman he assaulted. This is unbelievable.

    Question 2a. Do your teams employ or otherwise provide financial 
benefits to off-duty police officers? If so, please give me the 
percentage of your teams that do so.

    Question 2b. Will you adopt a league-wide policy that prohibits 
such employment in order to avoid special, lenient treatment for 
players that run afoul of the law, including for domestic violence 
incidents?
    Answer. NBA players and team executives are high-profile members of 
their local communities, and many such individuals are also in the 
national spotlight. As such, they require appropriate physical security 
in many situations, including at games, practices, team events, and 
player appearances. In order to provide this necessary security, NBA 
teams must employ competent and effective security professionals. Such 
professionals can include both retired and off-duty law enforcement 
officers.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Kathleen Behrens
    Question 1. The entire nation was shocked by the video of a 
football player knocking his fiancee unconscious in a hotel elevator 
and honestly I don't believe that anyone who saw that video will ever 
forget it--the punch and the dragging of a woman flopping like a rag 
doll on the cold hard floor.
    Unfortunately this was not an isolated case: There have been 83 
arrests of NFL players for domestic violence reported since 2000. In 
fact, 48 percent of all violent crime arrests for NFL players are for 
domestic violence.
    We know this is not just a problem for the NFL. We have seen too 
many other horrific acts of violence perpetrated by professional 
athletes in the NBA, the NHL and in Major League Baseball.
    We know that domestic violence is a problem that plagues our 
society as a whole--and we know that it is time for all of us to act to 
address this epidemic.
    So I have some questions that I want to ask all of the sports 
leagues that are represented here today:

    Question 1a. We know that, tragically, most cases of domestic 
violence go unreported. How many allegations of domestic violence has 
your league received in the last decade?
    Answer. Between 2004 and 2014, the NBA is aware of 17 instances in 
which allegations of domestic violence were made against NBA players. 
In 10 of those instances, criminal charges were never filed or were 
dismissed. In 3 of the remaining instances, the players were permitted 
by prosecutors to enter programs or agreements that resulted in the 
charges ultimately being dismissed. In the final 4 instances, the 
players were convicted of domestic violence misdemeanors. Two of these 
players were suspended by the NBA--one for 7 games in 2007 and one for 
24 games in 2014. (The remaining 2 players were no longer in the league 
at the time of their convictions.)

    Question 2. As representatives of our professional sports leagues, 
you have the unique opportunity to lead the way--and do good for the 
entire nation--by preventing these crimes and setting an example when a 
crime occurs.
    I believe there are three things you can do immediately:

        The first is prevention. We need to stop these horrendous acts 
        of violence before they happen. To do that, you need to act now 
        by educating your players, employees, and their families that 
        domestic violence is unacceptable and will not be tolerated. . 
        This education, or call it counseling or call it life coaching, 
        is absolutely critical to prevent violence.

        Second, you need to create a real zero-tolerance policy for 
        domestic violence.

        Earlier this year, I led a bipartisan group of 16 Senate women 
        urging National Football League Commissioner Roger Goodell to 
        institute a zero-tolerance policy for domestic violence.

        It is up to ALL of our professional sports leagues to send that 
        message to their players--that if they can't meet that 
        standard, then they shouldn't be wearing the uniform. Why do I 
        say that? Because like it or not, here is a fact--players are 
        role models for our children.

        Finally, you need to ensure that the victims of domestic 
        violence are encouraged to report these crimes and immediately 
        given an independent advocate who will fight for them every 
        step of the way.

        That means contracting with well-respected non-profit domestic 
        violence organizations that are right there in the community.

    I am proud that, in California at my urging, the University of 
California and the Cal State Universities have agreed to do this 
voluntarily.
    I believe this same model should be used by all of you.
    It is critical that our professional sports teams put the victim's 
needs at the center of their policies.

    Question 2a. Will your organization commit to establishing a 
domestic violence prevention program that includes rigorous and 
mandatory training for all players, coaches, personnel--and their 
families?
    Answer. The NBA is committed to vigilance with respect to domestic 
violence. We will continue to work closely with the Players Association 
to provide education, awareness training, and appropriate resources to 
NBA players and their families. We recognize our responsibility to do 
all that we can to prevent this destructive and unacceptable conduct 
from happening in the future.
    Collective Bargaining Agreement: The Collective Bargaining 
Agreement between the NBA and the Players Association (CBA) will expire 
on June 30, 2021; however, both parties to the CBA have the option to 
terminate it on June 30, 2017 by providing written notice to the other 
party by December 15, 2016.
    Education and Training: The NBA is committed to providing 
substantial education and training programs with respect to family 
violence issues.

  1.  In recent months, the NBA and the Players Association have worked 
        together to strengthen the league's education and training 
        programs, including:

    a.  Pursuant to the CBA, the NBA and Players Association conduct 
            Team Awareness Meetings each season with all players on 
            each NBA team, which cover selected topics determined 
            annually by the NBA and the Players Association. As part of 
            these Meetings, the NBA and the Players Association will be 
            conducting sessions for all players focused solely on 
            domestic violence and related issues during the 2014-15 
            season. These sessions, to be completed by mid-February of 
            2015, will be conducted by Ted Bunch, co-founder of A Call 
            to Men, a leading violence prevention organization 
            providing training and education for men, boys, and 
            communities, and Kalimah Johnson, founder of SASHA Center, 
            a Detroit-based healing and awareness center focusing on 
            sexual assault. We will be continuing this training going 
            forward.

    b.  We are working with the Players Association to set up a family 
            violence focused hotline that would be available to all 
            members of the NBA family. In addition, we are working with 
            the Players Association, as well as the organizations 
            representing players' spouses, mothers and fathers, to 
            develop a training and education program for players' 
            families.

  2.  In addition to the education and training set forth above, the 
        NBA has taken the following steps:

    a.  During the 2014-15 season, we are requiring all NBA teams to 
            conduct a live domestic violence awareness training session 
            for team executives who work most closely with their 
            players (i.e., Basketball Operations, Community Relations, 
            Public Relations, Player Development and Training staff 
            members). The NBA has contacted three outstanding 
            organizations to conduct these training sessions: Mentors 
            in Violence Prevention; Futures Without Violence; and Safe 
            Horizon. We will be continuing this training going forward.

    b.  In the process of taking a fresh look at our policies and 
            practices in the domestic violence area, the NBA has sought 
            guidance from experts in the field--including 
            representatives from the Corporate Alliance to End Partner 
            Violence, Men Can Stop Rape, Safe Horizon, Joyful Heart 
            Foundation, and the Institute on Domestic Violence in the 
            African American Community. We have also retained Valli 
            Kalei Kanuha, a Professor of Social Work at University of 
            Hawaii and well-known domestic violence expert, as a 
            consultant. We will continue to work with these individuals 
            and organizations, as well as others in the field, to 
            ensure that our programs and policies are comprehensive and 
            effective.

    Question 2b. Will your organization commit to a zero tolerance 
policy that makes it loud and clear that domestic violence is wrong, 
and will not be tolerated?
    Answer. Domestic violence is a serious societal issue that is 
antithetical to any community or organization that prides itself on the 
values of respect for others, good moral character, and common decency. 
These values are central to the NBA, and domestic violence is an issue 
that we are committed to handling with the proper significance and 
attention through a comprehensive, thoughtful and constructive set of 
policies (which includes education, counseling and the imposition of 
appropriate discipline).
    As we did with Charlotte Hornets' player Jeff Taylor earlier this 
year, the NBA will respond to allegations of domestic violence and 
similar offenses with an independent investigation. (Mr. Taylor was 
suspended by the NBA for 24 games in November after an independent 
investigation, and Commissioner Silver's opinion setting forth the 
basis for this discipline has already been provided to the Committee.) 
Upon the conclusion of any such investigation, the NBA will determine 
the facts of the conduct at issue and impose discipline, if any is 
appropriate, based on those facts, and in consultation with appropriate 
NBA staff members and experts in the field of domestic/family violence. 
During this process, we will, with the help of these experts, make 
every effort to ensure that the victim receives the support that he or 
she needs, which may include education and counseling.

    Question 2c. Will your organization commit to providing every 
victim with an independent advocate who will provide them the support 
that they need?
    [Ms. Behrens did not reply to this question.]
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Michele Roberts
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions.

    Question 1a. For the others, can you please tell me where you are 
in negotiating new uniform policies to address domestic violence?

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. Domestic violence is a topic that our players have long 
recognized needs to be addressed in a firm and comprehensive manner. 
Recent events have given us an opportunity to re-examine and strengthen 
the already comprehensive scheme the NBA and NBPA have in place, and 
add even more safeguards with a focus on prevention and counseling. We 
want to make sure that every player, wife, girlfriend, and family 
member has a safe environment to seek help without fear of retaliation 
or additional harm. Management and our union have worked closely 
together in this area in an unprecedented manner, as we try to lead by 
example and help create the kind of awareness and attention that this 
prevalent and society-wide problem deserves.
    Our Collective Bargaining Agreement (CBA) will expire on June 30, 
2021, though both parties have the option to terminate it on June 30, 
2017. Despite our being two and a half years away from the next 
possible negotiation, the NBA and NBPA have already added to the 
existing CBA requirements by instituting a mandatory meeting for each 
team on domestic violence awareness. Our education and outreach efforts 
were discussed at the hearing in more detail, and are summarized again 
below.
    We begin to broach the topic of domestic violence with our players 
years before they even enter the NBA. Each June at our Top 100 Camp, 
the NBPA brings together the Nation's elite high school basketball 
players, together with their parents, and helps prepare them for 
competitive life at the next level, with an emphasis on character, 
education and life-skills development. Close to 200 current NBA players 
have attended the Top 100 Camp. During the week-long program at the 
University of Virginia campus, the players work on their basketball 
skills, but the majority of each day is focused away from the court, 
where our staff of retired players, counselors, psychologists and 
psychiatric professionals lead large and small group discussions that, 
in part, focus specifically on respect issues with girls and women. At 
this young and impressionable age, we teach players that part of 
embracing their manhood includes treating every woman with kindness and 
respect. At last June's Camp, the boys--and their parents--spent a 
great deal of time with Kalimah Johnson, a very effective educator and 
founder of the SASHA Center, a Detroit-based healing and awareness 
center focusing on sexual assault.
    The education continues the moment a player enters the league, with 
the Rookie Transition Program, a four-day joint program between labor 
and management that likewise focuses on personal skills development and 
provides training on numerous topics related to conduct, including 
domestic violence. In past years, Judge Glenda Hatchett has been a very 
effective voice delivering graphic and powerful presentations on the 
effects and consequences of sexual misconduct and abuse of women.
    To complete the progression, we not only raise awareness for our 
players before and upon entering the NBA, but we now hold a Team 
Awareness Meeting, designed jointly by the NBA and NBPA, devoted solely 
to the topic of domestic violence. Kalimah Johnson of the SASHA Center 
and Ted Bunch, co-founder of A Call to Men, a leading violence 
prevention organization, are traveling around the country to meet with 
every NBA team for a session devoted solely to domestic violence 
awareness. These sessions supplement the year-round work done by our 
NBPA Player Programs staff--a group of seven retired players who work 
full-time for the union--together with the joint labor-management 
Player Assistance and Health Education Programs, that help players 
confront many of the emotional, anger management and other stress-
related issues that can be at the root of a domestic conflict.
    We have focused most recently on prevention and services to family 
members. At the union's expense, I convened a group of NBA mothers, 
fathers, spouses and girlfriends for an all-day session at our offices 
in New York. Those discussions were facilitated by a domestic violence 
expert, Karma Cottman, Executive Director of the D.C. Coalition Against 
Domestic Violence. Among other things, we identified as a principal 
need the establishment of a hotline and counseling service that will 
encourage not just players, but family members and other interested 
persons, to seek out help without the fear of retaliation or unintended 
consequences. Many people are fearful that if they speak out about the 
possibility or the actual occurrence of a domestic violence event, they 
will expose themselves to public ridicule, be alienated by relatives 
and friends, and/or jeopardize a player's livelihood, and, thus, put at 
risk their family's financial health. Everyone must be comfortable that 
there is a safe and confidential manner to seek help.
    We fully believe in and support the Committee's and Congress' goal 
of eliminating domestic violence in sports, and we believe this goal is 
best accomplished by the leagues and players working together through 
collective bargaining and other joint programming to accomplish this 
universal objective. Together we can and will set a tone of appropriate 
respect for women and all family members.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Jessica Berman
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions.

    Question 1a. For the others, can you please tell me where you are 
in negotiating new uniform policies to address domestic violence?
    Answer. The current NHL/NHLPA Collective Bargaining Agreement 
addresses off-ice conduct, which includes domestic violence, and grants 
the Commissioner broad authority and discretion to act and impose 
discipline when a Player ``has been or is guilty of conduct . . . that 
is detrimental to or against the welfare of the League or the game of 
hockey.'' With that being said, the NHL is in the process of reviewing 
its current policies to ensure that they are both effective and state-
of-the-art. The National Hockey League remains committed to the 
principle of addressing Players' personal conduct problems in a 
meaningful way and we intend to engage and involve our Players' 
Association in any ``next steps'' that might prove appropriate.

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. See answer to Question 1a which describes the NHL/NHLPA's 
current policy. With that being said, the NHLPA maintains the ability 
to file an appeal to the League's decision to discipline a player for 
off-ice conduct. From our experience, this decision is made on a case-
by-case basis. Generally speaking, however, the NHL and NHLPA have 
worked effectively and collaboratively on education and outreach.

    Question 2. The New York Times recently reported on special 
treatment that NFL players receive from law enforcement when they are 
accused and even arrested for domestic violence. The November 16 
article reported that teams form cozy relationships with the local 
police, often employ off-duty officers, and give them special perks. 
According to the article, teams will work with law enforcement in order 
to minimize publicity and the negative impact on players. In one case, 
a player arrested for domestic violence was actually escorted by police 
back to the residence of the woman he assaulted. This is unbelievable.

    Question 2a. Do your teams employ or otherwise provide financial 
benefits to off-duty police officers? If so, please give me the 
percentage of your teams that do so.
    Answer. No.

    Question 2b. Will you adopt a league-wide policy that prohibits 
such employment in order to avoid special, lenient treatment for 
players that run afoul of the law, including for domestic violence 
incidents?
    Answer. We have not considered adopting a policy such as the one 
described in your question because we have no knowledge that any such 
employment exists in the NHL.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                             Jessica Berman
    Question 1. The entire nation was shocked by the video of a 
football player knocking his fiancee unconscious in a hotel elevator 
and honestly I don't believe that anyone who saw that video will ever 
forget it--the punch and the dragging of a woman flopping like a rag 
doll on the cold hard floor.
    Unfortunately this was not an isolated case: There have been 83 
arrests of NFL players for domestic violence reported since 2000. In 
fact, 48 percent of all violent crime arrests for NFL players are for 
domestic violence.
    We know this is not just a problem for the NFL. We have seen too 
many other horrific acts of violence perpetrated by professional 
athletes in the NBA, the NHL and in Major League Baseball.
    We know that domestic violence is a problem that plagues our 
society as a whole--and we know that it is time for all of us to act to 
address this epidemic.
    So I have some questions that I want to ask all of the sports 
leagues that are represented here today:

    Question 1a. We know that, tragically, most cases of domestic 
violence go unreported. How many allegations of domestic violence has 
your league received in the last decade?
    Answer. Allegations of domestic violence which are not reported to 
us or which do not appear in the media are handled through the NHL/
NHLPA Substance Abuse and Behavioral Health Program. Based on our 
inquiry to the independent medical professionals who are charged with 
administering that Program, during the history of the Program 
(approaching 20 years), the number of contacts for domestic violence-
related incidents amount to no more than a ``handful,'' none of which 
would have triggered legal reporting requirements. Because of the 
confidential nature of the Program, precise details beyond those that 
are provided here are not available to the League.

    Question 2. As representatives of our professional sports leagues, 
you have the unique opportunity to lead the way--and do good for the 
entire nation--by preventing these crimes and setting an example when a 
crime occurs.
    I believe there are three things you can do immediately:

        The first is prevention. We need to stop these horrendous acts 
        of violence before they happen. To do that, you need to act now 
        by educating your players, employees, and their families that 
        domestic violence is unacceptable and will not be tolerated. . 
        This education, or call it counseling or call it life coaching, 
        is absolutely critical to prevent violence.

        Second, you need to create a real zero-tolerance policy for 
        domestic violence.

        Earlier this year, I led a bipartisan group of 16 Senate women 
        urging National Football League Commissioner Roger Goodell to 
        institute a zero-tolerance policy for domestic violence.

        It is up to ALL of our professional sports leagues to send that 
        message to their players--that if they can't meet that 
        standard, then they shouldn't be wearing the uniform. Why do I 
        say that? Because like it or not, here is a fact--players are 
        role models for our children.

        Finally, you need to ensure that the victims of domestic 
        violence are encouraged to report these crimes and immediately 
        given an independent advocate who will fight for them every 
        step of the way.

        That means contracting with well-respected non-profit domestic 
        violence organizations that are right there in the community.

    I am proud that, in California at my urging, the University of 
California and the Cal State Universities have agreed to do this 
voluntarily.
    I believe this same model should be used by all of you.
    It is critical that our professional sports teams put the victim's 
needs at the center of their policies.

    Question 2a. Will your organization commit to establishing a 
domestic violence prevention program that includes rigorous and 
mandatory training for all players, coaches, personnel--and their 
families?
    Answer. The NHL has already instituted (and currently employs) a 
comprehensive educational program pursuant to which it educates its 
Players and their families on issues related to relationship conflict 
and domestic violence. It is and has been for at least the last decade 
a priority in our various Player education-related programs and 
curriculum. Having said that, and in light of recent events both 
generally and specific to our League, we have undertaken a process of 
reviewing our current education programs for Players, personnel and 
their families, both at the League and local Club level to ensure that 
they are both effective and state-of-the-art. The National Hockey 
League remains committed to ensuring that Players' personal conduct 
remains appropriate and socially acceptable, and in addressing 
unacceptable conduct in a responsible and meaningful way.

    Question 2b. Will your organization commit to a zero tolerance 
policy that makes it loud and clear that domestic violence is wrong, 
and will not be tolerated?
    Answer. See answer to Question 2a.

    Question 2c. Will your organization commit to providing every 
victim with an independent advocate who will provide them the support 
that they need?
    Answer. See answer to Question 2a.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Steven Fehr
    Question 1. It's my understanding that only the NFL can promulgate 
uniform rules and policies to address domestic violence without 
reopening its collective bargaining agreement with the players unions.

    Question 1a. For the others, can you please tell me where you are 
in negotiating new uniform policies to address domestic violence?
    Answer. As both Ms. Jessica Berman (for the NHL) and I (for the 
NHLPA) explained at the hearing on December 2, the subject of 
discipline by the League for player ``off-ice'' misconduct, which would 
include domestic violence, was dealt with during the recent round of 
collective bargaining which resulted in a new collective bargaining 
agreement reached in January 2013. The NHL and the NHLPA are thus not 
currently negotiating new policies regarding domestic violence. As part 
of the new CBA there are provisions which (1) allow the Commissioner to 
discipline a player for ``off-ice'' conduct; (2) allow the player to 
appeal any such discipline to a neutral arbitrator; and (3) give the 
Commissioner the ability under certain limited circumstances to suspend 
a player even though he has been unable to complete his investigation 
of the matter due to a potential criminal proceeding, also with the 
ability of the player to challenge that action before a neutral 
arbitrator. A case has arisen recently which may bring these provisions 
into play (it would be the first such case). As it runs its course, 
that case may provide the parties an opportunity to assess how well 
those provisions are working.

    Question 1b. Does management and the unions see eye-to-eye on the 
major elements of a uniform policy, such as strong penalties and 
effective education and outreach?
    Answer. We believe that the parties have worked effectively on 
education and outreach. We continue to do so and of course are always 
looking for ways to improve our efforts in this area. As for the nature 
and extent of the penalties, the parties have agreed to a process in 
the recently-negotiated CBA that is intended to ensure that any 
penalties issued by the Commissioner respond appropriately to the 
circumstances. As outlined above, the recently-negotiated CBA provides 
a mechanism for the Commissioner to issue discipline and for that 
discipline to be appealed to a neutral arbitrator. The arbitrator is 
mandated to determine, among other things, whether the penalty is 
appropriate given the particular facts and circumstances surrounding 
the conduct at issue and whether it is proportionate to the gravity of 
the offense.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Steven Fehr
    Question. In an op-ed that appeared in the November 13, 2014 
edition of the New York Times, NBA Commissioner Adam Silver called on 
Congress to ``adopt a Federal framework that allows states to authorize 
betting on professional sports, subject to strict regulatory 
requirements and technological safeguards.'' What are the views of the 
NHLPA on Commissioner Silver's proposal? Please explain your answer.
    Answer. We have never before seriously considered this issue, we 
have not talked to our members about this, nor have we developed a 
view. But since the NHL has a much larger presence in Canada than the 
NFL, MLB, or NBA, we would need to seriously consider the legal 
landscape in Canada and its provinces as well before developing a view 
or advocating for a position.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
